<html>
<title> - DEPARTMENT OF DEFENSE SINGLE. SERVICEMEMBER AND MILITARY FAMILY. READINESS PROGRAMS</title>
<body><pre>[Senate Hearing 115-, Part 6]
[From the U.S. Government Publishing Office]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 6

                               PERSONNEL

                               ----------                              

                           FEBRUARY 14, 2017
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


         Printed for the use of the Committee on Armed Services
         
         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-874 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------         
         


                      COMMITTEE ON ARMED SERVICES

JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director  
  

_________________________________________________________________

                       Subcommittee on Personnel

   THOM TILLIS, North Carolina
                   Chairman
   JONI ERNST, Iowa    		       KIRSTEN E. GILLIBRAND, New York
   LINDSEY GRAHAM, South Graham	       CLAIRE McCaskill, Missouri
   BEN SASSE, Nebraska		       ELIZABETH WARREN, Massachusetts


                                  (ii)


                         C O N T E N T S

_________________________________________________________________

                           February 14, 2017

                                                                   Page

Department of Defense Single Servicemember and Military Family        1
  Readiness Programs.

Dailey, Daniel A., USA, Sergeant Major of the Army...............     2
Giordano, Steven S., USN, Master Chief Petty Officer of the Navy.     7
Green, Ronald L., USMC, Sergeant Major of the Marine Corps.......    13
Cody, James A., USAF, Chief Master Sergeant of the Air Force.....    16
Roth-Douquet, Kathy, Chief Executive Officer, Blue Star Families.    36
Barna, Stephanie, Acting Assistant Secretary of Defense for          51
  Manpower and Reserve Affairs.
Raezer, Joyce W., Executive Director, National Military Family       60
  Association.
Questions for the Record.........................................    95

                                 (iii)


 
                      DEPARTMENT OF DEFENSE SINGLE.
                   SERVICEMEMBER AND MILITARY FAMILY.
                           READINESS PROGRAMS

                              ----------                              


                       TUESDAY, FEBRUARY 14, 2017

             U.S. Senate Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Thom 
Tillis (chairman of the subcommittee) presiding.
    Committee Members present: Senators Tillis, McCain, Ernst, 
Sasse, Gillibrand, Reed, McCaskill, and Warren.

            OPENING STATEMENT OF SENATOR THOM TILLIS

    Senator Tillis. Thanks, everybody. We are going to start 
these meetings on time and move them pretty efficiently. I 
appreciate the Members being here, and I particularly 
appreciate the two panels that are before us today.
    Actually this is the first time I have ever struck a gavel 
in my political career. I have been doing this for 12 years. 
When I was Speaker of the House, I got to strike the gavel 
there but never over a committee.
    I am thrilled to be actually chairing this committee, along 
with Ranking Member Gillibrand. The Ranking Member brings 
Ranking Member experience from the last 2 years and chair 
experience prior to that. I think we are going to work very 
well together and look forward to working with the other 
committee members.
    Just from the standpoint of how I intend to conduct the 
hearings, we do the early bird rule. For those of you who all 
know, the people who get here before the strike of the gavel go 
in the order of seniority, and then as people come in, we will 
track their position and recognize them in turn.
    There is only one modification that I have not heard of in 
the Senate that I would hope that my members would indulge me 
on. We are going to have rodeo rules, and what rodeo rules 
means is that after you have gone over 8 seconds, we move to 
the next Senator for speaking.
    [Laughter.]
    Senator Tillis. So we buck to the next one. If the next 
Senator would like to have you continue down the line of 
questioning, it is their prerogative to yield their time.
    But the key thing here is in a committee like this, it is 
so important to get Members here, having them know when they 
can schedule their time to be here when they have so many 
competing priorities and meetings, that letting them know when 
they can come here and ask important questions that are under 
the jurisdiction of this committee. I think we owe it to them 
to be able to plan properly.
    So we are excited about the input that we are going to get 
on defense single servicemember and family readiness programs.
    I want to welcome the first panel of this seasoned group of 
gentlemen before us. I especially want to recognize the two 
spouses who are here with two of our panelists for being here. 
I have indicated this does not count as a Valentine's date.
    [Laughter.]
    Senator Tillis. But it is good to see you with your spouses 
today because I know in your line of work, that is sometimes 
challenging.
    On panel one, we will hear from Sergeant Major of the Army 
Daniel Dailey. We will hear from Master Chief Petty Officer of 
the Navy Steven Giordano, Master Chief Sergeant of the Air 
Force James Cody, and Sergeant Major of the Marine Corps Ronald 
Green. We will just begin from my left to right for opening 
comments not to exceed 5 minutes. Thank you.

STATEMENT OF SERGEANT MAJOR OF THE ARMY DANIEL A. DAILEY, USA, 
                   SERGEANT MAJOR OF THE ARMY

    Sergeant Dailey. Chairman Tillis, Ranking Member 
Gillibrand, distinguished Members of this subcommittee, thank 
you for inviting me here today, and thank you for your 
continued support of the greatest army in the world. I am 
honored to provide to this committee an update on the current 
state of single servicemembers and the status of soldier family 
programs within our Army.
    First and foremost, I would like to thank this committee 
for what you did for our Army in last year's Congress. By 
increasing our end strength, you showed that military readiness 
is at the forefront of our policies. This decision supports the 
idea of an agile and ready force that our country needs today 
more than ever before. We ask that Congress continue to make 
military readiness a top priority as they have this past year.
    After visiting and talking with thousands of soldiers and 
families over the past year, I believe their quality of life is 
okay. But it is not great now. If we want to continue to retain 
and attract quality people under the current end strength of an 
All-Volunteer Force, we must continue sustainment efforts, as 
was the case in last year's Congress. We must ensure our 
military community is properly cared for and resourced. This 
includes appropriations for equipment, training, and manpower, 
but also includes a consistent, predictable budget that 
supports benefits and services throughout the entire lifecycle 
of a soldier: recruiting, retention, transitioning, and veteran 
status.
    The long-term impact is what is concerning. If we continue 
to be placed in positions where we must choose benefits or 
training, we will certainly lose out on the quality and talent 
down the road. Fiscal uncertainty will result in loss of 
confidence in our institution and ultimately degrade our 
ability to retain and recruit. We know very well what our 
Nation expects of us. We will continue to place emphasis on the 
mission by building readiness, preserving the future of the 
Army, and caring for our soldiers and their family members.
    Today our challenge remains the same as it has for the past 
several years: balancing requirements we have been assigned 
within the limits of the budget we have been allocated. Having 
a military is a requirement for the Nation, but it is a choice 
by individuals today. Therefore, we must ensure our actions and 
decisions reinforce the message that we are behind our 
professional All-Volunteer Force, and I am confident that 
together when we are called upon as a Nation our Army will ask 
and always be ready to assure, deter, and defend the American 
people and our way of life.
    I appreciate the opportunity to speak with you today, and I 
look forward to your questions. Thank you.
    [The prepared statement of Sergeant Dailey follows:]

   Prepared Statement by Sergeant Major of the Army Daniel A. Dailey
                              introduction
    Chairman Tillis, Ranking Member Gillibrand, distinguished Members 
of this subcommittee, thank you for inviting me here today on behalf of 
the more than 2 million Active Duty soldiers, Army National guardsmen, 
Army reservists, and Army civilians to discuss soldier and family 
programs. Thank you for your continued support of the greatest Army in 
the world. I am honored to provide an update on the current state of 
single servicemembers and the status of soldier family programs within 
our Army.
    With more than 180,000 soldiers participating in named operations, 
working to build partner capacity and deterring aggressors in more than 
140 nations around the globe, our Army is in high demand. Despite 
recent years of force structure cuts and fiscal uncertainty, our 
operational tempo has not decreased. We have remained the best trained, 
most lethal, and ready Army in the world, because we have continued to 
invest in our greatest asset--people.
    Our greatest challenge as public servants is keeping faith with the 
people we serve while remaining fiscally responsible. We appreciate the 
increase to Army end strength and the pay raise allocated to us in the 
National Defense Authorization Act of 2017. After visiting and talking 
with thousands of soldiers and their families over the past year, their 
quality of life is good, but I believe it could be improved. If we want 
to continue to retain and attract quality people for our future All-
Volunteer Force, we must provide adequate levels of funding and support 
our key family and soldier programs. I am grateful for the support 
Congress has provided to our soldiers, their families, and Army 
civilians over the years and I am confident that this Congress will 
keep our Army the best trained and equipped force in the world.
                               background
    Soldier and family programs are an investment in the Army's most 
valuable asset--our people. The Army remains committed to providing 
soldiers and families a quality of life commensurate with their 
service, while being good stewards of taxpayer dollars.
    Soldier and family programs remain a top priority for Army 
leadership, because they have a direct impact on readiness and 
resiliency among our soldiers and their families. They are an 
investment in the Army's most valuable asset--our people. Where there 
are service gaps, we will continue to partner with our sister services 
and local communities by providing alternatives to government-provided 
programs and ensuring support for our geographically dispersed 
families.
    We will protect soldier and family programs to meet DOD [Department 
of Defense] standards. However, given the recent years of fiscal 
uncertainty, the Army has, in past, paused to analyze spending in 
support of Morale, Welfare, and Recreation programs, specifically. We 
continue to review these and other family programs to ensure the most 
efficient delivery of service, where and when they are needed most. 
Local commanders have the flexibility to adjust programs within 
statute, and policy to support the unique needs of their populations.
    The realities of a changing force and a budget level designed to 
support a smaller Army require that we evaluate where efficiencies can 
be realized. As good stewards of America's tax dollars, it is our 
responsibility to consider where we can best utilize limited resources 
to maintain the Army's readiness.
                              integration
    The Army has fully implemented gender-neutral occupational 
standards for all military occupations. Over 233,000 positions have 
been integrated since 2012. The Occupational Physical Assessment Test 
became policy in January 2017 for use in gender neutral recruiting and 
accessions. This test fulfills the Army's obligation from Congress to 
adopt gender neutral occupational standards. The testing is also 
intended to reduce training injuries and attrition. Since integrating 
women into combat arms occupations, 14 female officers have graduated 
the Infantry Basic Officer Leader's Course since October 2016, and 15 
female officers have graduated the Armor Basic Officer Leader's Course 
since January 2017.
    The Army has successfully contracted with, accessed, or transferred 
over 300 women--49 Active component leaders in the ranks of sergeant 
through captain, 30 Reserve component leaders in the ranks of sergeant 
through lieutenant, and 262 junior enlisted soldiers--for Infantry, 
Armor, and Fire Support Specialist occupations since April 1, 2016.
    To address cultural concerns identified through Army studies, the 
Army will train and assign leaders into previously closed career fields 
and units before assigning junior enlisted female soldiers using the 
``Leaders First'' strategy. The Leaders First strategy assigns two 
leaders in the same career management field into Infantry or Armor 
company level units prior to the assignment of female junior enlisted 
soldiers. Enlisted recruits for Infantry and Armor occupations were 
placed into the Delayed Entry Program in support of the ``Leaders 
First'' strategy and the Army Unit Fill Plan. The Unit Fill Plan 
designates specific units for assignments during phase III of the 
Army's implementation plan based on propensity of women to serve. 
Junior enlisted soldiers will be assigned to companies in cohorts to 
prevent isolation and avoid potential incidents of unprofessional 
behavior.
    In another example of the Army's desire to attract and retain the 
best qualified soldiers, the Army allows transgender soldiers to serve 
openly. Anyone who can meet the standards for military service and 
readiness is eligible to join the Army. We are committed to treating 
all soldiers with dignity and respect while ensuring good order and 
discipline. No otherwise qualified soldier will be involuntarily 
separated, discharged, or denied reenlistment or continuation of 
service solely on the basis of the soldier's gender identity.
    Accession policies are pending change to address a history of 
gender dysphoria as a disqualifying factor. Transgender soldiers 
currently in service may transition to their preferred gender. The Army 
provides medically necessary care, either through the direct or 
purchased care system, to soldiers to treat gender dysphoria. Medical 
treatment associated with gender transition is individualized and in 
most cases does not include sex reassignment surgery. Once the soldier 
is stable in his or her preferred gender, as determined by a military 
medical provider, the soldier may request a gender marker change. When 
the gender marker is changed, the soldier will adhere to all standards 
of their preferred gender. Approximately 25 of the Army's over 1 
million soldiers have an approved gender marker change.
                           behavioral health
    With more soldiers receiving care in outpatient settings, 
behavioral health conditions are being managed sooner, before crises 
occur. In 2016, there was a 41 percent decrease in behavioral health 
inpatient bed days as compared to 2012. We have transformed the 
behavioral health system of care into a model for the nation. Programs 
such as embedded behavioral health, behavioral health in primary care 
clinics and school behavioral health reach soldiers and families where 
they live and work to improve access and reduce stigma.
                       sexual assault prevention
    Sexual assault, sexual harassment, and retaliation for reporting 
incidents have no place in our Army. Army data shows that over the past 
few years, more soldiers are making the difficult decision to report 
sexual assault than ever before, while the occurrence of the crime 
within the Army has decreased. We credit the changing culture in our 
units for making soldiers more comfortable in filing reports. Training 
and assistance to command teams from sexual assault response 
coordinators and victim advocates are paying dividends in reducing the 
stigma and providing support to soldiers who report sexual assault.
    Sexual assault response coordinators are the single point of 
contact at an installation or within a geographic area and oversee 
sexual assault awareness, prevention, and response training. They 
coordinate medical treatment, including emergency care for victims of 
sexual assault, and they track the services provided to soldiers from 
their initial report through final disposition and resolution of their 
case. The sexual assault response coordinators also explain that 
soldiers who experience sexual assault have the right to their own 
attorney, the special victims' counsel. These specially trained 
military attorneys help protect victimized soldiers' rights and 
provides them with legal advice both before and during the military 
justice process. Survey data indicates servicemembers highly rate the 
services of the special victim's counsel program. All indications are 
that these attorneys have made a big impact on empowering our soldiers 
as they navigate the military justice process.
    Victim advocates provide non-clinical crisis intervention, 
referral, and ongoing non-clinical support to adult sexual assault 
victims. Support includes providing information on available options 
and resources available to soldiers. The victim advocate, on behalf of 
soldiers reporting sexual assault, provides liaison assistance with 
other organizations and agencies on care matters and reports directly 
to the sexual assault response coordinator when performing advocacy 
duties.
    The Army's ongoing Sexual Harassment/Assault Response Prevention 
(SHARP) efforts include helping installations identify community and 
installation risk factors for sexual assault and the development of 
evidence-based prevention strategies. We are also fielding the Emergent 
Leader Immersive Training Environment Command Team Trainer, and the 
Prevention and Outreach Simulation Trainer; two computer based 
applications to better train both victim advocates and the chain of 
command. We continuously learn from our experiences. We also challenge 
our commanders and leaders at all levels to set the right conditions 
within their units so that all may serve in an Army free of sexual 
assault and harassment.
                            base operations
    Army installations sustain more than 1 million soldiers and 2.2 
million family members to support soldier, family, and unit readiness. 
Installations are platforms of readiness that provide secure and 
sustainable facilities and infrastructure from which we organize, 
train, equip, and deploy. Base operations support funding provides 
services much like those associated with a municipality, such as public 
works, security, logistics, compliance with the environment statutes 
and regulations, and family programs across our installations. These 
services and programs enable soldiers, civilians, and families to work 
and live on Army installations worldwide.
    Balancing readiness with installation services, however, will 
continue to be a challenge in the current fiscal environment and 
without consistent, predictable funding. The Army has taken risk in 
base support operations, but we do so to provide sufficient funds to 
support training and unit readiness. The risk we assume with reduced 
funding goes well beyond facilities. Further decreased funding would 
result in a higher demand for soldiers to be taken away from their 
units to support installation services. We do this to an extent already 
at larger installations where more soldiers are available and the risk 
to readiness is lower.
    Installations have very little trade space across Services and 
little flexibility to support emerging operational (Europe & Pacific) 
and strategic (Cyber) missions. We pursue initiatives to right-size our 
installation footprint and to establish partnerships. Traditional 
efficiency initiatives are not keeping pace with the decline of the 
spending power in the budget.
                    morale, welfare, and recreation
    Morale, Welfare, and Recreation (MWR) enhance the quality of life 
for our soldiers and their families. Like everything in our Army, MWR 
is a readiness consideration. High morale means better execution of our 
mission. MWR today impacts the readiness and resiliency of soldiers, 
families, and civilians by impacting their physical, social, and mental 
well-being.
    The range of morale, welfare, and recreation programs offered at 
each installation is based on the needs of the soldiers and families. 
We know Morale, Welfare, and Recreation programs and services are great 
factors in readiness. This is never taken out of consideration during 
our reviews of such programs. Army leaders will always advocate to 
provide soldiers and families the quality of life they deserve within 
fiscal constraints, while still remaining sustainable.
                    child and youth school services
    Child, youth, and school services programs operated by the Army 
includes child development centers, family childcare homes, school-age 
care, youth centers, youth sports, and fitness activities. In fiscal 
year 2016, there were more than 227,000 youths enrolled in child, 
youth, and school services programs.
    Army child development programs must meet statutory requirements 
for national accreditation. All Child, Youth, and School Services (CYS) 
programs also are required to have unannounced inspections four times 
annually. Additionally, programs sponsored off the installations must 
be state licensed, annually inspected, and nationally accredited. All 
Army CYS programs are Defense Department certified, and 98 percent of 
child development programs are nationally accredited, compared to only 
10 percent of the civilian sector childcare services.
    While we are proud of our facilities and their high standards, some 
hiring delays occur due to the time it takes to complete background 
checks. We are concerned that there are currently more than 5,500 
children on waitlists for childcare. Most are infants who cannot be 
placed within 90 days, per DOD policy. The transition to the Office of 
the Secretary of Defense's online system to request childcare will help 
the Army meet our goal to reduce this backlog.
                          education assistance
    Few programs have had more impact on the decline of veteran 
unemployment than the educational programs offered by the Army. I am 
confident that the Army programs such as tuition assistance, 
credentialing, Soldier for Life, or transition assistance, in 
combination with Defense Department and interagency initiatives with 
the Labor Department, Veterans Affairs Department, and the Small 
Business Administration have helped lower the unemployment rate for 
veterans and post 9/11 veterans.
    During my visits throughout the various Army installations, 
soldiers often have concerns about education benefits. Topics such as 
variations in tuition assistance, how much assistance is offered, and 
what programs are available are echoed across our Army. First and 
foremost, we understand that tuition assistance is a privilege and not 
an entitlement. The Army's tuition assistance program helps retain 
quality soldiers by enhancing their career progression potential, 
increasing Army combat readiness, and preparing soldiers for their 
eventual return to civilian careers.
    Education supports the Army's goal to develop adaptive, agile 
soldiers capable of responding to full spectrum operations across the 
world. The Army's tuition assistance program supports three of the 
seven leader development imperatives of the Army Leader Development 
Strategy: commitment to the Army profession, lifelong learning and 
development; a balance of the Army's commitment to training, education, 
and experience components of leader development; and management of 
military/civilian talent to benefit the institution and individual.
    In addition to tuition assistance, our Army is reviewing an 
initiative to expand our ability for soldiers to earn certificates and 
licensing. Currently, there are 1,556 credentials, as identified by 
each of the Army career fields that are recommended through Army COOL 
(Credentialing Opportunities On-Line). Last year, about 23,000 
certifications were earned by soldiers through mandatory and voluntary 
credentialing opportunities, leaving them more prepared to enter the 
civilian workforce.
    Veteran unemployment is below the national average. At the close of 
calendar year 2016, veteran unemployment was 4.3 percent, and the non-
veteran rate was 4.7 percent. As a result, Army Unemployment 
Compensation (UCX) costs during fiscal year 2016 were the lowest amount 
recorded in 13 years. The Army pays UCX for up to 26 weeks for recently 
transitioned veterans who are unemployed.
                           spouse employment
    Multiple relocations, extended periods of separation, single-
parenting, and, simply, the overall tempo and requirements of a soldier 
takes a toll on the entire family. The spouse is often the glue that 
holds it all together. Spouses of soldiers are extremely resilient and 
their sacrifices cannot be underestimated. Even during peacetime or 
when the military spouse is not serving in an operational unit, they 
often forego careers of their own.
    We remain committed to doing all that we can to enhance employment 
opportunities for military spouses. I agree with what Secretary Mattis 
recently stated that, ``we cannot lose sight of the imperative to keep 
faith with our servicemembers and their families.'' Eighty-five percent 
of military spouses have some college. Twenty-five percent have 
undergraduate degrees, and 10 percent have earned graduate degrees or 
higher.
    Spouse employment affects financial stability and military 
readiness. Our Army Employment Readiness program provides assistance to 
military spouses, Active Duty, retirees, Army civilians, and survivors 
to acquire skills, networks, and resources to find employment. The DOD 
Military Spouse Employment Partnership (MSEP) program has over 340 
partner employers with over 5.5 million positions. MSEP focuses on 
connecting spouses and military-friendly employers, which range from 
small businesses to Fortune 500 companies to non-profits. These 
programs have facilitated over 100,000 spouse hires. Still, there is 
more work to be done to ensure spouses who want to work can do so with 
proper compensation.
                            single soldiers
    Single soldiers make up a large portion of our force. We talk about 
family readiness and family programs, but it is often the single 
soldiers for which we have the most difficult time providing support. 
They are young and away from home, their friends, and family for the 
first time in their lives. This is why programs such as Better 
Opportunities for Single soldiers (BOSS), part of MWR, are so 
important.
    BOSS focuses its efforts on single soldiers 18-25 years old to 
enhance their quality of life and is not simply focused on recreation 
events. BOSS gives single soldiers an avenue to communicate issues 
important to them to their command. BOSS improves esprit de corps 
through community outreach events, too. Currently, there are 74 BOSS 
programs Army wide. Each one fosters fellowship and supports 
initiatives for fitness, leadership, and pride in service.
    Supporting single soldiers through BOSS reinforces Army strategies 
and component processes that build and enhance resiliency. It is 
another avenue for young soldiers to refine leadership skills, develop 
public speaking skills, improve communication skills, etc. When fully 
utilized, BOSS contributes to a higher percentage of comprehensively 
fit soldiers. Like morale, comprehensive soldier fitness is often not 
measured in tangibles, but directly impacts readiness of the overall 
force.
                                closing
    The topics I've highlighted here carry one thread--people. 
Everything we do is about the people who wear this uniform now and in 
the future. As decisions are being made about programs to keep, 
facilities to maintain, services to provide, and people to stay--we are 
ever mindful of the impact of these decisions on our Army family.
    The amazing thing about the American soldier and the Army family is 
that despite these challenges, fears, and frustrations--they stand tall 
in defense of our Nation. Throughout the recent years downsizing our 
force and working within fiscal constraints, our soldiers have 
demonstrated their professionalism. The soldiers who make up today's 
All-Volunteer Force, their families, and the civilian workforce that 
supports us, stand ever-ready and willing to answer the Nation's call. 
We must ensure that our decisions never weaken such a solemn bond.
    In closing, I want to recognize the tireless work that our Army 
team does every single day. As the Sergeant Major of the Army, the best 
part of my job is being around the greatest team the world has ever 
known. I respectfully request that Congress partner with us to continue 
supporting and sustaining quality in the All-Volunteer Force. Soldiers 
and families need consistency and predictability from our Government to 
meet the inconsistent and unpredictable threats to our Nation. We must 
continue our commitment to the families of those who serve. Any 
degradation of benefits and services to our soldiers and families may 
hinder our ability to maintain readiness and could add significant risk 
to sustaining a professional All-Volunteer Force.

 STATEMENT OF MASTER CHIEF PETTY OFFICER OF THE NAVY STEVEN S. 
     GIORDANO, USN, MASTER CHIEF PETTY OFFICER OF THE NAVY

    Chief Giordano. Chairman Tillis, Ranking Member Gillibrand, 
and distinguished Members, I am honored to appear before you 
today on behalf of the men and women of the United States Navy. 
Also with me today, as mentioned, is my wife Elka, our Navy's 
Ombudsman-at-Large.
    Five months ago, I assumed the duties as the 14th Master 
Chief Petty Officer of the Navy as the senior enlisted advisor 
to the Chief of Naval Operations on all matters dealing with 
our sailors and their families. Throughout my time in service, 
I have been honored and humbled to serve alongside these 
courageous patriots, these men and women who are determined, 
motivated, and unshakable in their devotion to our Nation and 
our Navy and highly competent in their technical expertise and 
abilities. With quiet, unassuming courage, these great 
Americans defend our Nation and its freedoms around the globe 
in every theater of operation. With this in mind, I believe we 
share a collective and inherent solemn obligation to ensure 
their quality of service while supporting and preparing them 
for the future.
    Our Navy is at optimal potential when sailors are fully 
focused on the mission. Taking care of our sailors is key to 
ensuring the Navy's military readiness. Providing them the 
ability to devote their full attention and capabilities to the 
mission at hand is an important factor in successfully 
executing our design for maintaining maritime superiority, 
specifically our line of effort to strengthen our Navy team for 
the future.
    We are a one Navy team comprised of a diverse mix of Active 
Duty, Reserve sailors, thousands of Navy civilians, and our 
collective families with a history of service, sacrifice, and 
success. I have listened and spoken with many of our sailors 
and their family members, and I am awed by their high morale 
and devotion to duty and to one another. The Navy remains 
resolute in ensuring we deliver the highest quality of service 
to recruit, train, and retain our best sailors. We strive to 
meet that demand delivering the proper skills mix to the fleet 
and improving balance between sea duty and shore duty while at 
the same time ensuring the families of our servicemembers are 
taken care of.
    Our sailors are the most important component of our Navy. 
We can never take for granted the sacrifices sailors and their 
families make every day. On behalf of all of them, I appreciate 
the opportunity to speak with you on their behalf and to thank 
you for your unwavering support and commitment to providing the 
resources necessary to ensure we remain the world's preeminent 
maritime fighting force.
    Please accept my written testimony for the record, and I 
look forward to your questions. Thank you.
    [The prepared statement of Chief Giordano follows:]

  Prepared Statement by Master Chief Petty Officer Steven S. Giordano
    Chairman Tillis, Ranking Member Gillibrand, and distinguished 
Members of this subcommittee, I am honored to submit to you today on 
behalf of the enlisted men and women of the United States Navy an 
informative statement covering various topics of interest to our 
enlisted force. Six months ago, I assumed duties as the 14th Master 
Chief Petty of the Navy (MCPON), the senior enlisted advisor (SEA) to 
the Chief of Naval Operations (CNO), on all matters dealing with 
enlisted sailors, and their families. In nearly 28 years of service, I 
have been honored and humbled to serve alongside our Nation's most 
admirable and courageous patriots, the sailors of the United States 
Navy. These men and women are determined, motivated, and unshakable in 
their devotion to our Nation and our Navy, and highly-competent in 
their technical expertise and ability to meet the National Command 
Authority's objectives with enthusiasm and professional acumen. With 
quiet and unassuming courage and tenacity, these great Americans defend 
our Nation, its freedoms and its national security interests around the 
globe in every theater of operations. With this in mind, I believe we 
share a collective and inherent solemn obligation to ensure their 
quality of service, while supporting and preparing them for the future.
    I read with great interest Chairman McCain's thoughtful report on 
Restoring American Power. It acknowledges the realities of what has 
come to pass as we stretched our forces to the maximum point. While 
significant challenges lie ahead to address the true national security 
requirements, we must carefully consider the requirements to enhance 
and sustain our Navy in the years ahead. We are at optimal potential 
when sailors are fully focused on the mission, making them the most 
critical asset in our ability to fight and win. Regardless of the force 
structure we adopt, taking care of our sailors is key to ensuring the 
Navy's military readiness. Providing them the ability to devote their 
full attention and capabilities to the mission at hand is the single 
most important factor in successfully executing the Chief of Naval 
Operations' Design for Maintaining Maritime Superiority Line of Effort 
to ``Strengthen Our Navy Team for the Future.''
    Quality of service--composed of quality of work and quality of 
life--is vital to sailor and Navy family readiness. In maintaining 
readiness, quality of service initiatives involving infrastructure--
such as barracks, enhanced training and schools--require consistent 
investment. We are one Navy team--comprised of a diverse mix of 600,000 
Active Duty and Reserve sailors, coupled with thousands of Navy 
civilians, and our collective families--with a history of service, 
sacrifice and success. The CNO has charged us with building upon this 
history to create a climate of operational excellence allowing us to 
prevail in all future challenges. We currently have 71 installations 
around the globe, with more than 25,000 sailors deployed, away from 
their families, and in the current environment, the demand for Navy 
operating forces and Active component manpower, capability and capacity 
is increasing. I have listened and spoken with thousands of our sailors 
and family members, and am awed by their high morale, even as they 
operate within an increasingly constrained fiscal environment that 
directly affects their quality of life.
    The Navy remains resolute in ensuring we deliver the highest 
quality of service to facilitate recruiting, training and retaining the 
finest sailors who make the selfless decision of service with 
sacrifice. We strive to meet that demand, deliver the proper skills-mix 
to the Fleet, and improve the balance between sea duty and shore duty. 
Active component manpower is augmented by Ready Reserve Sailors, the 
Navy's primary source of mobilization manpower and surge operational 
support. Maintaining the appropriate level and types of sailors in the 
Reserve Force provides needed operational capabilities and strategic 
depth to meet Total Force requirements. Our flexibility, 
responsiveness, and ability to serve across a wide spectrum of 
operations, enhances the Navy Total Force.
    Fleet Manning. Increased accessions in fiscal year 2012 and fiscal 
year 2013 have contributed to high levels of Fleet manning and 
warfighting readiness. Manning among Optimized Fleet Response Plan 
(OFRP) assets and Forward Deployed Naval Forces (FDNF), our highest-
priority deployers, averaged 98 percent in calendar year 2016 ("Fill"), 
with 90 percent of those billets, occupied by sailors with the proper 
mix of skill, experience, and specific billet requirements ("Fit"). Our 
efforts to reduce manning gaps at sea continue unabated. By the end of 
fiscal year 2016, there were nearly 2,800 gaps at sea, an increase of 
almost 1,000 gaps from 1 year earlier. As projected, we have seen a 
slight decline in Fit and Fill throughout this year, as sailors from 
the large fiscal year 2012-fiscal year 2013 cohort have started to 
transfer from sea duty sooner than replacements arrive. We are using a 
wide range of available options to mitigate the projected drop in sea 
duty Fill, including increasing fiscal year 2017 enlisted accessions, 
extending sea tours, and assigning Reserve sailors to fill sea duty 
billets. At the end of fiscal year 2016, nearly 3,300 Full-Time Support 
(FTS) sailors were filling sea duty billets, exemplifying the 
importance of Reserve sailors as integral partners in our operational 
Navy Team.
    Despite a decrease of deployments to Iraq and Afghanistan, high 
operational and personnel tempo continues to present challenges for 
sailors and Navy families. As we continue to work under OFRP, we remain 
mindful of the need to fulfill their quality of life expectations. The 
plan is designed to provide a sustainable, predictable, cycle for ship 
deployment, training and maintenance allowing families to better plan 
around their sailor's platform cycle minimizing the potential for 
imposition of high, unhealthy, stress levels. Among sailors' top 
concerns are short-fused Permanent Change of Stations (PCS) moves, 
career flexibility, childcare availability, and spouse employment 
licensing and credentialing.
    Recruiting & Retention. Aggregate recruiting and retention 
objectives are being met. However, with an improving economy, it is 
paramount we maintain Navy career flexibility in rating modernization. 
Providing proper training, career incentives and special pays, will 
contribute to retaining critically-skilled sailors. With the 
extraordinary demands we place on sailors and Navy families, coupled 
with the improving economy and increased job opportunities in the 
civilian sector, recruiting and retaining highly-talented sailors may 
become increasingly challenging in the years ahead.
    Fiscal year 2016 enlisted retention exceeded 100 percent in each of 
the three reenlistment zones through 14 years of service. While we 
anticipate meeting aggregate enlisted retention goals in fiscal year 
2017, we continue to experience retention challenges and inventory 
shortfalls within some critical communities, such as Information 
Warfare, Nuclear Field, Special Warfare, and Advanced Electronics. 
After experiencing strong retention from fiscal year 2014 to fiscal 
year 2016, current economic indicators suggest a greater pull from the 
civilian workforce for our top talent over the next couple of years. 
This impending challenge requires judicious targeting of incentives, 
particularly selective reenlistment bonuses among high-demand critical 
skill sets, as well as among less-technical skill sets that an 
improving economy may adversely affect. Retaining sailors in the right 
mix of skills and pay grades is critical in positioning Navy to meet 
future mission requirements.
    Pay and Compensation. Navy life imposes the stress and rigors of 
deployments, overseas duty assignments in harms-way, and prolonged 
separations from family and friends. Members of the All-Volunteer Force 
(AVF) serve out of an abiding sense of patriotism, honor, uncommon 
valor, and sense of duty. On behalf of our enlisted sailors and their 
families, I want to express our gratitude for the basic pay adjustment 
enacted in the fiscal year 2017 NDAA [National Defense Authorization 
Act], which sent a strong signal of the Nation's appreciation for the 
service, sacrifice and commitment of our sailors and their families.
    Basic Allowance for Housing. A fiscal year 2017 NDAA provision 
requires the Department of Defense to report to Congress on a plan 
revising the longstanding salary system, placing particular emphasis on 
a change in Basic Allowance for Housing (BAH) as compensation, rather 
than as an allowance. This has caused significant uncertainty and 
anxiety among sailors. BAH is a recurring topic of concern at my all 
hands calls during command visits. Sailors are concerned about the BAH 
monetary amount decreasing or being realigned by reintroducing the 
Variable Housing Allowance. If sailors perceive the value of their 
service is declining by increasing their out-of-pocket expenses for 
housing, it may adversely impact retention and recruiting.
    Navy Housing and Homeport Ashore. Construction and recapitalization 
of single sailor housing continues to be of concern out in the Fleet. 
Although we monitor the safety of our barracks and prioritize funds for 
buildings in the worst condition, we are not renovating unaccompanied 
housing faster than the rate at which it degrades. Currently, 62 
percent of Navy unaccompanied housing facilities are rated as 
``adequate,'' and we are unable to improve the overall condition of our 
inventory at current funding levels. As defined from DOD 4165.63-M, 
``adequate'' means for unaccompanied housing, the construction costs 
for all needed repairs and improvements cannot exceed 20 percent of the 
replacement costs.
    As an example, if a building has a $100 value and the cost of 
needed repairs exceeds $20, it is considered ``inadequate.'' The longer 
we wait to make investments in this area the greater and more costly 
this problem will become. In 2016, the Navy completed the 
implementation of our Homeport Ashore initiative which provides a bed 
ashore for each single shipboard sailor while their ship is in 
homeport. Our two privatized unaccompanied housing projects--Pacific 
Beacon in San Diego and Homeport Hampton Roads in Norfolk--offer modern 
apartment-style living to junior sailors stationed in these two Fleet 
concentration areas.
    Sailor 2025. In September, Navy announced initial plans for 
modernizing the enlisted career development program, providing greater 
choice and flexibility for sailors with respect to detailing and 
training, greater flexibility in assigning highly-trained personnel, 
and increased professional alignment with civilian employers.
    Through Ready Relevant Learning (RRL), a component of Sailor 2025, 
we are enhancing our training processes to ensure sailors receive the 
right training, at the right time, through an enhanced learning 
continuum, modernized training and integrated training development. 
This will preclude commands from being without trained sailors with the 
specific required skills during periods of personnel transfers. As 
sailors arrive at their commands earlier in the training cycle, the 
overall quality of training for individuals and units will improve as 
will deployed readiness and capability.
    The Career Intermission Program (CIP) originated as a unique Navy 
initiative, authorized by Congress in the fiscal year 2009 NDAA, which 
permits eligible sailors to take a break from Active Duty to pursue 
personal goals such as starting a family, acquiring higher education, 
or tending to various other personal family matters; and then resuming 
their Navy service upon completion of the intermission. Allowing 
sailors an intermission of up to 3 years, while serving in the 
Individual Ready Reserve, and continuing to enjoy full medical and 
dental benefits, access to commissaries and exchanges, and a small 
monthly stipend, contributes to our ability to retain sailors who might 
otherwise leave the Navy to meet those personal needs. CIP has grown 
over the years, with enhancements based upon lessons-learned, and has 
now been adopted in various forms across the other Services. We have 
only recently begun to expand CIP, implementing enhancements enacted in 
the fiscal year 2016 NDAA, such as lifting the cap on the number of 
participants, and permitting participation by those in receipt of a 
critical skills retention bonus, or serving in their initial period of 
obligated service. We have yet to tap the full potential of this 
innovative retention and quality of life program. We appreciate recent 
modifications to the program, and will closely monitor the impact on 
CIP participation rates and its effects on retention and sailor 
satisfaction.
    Last month, OSD [Office of the Secretary of Defense] released 
implementing guidance for the Blended Retirement System (BRS), 
authorized in the fiscal year 2016 NDAA. BRS blends a 20-year cliff-
vested defined benefit annuity, similar to the existing uniformed 
services' legacy retirement systems, with a defined contribution plan, 
allowing servicemembers to contribute to a Thrift Savings Plan (TSP) 
account with government automatic and matching contributions. BRS is 
expected to provide retirement savings benefits for the majority of 
servicemembers, including those who serve fewer than 20 years. Integral 
to successful implementation of BRS is the effective training of all 
impacted uniformed personnel. Any member of a uniformed service 
determined to be eligible for enrollment in BRS has either completed, 
or must complete, mandatory training prior to enrolling in accordance 
with prescribed guidance. The BRS training is only one of many 
resources available to sailors making a possible opt-in decision.
    Family Support Programs and Force Resiliency. Sailor and family 
support provides much-needed assistance to sailors and their families 
through robust programs including: relocation assistance, non-medical 
and family counseling, personal and family life education, personal 
financial management services, information and referral services, 
deployment assistance, domestic violence prevention and response 
services, exceptional family member liaison, emergency family 
assistance, and transition assistance.
    In this increasingly technological world, we are upgrading our 
capability to communicate directly with deck-plate sailors using 
available technologies. With the launch of Navy's Resources web page, 
now including applications for download on personal electronic devices, 
we can conduct unprecedented outreach with sailors. The Financial 
Literacy Application is one example of leveraging technology to 
increase interactivity and enhance information sharing with sailors. 
Financial literacy education, along with Military Life Cycle Transition 
Points education, enables sailors to consider relevant information as 
they approach specific life events. This will assist sailors and their 
families in updating financial plans based on professional and personal 
needs. Each of these programs is available through online access.
    Navy families are the heart and soul of our Navy team and family 
support programs are vital to sustaining them. We have new programs 
that focus on assisting military spouses find employment, which is 
critical to the financial needs and long-term financial security of 
Navy families. All military spouses, as well as other family members, 
can receive employment services through Navy's Family Employment 
Readiness Program. In addition to offering assistance in resume 
writing, interview coaching, job searches, and other employment 
services, we work closely with the Department of Defense Spouse 
Education and Career Opportunities (SECO) Program to provide expert 
education and career guidance to military spouses worldwide. The MySECO 
website provides a comprehensive set of virtual tools and resources 
that assist military spouses in pursuit of their educational and 
employment goals. Navy has also partnered with the Military Spouse 
Employment Partnership (MSEP), which connects military spouses with 
more than 335+ partners, which have committed to recruit, hire, 
promote, and retain military spouses in portable careers.
    Navy Child Care and Youth Programs continue to be accessible, 
affordable, and provide high-quality child and youth development 
programs through child development centers, youth centers, child 
development homes and contract childcare spaces. The increase in child 
development center hours to provide childcare has been well-received 
throughout the Fleet; however, challenges remain. Some DOD childcare 
facilities have wait lists greater than 3 months, and this is an issue 
of concern to many sailors who are dependent upon child development 
centers in order to perform their assigned duties.
    The Navy Ombudsmen Program, for which my wife, Elka, serves as Navy 
Ombudsman-at-Large, and Family Readiness Groups, continue to be great 
success stories. These two programs offer tremendous support in 
preparing sailors and Navy families prior to, during, and after 
deployments and other demanding missions worldwide. An ombudsman 
provides resources to spouses, assisting them in better coping with 
making it through a deployment, and providing support whenever they may 
need it. The ombudsman program offers a critical lifeline for Navy 
families providing the support they need when our sailors are deployed.
    The Navy has extended the operating hours for many of our fitness 
centers to ensure they are accessible to all sailors and marines 
regardless of their work schedules. Currently, all Navy fitness centers 
are open between 90 and 118 hours each week. Specific hours of 
operation are tailored to meet the specific needs of sailors and the 
installation to accommodate the mission. In addition to extended hours, 
there are currently 163 unmanned fitness areas and spaces across the 
enterprise that provide additional workout options for military members 
working irregular shifts.
    Morale Welfare and Recreation Programs for Single Sailors. Navy's 
Morale, Welfare and Recreation (MWR) program provides 76 liberty 
programs for single sailors 18-24 years old at installations worldwide. 
Liberty Centers offer an alcohol free environment and are open 
afternoons, evenings, and on weekends. The centers offer free Wi-Fi, 
computers, table games, video game stations, movies, recreation skills 
classes, trips, and social events. Liberty Centers offer recreation 
opportunities for all interests, from cooking classes and local 
sightseeing trips to holiday parties and game tournaments.
    Sexual Assault Prevention and Response. Sexual Assault Prevention 
and Response (SAPR) continues to be a top priority for our Navy. 
Although we have made significant progress, we continue efforts to 
ensure our sailors know what sexual assault is, how it hurts our Navy, 
how to be proactive in prevention, and how to report it. In compliance 
with DOD initiatives and the DOD Sexual Assault Prevention and Response 
Office's (SAPRO) five lines of effort, our Navy is continuing the push 
to eliminate sexual assault and destructive behaviors from our service. 
In fiscal year 2016, the Fleet successfully completed Chart the Course 
training, which builds upon the foundational elements articulated in 
our sexual assault prevention training products. Our Navy is working to 
encourage reporting from all affected personnel, with a particular 
focus on eliminating the stigma associated with male-reported assaults.
    We have established a number of critical initiatives and are 
refreshing the Navy SAPR strategy enhancing counseling services, 
victim/alleged offender non-colocation, leveraging technology advances, 
such as cell phone applications, and DOD-wide Installation Prevention 
Projects. We recently launched Full Speed Ahead training, designed to 
combat destructive behaviors across the Fleet, while reinforcing the 
core attributes of the Navy and signature behaviors as the foundation 
of a resilient and professional force. Full Speed Ahead is the third in 
a Fleet-wide training series focused on creating culturally aware and 
educated sailors while also creating an environment intolerant of 
sexual assault and other destructive behaviors. Navy continues to focus 
on ensuring victims are treated with compassion and receive quality 
care, that investigations are conducted with a high level of competence 
and timeliness, and that we continue to provide a fair and equitable 
system of appropriate accountability that promotes justice and assists 
in maintaining good order and discipline.
    Suicide Prevention & Resilience. Suicide remains a paramount 
concern in our Navy. The loss of even one sailor to this tragedy is one 
too many, and it is imperative we provide them with the resources 
required to assist them in coping with life's challenges. Sailors are 
placed under significant demands and pressure situations throughout 
their career, increasing the risk for suicide, but we are committed to 
winning this difficult battle to save the lives of our sailors. Through 
Operational Stress Control Mobile Training Teams, we are equipping 
sailors with information, training, tools, practices, and policies to 
be psychologically healthy, resilient, tough, and mission ready. 
Suicide is complex and almost always well hidden from the families, 
friends, and commands of sailors. As we look deeper into the causes, we 
continue to find problems in relationships, legal issues, financial 
matters, periods of transition, and mental health issues among the most 
common stressors sailors face, and serving as a catalyst for 
contemplating suicide.
    Our 21st Century Sailor Program continues to develop new programs 
to reduce incidents of suicide. The office recently launched the Sailor 
Assistance and Intercept for Life (SAIL) program, a research-based non-
clinical intervention strategy, providing rapid assistance, on-going 
risk assessment and support for sailors who exhibit suicide-related 
behaviors. SAIL case managers from our Fleet and Family Support Centers 
initiate and provide continuous caring contacts with these sailors, and 
maintain collaborative relationships with healthcare providers and 
command leadership throughout the critical 90 days following a suicide-
related behavior. SAIL does not replace psychological health services, 
and is not a form of treatment, but will enhance our suicide prevention 
efforts and assist in reintegrating our sailors back into the command.
    Other programs consistently promote a core message that it is 
always ok to ask for help. During fiscal year 2017, we will continue to 
emphasize ``1 Small Act'' as the  communication campaign's primary 
message. The campaign focuses on individual self-care practices and 
coping skills, as well as societal prevention and intervention support. 
Community and relationship support will continue to be emphasized, 
integrating the newest DOD theme of #BeThere.
    Our sailors are the most important component of our Navy. We can 
never take for granted the sacrifices sailors and their families make 
every day. On behalf of all of them, I appreciate your affording me the 
opportunity to talk with you about them, and to thank you for your 
unwavering support and commitment to providing the resources necessary 
to ensure we remain the world's preeminent maritime fighting force.

   STATEMENT OF SERGEANT MAJOR OF THE MARINE CORPS RONALD L. 
        GREEN, USMC, SERGEANT MAJOR OF THE MARINE CORPS

    Sergeant Green. Good afternoon, Chairman Tillis, Ranking 
Member Gillibrand, distinguished Members of the subcommittee, I 
appreciate the opportunity to provide you an update of the 
commitment of the Marine Corps to our marines and families. 
With me, I have my wife Andrea who represents all the families 
around the Corps.
    The Marine Corps continues to maintain its commitment to 
the Nation, remaining forward-deployed and ready to respond to 
crises around the world. With the dynamic pace of current and 
future demands, our Nation's leaders require and the American 
people expect your marines to answer the call, to win, and 
fight. Thanks to your lasting support and leadership, the 
Marine Corps has always been the Nation's expeditionary force 
in readiness. The Marine Corps is dedicated to our essential 
role as an expeditionary force that Congress and the American 
people can call on as the most ready when the Nation is least 
ready.
    The marines are the core, are the most sacred resource and 
always will be. Taking care of marines and their families is a 
key element of overall readiness and combat effectiveness. The 
adage ``we recruit marines and retain families'' remains as 
true today as ever. Our comprehensive package of programs and 
services seek the holistic readiness of our marines and 
families.
    The Marine Corps is by far your youngest service. The 
average age is 25. 65 percent are under 25 years of age, and 56 
percent are single. As a result of these dynamics, programs to 
support single marines and their dependents are most important.
    Our single marine program, as the consolidated voice of all 
single marines and sailors to the commanders, develops 
initiatives, and programs to enhance morale, recreation, 
community relations, and personal development in order to 
improve total force readiness, unit cohesion, job performance, 
and retention within the Marine Corps.
    The Marine Corps continues to strive to provide robust 
family readiness services for our marines and families. Our 
family readiness programs continue to methodically adjust to 
post-Operation Enduring Freedom and Iraqi Freedom, while also 
taking into account the unpredictable and demanding operational 
tempo of the future.
    Our portfolio of family readiness training programs provide 
marines, the sailors that serve under the Marine Corps, and 
families with tools and resources needed to successfully meet 
the challenges of military life and enhance mission readiness 
by providing preventative services and assistance offered to 
all.
    Overall, single marines and families and programs have one 
overarching goal, to take care of our own and their families. 
The marines of our Corps represent the American people who have 
stepped forward and sworn to defend and protect our Nation. By 
ensuring that we take care of all our marines and families, we 
fulfill our responsibility to keep the faith with the honor, 
courage, and commitment they have so freely given.
    With your support, the Marine Corps will continue to meet 
the demands of our Nation when it calls.
    Thank you for the opportunity to appear today, and I look 
forward to your questions.
    [The prepared statement of Sergeant Green follows:]

          Prepared Statement by Sergeant Major Ronald L. Green
                              introduction
    Chairman Tillis, Ranking Member Gillibrand, and distinguished 
Members of the subcommittee, I appreciate the opportunity to provide 
you with an update on the commitment of the Marine Corps to our marines 
and their families.
    The Marine Corps continues to maintain its commitment to the 
Nation, remaining forward-deployed and ready to respond to crises 
around the world. With the dynamic pace of current and future demands, 
our Nation's leaders require, and the American people expect, your 
marines to answer the call, to fight, and to win. Thanks to your 
lasting support and leadership, the Marine Corps has always been the 
Nation's expeditionary force in readiness. The Marine Corps is 
dedicated to our essential role as an expeditionary force that Congress 
and the American people can call on as the most ready force, when the 
Nation is least ready.
    Your marines are the foundation of the Marine Corps. They are the 
Corps' most sacred resource, and always will be. Taking care of marines 
and their families is a key element of overall readiness and combat 
effectiveness. The adage ``we recruit marines, we retain families'' 
remains as true today as ever. Our comprehensive package of programs 
and services seek the holistic readiness of our marines and families.
                           our single marines
    The Marine Corps is by far your most junior service. The average 
age of your Active component marines is 25 years; 65 percent are under 
25 years of age or younger and 56 percent of your marines are single. 
As a result of these dynamics, programs to support single marines and 
their dependents are important.
    Our Single Marine Program (SMP), as the consolidated voice for all 
single marines and sailors to the commanders, develops initiatives and 
programs to enhance morale, recreation, community relations, and 
personal development in order to improve total force readiness, unit 
cohesion, job performance, and retention within the Marine Corp. The 
SMP identifies quality of life (QOL) concerns and developing QOL 
solutions that focus on readiness, leadership development, personal 
growth, community outreach, and recreation. The SMP incorporates 
commanders and leaders in the SMP QOL process allowing them to directly 
influence the issues with living on base, such as parking, chow hall, 
the Exchange (MCX), and anything else which directly influences the QOL 
for single marines.
    The SMP allows for participation in a wide variety of social, 
competitive, and educational activities that may include the great 
outdoors such as paintball, deep sea fishing, river rafting, mountain 
biking, and hiking. In addition, excursions to Washington, DC, Pearl 
Harbor, Hawaii, and New York City are just a few of the opportunities 
SMP offers. The SMP social, recreation, and fitness programs within 
Marine Corps Community Services (MCCS) deployment support provide for 
participation in leisure activities when forward deployed away from the 
home installation in austere environments.
    Each installation establishes an SMP Council that is comprised of 
an executive council, unit representatives, an SMP Coordinator, and 
Senior Enlisted Advisor. Councils conduct monthly meetings where 
members discuss leisure activities of interest, community involvement 
projects, and QOL issues that are relevant to single marines. Unit 
representatives are responsible for providing information to members of 
their units to ensure engagement at the unit level. This provides a 
direct link between the Unit's Command Team and what installation SMP 
is providing for single marines.
    The SMP helps mold the public perception of our military through 
continuous volunteerism in the community by participating in Habitat 
for Humanity, Toys for Tots, Adopt a School, beach cleanups, or 
Veterans' Homes visits. In 2016, over 7,000 single marines provided 
nearly 30,000 volunteer hours.
    Lastly, in January 2016, 112 marines traveled from installations 
around the world to attend the 2016 SMP Leadership Symposium. The 
symposium consisted of 3 days of leadership training that included 
educational sessions, networking opportunities, professional 
development, and mentorship. The symposium also offered many 
opportunities for operational commanders and senior enlisted leadership 
to engage directly with the single marines that serve in leadership 
roles at their installations.
                       family readiness programs
    The Marine Corps continues to strive to provide robust family 
readiness services for our marines, attached sailors, and families. Our 
Family Readiness Programs continue to methodically adjust programs to 
post-Operation Enduring Freedom (OEF) footing, while also taking into 
account the unpredictable and demanding operational tempo before, 
during, and after deployments.
    Our portfolio of Family Readiness training programs provide 
marines, sailors, and families with the tools and resources needed to 
successfully meet the challenges of military life and enhance mission 
readiness by providing preventative services and assistance (e.g., 
stress management, anger management) that is offered to all marines, 
sailors, and their families. The focus is to increase awareness and 
provide skill-building tools and readiness for individual and family 
development.
    Marine Corps Family Team Building (MCFTB) reinforces and sustains a 
state of personal and family readiness through a continuum of resources 
that are offered at finite and predictable touch points across the 
life-cycle and development of marines, sailors, and their families. 
Training is provided at the unit level, through partnerships with 
Family Readiness Officers, and other supporting resources of the unit. 
Training opportunities at the installation level are also provided and 
promoted throughout the installation. MCFTB Computer Based Training 
(CBT) courses have been fully incorporated into MarineNet to expand and 
enhance accessibility. All authorized patrons are able to register for 
an account and utilize the CBT on MarineNet.
    Family Readiness Program Training (FRPT) builds on a strong unit 
command team influence that has become the focal point of the marine 
and family programs across unit and installation levels. The FRP 
trainer's responsibility is to provide training for the unit command 
team training, Family Readiness Officer (FRO) training, commanding 
officer/senior enlisted spouse training, command team advisor/family 
readiness assistant training, operational security training, and 
volunteer management training.
    Lifestyle Insights, Networking, Knowledge and Skills, commonly 
referred to as L.I.N.K.S., is the signature training for MCFTB. This 
year marks the 20th anniversary in which L.I.N.K.S. was formalized as 
an official training component that serves as an organizational 
socialization tool to aid marines, sailors and families in similar 
phases of their life. L.I.N.K.S. provides an introduction to the Marine 
Corps culture and lifestyle, thereby increasing participants' 
knowledge, and empowering them with tools to enhance self-sufficiency. 
L.I.N.K.S. also teaches and informs participants about the many 
military and community resources and benefits available to them at the 
local installation and the surrounding areas.
    LifeSkills Training and Education promotes positive adjustment and 
improved individual and family functioning, providing workshops on life 
competencies in areas that are not currently offered by other MCCS 
entities. These workshops focus on communication, relationships, and 
wellness. Conquering Stress with Strength (CSWS)--is a newly developed 
training in collaboration with Behavioral Health and MCFTB. CSWS is an 
evidence-informed workshop, presented in a format that is non-clinical, 
relevant, and useful to marines, sailors, and families. CSWS workshops 
focus on cognitive restructuring, emotional regulation, and problem 
solving skills development.
    Readiness & Deployment Support Training (RDST) provides deployment 
workshops to marines, sailors, and family members, to include children, 
which encompass all phases of their servicemember's deployment from 
redeployment to return and reunion classes. MCFTB trainers work in 
conjunction with unit FROs to focus on educating and preparing marines, 
sailors, and families for all types of deployments and family 
separation topics. During deployment, a series of practical application 
workshops are provided which allow marines, sailors, and families to 
engage in fun activities, understand the support of the military 
community, and learn new skills that empower their ability to thrive in 
the military lifestyle. Lastly, return and reunion training provides a 
series of interactive workshops which are specific to spouses, parents/
extended family members of the marine, and children about the 
expectations and positive reintegration.
    In fiscal year 2016, the Marine Corps extended childcare 
development center hours to a 14-hour minimum, ensuring military 
families are able to have access to care for their children when they 
are on duty. The Marine Corps, like other services, has been looking at 
our long-range options of our current childcare programs and how to 
improve access and usability. This includes the participation in 
MilitaryChildCare.com that provides a single gateway for military 
families to find comprehensive information on military-operated or 
military-approved childcare programs worldwide. This system makes it 
easier on families to navigate the process and to facilitate more 
expedited access to childcare.
    The readiness of our deployable forces is our priority. The primary 
mission of our Exceptional Family Member Program (EFMP) is to improve 
the quality of life for families that support a member with special 
needs. EFMP ensures that sponsors with a family member with special 
needs will have those special needs considered during the assignment 
coordination process. We maximize family support funds based on the 
greatest need. Critical EFMP care services include (1) Effective 
assignment of marines and exceptional family member (EFM) continuum of 
care; (2) Individualized family case management support; (3) Care 
navigation training for EFM Advocates (parents/sponsor); and (4) Access 
to legal services.
                               conclusion
    Overall, our single marine and family readiness programs have one 
overarching goal: to take care of our own and their families. The 
marines of our Corps represent the American people who have stepped 
forward and sworn to defend and protect our Nation. By ensuring that we 
take care of all marines and their families, we fulfill our 
responsibility to keep faith with the honor, courage, and commitment 
they have so freely given.
    With your support, a vibrant Marine Corps will continue to meet our 
Nation's call.

 STATEMENT OF CHIEF MASTER SERGEANT OF THE AIR FORCE JAMES A. 
       CODY, USAF, CHIEF MASTER SERGEANT OF THE AIR FORCE

    Sergeant Cody. Chairman Tillis, Ranking Member Gillibrand, 
and Members of the subcommittee. Thank you for your continued 
support of the men and women who serve our Nation. I appreciate 
the opportunity to represent America's airmen and their 
families, and I am honored to convey their needs and offer 
appreciation for your support on their behalf.
    Our job is to support and defend America's way of life, 
defend our country's borders and national interests, and when 
absolutely necessary, fight and win our Nation's wars. It is 
not an easy task, which is why a focus on our airmen and their 
families is so important. The ultimate source of air, space, 
and cyberspace combat capabilities reside in the men and women 
of the United States Air Force. It is imperative we put them 
first, inspire them, and support them as they face the 
challenges inherent to serving in the profession of arms.
    The security environment has dramatically evolved over the 
last 25 years, and the unpredictable landscape we now operate 
in requires the Air Force to continue to revisit, improve, and 
evolve our personnel management processes to ensure we better 
recruit and retain our talented airmen. The Air Force must meet 
the needs of the warfighter faster, more efficiently, and more 
effectively.
    We continue to explore opportunities to strengthen the 
force. While some initiatives are Air Force-wide, others are 
more targeted. But all have the same objective. Taken together, 
they strengthen our competitive position to battle for top 
talent.
    To meet the global demands, resource emerging requirements, 
and repair and sustain the force, the Air Force must increase 
our Active Duty end strength up to 321,000 by the end of 2017 
and up to 350,000 over the next 7 years. To do this, we must 
address mission and readiness demands, increase our accessions 
and strengthen our retention while never sacrificing quality 
for quantity.
    Families are often the catalyst to an airman's decision to 
stay or leave the Air Force. These selfless families make many 
sacrifices, and the Air Force remains clear in its commitment 
to them. Our Airman and Family Readiness Centers serve as a 
crucial bridge with our families and military missions, 
encompassing 14 core programs to ensure the resiliency and 
readiness of airmen and their families.
    We also rely on our Key Spouses, volunteer family members 
who are trained on critical family-based programs and other 
aspects of military life. We continue to expand and build our 
Key Spouse program, as we recognize its importance to the 
resilience and health of the family, especially in a time of 
global uncertainty and continued operational demands on our 
airmen.
    Financial stresses significantly impact the resilience of 
airmen and their families. This is certainly a key factor today 
as our Nation continues to face fiscal uncertainty, which has 
already eaten at airman's compensation. There are significant 
concerns as it pertains to the calculus of regular military 
compensation. We continue to look for ways to improve the 
personal financial readiness of our force through education 
with the rollout of the Blended Retirement System and to ensure 
airmen and their families are prepared to make educated 
financial decisions. We are developing comprehensive financial 
training across the military lifecycle.
    We are also grateful for the Spouse Education and Career 
Opportunity program which supports our spouses as they work to 
overcome the significant challenges of relocation. This support 
is a significant boon to the employment prospects of our 
spouses who relocate every few years, but more work must be 
done. Most notably, spouses with careers that require 
certification must continually seek and pay for recertification 
after every move. We must do more to ease the burdens of 
relocation in this regard on our family members.
    To ensure we meet the expectations of our families, the 
Secretary of the Air Force and the Chief of Staff of the Air 
Force recently conducted a Spouse and Family Forum. We are 
committed to addressing many of the issues that came up during 
this forum, including exceptional family member support, spouse 
employment, school, and deployment support.
    We focus on our single airmen with the same vigor and 
intensity as we do to our families. To that end, the Air Force 
created capabilities that focus on the resilience, which has a 
direct impact on readiness. As just one example, our Air Force 
Single Airman Program Initiative delivers resilient and 
readiness capabilities that help revitalize squadrons and 
optimize airmen performance.
    Part of the National Defense Authorization Act for Fiscal 
Year 2017 considers potential changes to our airmen's 
compensation, specifically as I just mentioned in the form of 
basic allowance for housing. The aggressive nature of the 
proposed legislation effectively removes basic allowance for 
housing as part of regular military compensation which could 
severely limit our ability to recruit and retain our airmen. 
This would reverse nearly 20 years of deliberate legislation 
action to ensure servicemembers are appropriately compensated 
for their service and that their salaries remain competitive 
with the demand for their talent and acknowledge their service 
and sacrifice.
    The talented men and women of the Air Force are called upon 
each day to perform crucial missions around the world. In every 
one of those mission areas, airmen are the key to our success. 
Taking care of those airmen must always be our first priority. 
Every one of them earn their current pay and compensation. 
While we remain mindful of the current budget pressures across 
the Department of Defense, cost-saving needs to be tempered by 
the need to retain our talent, which is truly a national asset.
    Undoubtedly, the past few years have been extremely trying 
for all members of our Air Force, Active, Guard, Reserve, and 
civilian airmen and their families. My wife Athena and I have 
visited with thousands of airmen and family members over the 
past year. We have listened to their concerns and witnessed 
firsthand their passion for service. We both can affirm the 
impact the current environment and uncertainty has had on our 
force.
    I believe you have had the chance to read my written 
testimony, which includes greater details on the current status 
of our family programs and our single servicemember readiness, 
as well as concerns of our airmen and families.
    I thank you for your tremendous support and interest in the 
issues which affect our force, and I look forward to the 
opportunity to answer your questions.
    [The prepared statement of Sergeant Cody follows:]

       Prepared Statement by Chief Master Sergeant James A. Cody
                              introduction
    Chairman Tillis, Ranking Member Gillibrand and Members of the 
subcommittee, thank you for your continued support of the men and women 
who serve our Nation. I appreciate the opportunity to represent 
America's airmen and their families and I am honored to convey their 
needs and offer appreciation for your support on their behalf.
    The ultimate source of air, space, and cyberspace combat capability 
resides in the men and women of the U.S. Air Force. We owe it to our 
Nation, our airmen and our partners around the world to provide a ready 
and resilient force. The security environment has dramatically evolved 
over the last 25 years, and the unpredictable landscape we now operate 
in requires the Air Force continue to revisit, improve, and evolve our 
personnel management processes to ensure we better recruit and retain 
our talented airmen. The Air Force must meet the needs of the 
warfighter faster, more efficiently, and more effectively.
    Our airmen and their families are the key to our success. Our job 
is to support and defend America's way of life, defend our country's 
borders and national interests and, when absolutely necessary, to fight 
and win our Nation's wars. It's not an easy task, which is why focusing 
on our airmen and their families is so important. It is imperative we 
put them first, inspire them, and support them as they face the 
challenges inherent in serving in the profession of arms. Where we can, 
we must ease burdens and remove barriers. Eliminating barriers ensures 
we fully leverage our skilled and innovative airmen and supports 
retaining ready, resilient airmen and families.
    The initiatives this subcommittee supports allow us to strengthen 
the quality of life for our airmen, even in difficult financial times. 
We rely on your efforts, actions, and legislation to protect and 
support our servicemembers.
    We continue to explore opportunities to strengthen the force. While 
some initiatives are force-wide, others are more targeted, but all have 
the same objective. Taken together, these will strengthen our 
competitive position in the battle for top talent.
                           growing the force
    To meet global demands, resource emerging requirements, and repair 
and sustain the force, the Air Force must increase Active Duty end 
strength--up to 321,000 by the end of 2017, and up to 350,000 over the 
next 7 years. The Air Force will consider end strength increases as it 
works with the Secretary of Defense to develop the fiscal year 2018 
President's Budget.
    The Air Force continues to execute assigned missions, but nearly 25 
years of combat--along with declining personnel numbers and aging 
equipment--have strained our readiness. Since 2001, the Active Duty Air 
Force has remained consistently engaged in military operations while 
reducing the force by more than 11 percent. The majority of reductions 
came from the Logistics and Agile Combat Support (ACS) communities 
without corresponding reductions in force structure or infrastructure. 
Although the Air Force took an 11 percent cut, ACS Active Duty manpower 
was cut 34 percent. Restoring the force ensures airmen have time to 
take care of themselves and their families while also taking care of 
the mission.
    The Air Force started fiscal year 2017 with 317,000 Active Duty 
airmen. To successfully grow our force to meet future end strength 
requirements, we must address mission and readiness demands while 
shaping the workforce to meet current and future mission and skill 
requirements. The Active Duty force needs to grow by approximately 
4,000 airmen a year through a combination of increased accessions and 
robust retention, while continually working with the Secretary of 
Defense to reassess our end strength needs based on overall mission 
requirements. To increase accessions, our recruiters and military 
training infrastructure must flex to handle this significant increase 
in annual throughput. But, we must remain measured and cautious in how 
fast we grow the force to ensure readiness and not further hollow the 
force.
                              compensation
    Part of the fiscal year 2017 National Defense Authorization Act 
considers potential changes to our airmen's compensation, specifically 
in the form of basic allowance for housing (BAH). The regressive nature 
of the proposed legislation effectively removes BAH as part of regular 
military compensation. This would reverse nearly 20 years of deliberate 
legislative action to ensure servicemembers are appropriately 
compensated for their service, and that their salaries remain 
competitive with private-sector professionals. The fiscal year 2017 
NDAA directs the DOD to move to a single pay system no later than 
January 1, 2018, which represents an attempt to treat BAH as 
compensation rather than an allowance. The talented men and women of 
the Air Force are called upon each day to perform crucial missions 
around the world. In every one of those mission areas, airmen are the 
key to our success. Taking care of those airmen must always be our 
first priority; every one of them earn their current pay and 
compensation. While we remain mindful of current budget pressures 
across the Defense Department, cost savings needs to be tempered by the 
need to retain our talent, which is truly a national asset.
                       military family readiness
    Families are often the catalyst to an airman's decision to stay or 
leave the Air Force. These selfless families make many sacrifices, and 
the Air Force remains clear on its commitment to taking care of them.
    Our Airman and Family Readiness Centers (A&FRC) serve as a crucial 
bridge with our families and military missions, encompassing 14 core 
programs to ensure the resiliency and readiness of airmen and their 
families. Beyond our A&FRCs, the core of establishing a connection 
between squadrons and family members resides with our Key Spouse 
program. The program is comprised of volunteer spouses trained on 
critical family-based programs and other aspects of family life, 
connecting an informal network of the nerve center in our units' 
families. Recognizing the pivotal nature of this relationship, we 
continue to focus on specific roles and responsibilities for 
commanders, Key Spouse mentors, and Key Spouses. This invaluable team 
dynamic exists at every Air Force installation per Chief of Staff of 
the Air Force's direction. We continue to expand and build our Key 
Spouse program as we recognize its importance to the resilience and 
health of the family, especially in a time of global uncertainty and 
continued operational demands on our airmen.
    Financial stresses significantly impact the resilience of airmen 
and their families. This is certainly a key factor today as the Nation 
faces fiscal uncertainty which has potential to eat at an airman's 
compensation. To reduce this impact, our personal financial readiness 
program aims to improve the financial literacy and readiness of our 
total force. With the rollout of the Blended Retirement System and to 
ensure airmen and families are prepared to make educated financial 
decisions that meet their needs and circumstances, we are developing 
comprehensive financial literacy training across the military 
lifecycle. Through individual counseling, education, and mandatory 
training, our personal financial managers (PFM) at installations are a 
ready and capable asset for our airmen and families, especially the 
440,000 airmen eligible to make a decision on which retirement system 
is right for them. Last year, our PFMs assisted 100,000 airmen and 
family members; the expectation over the next year is a significant 
increase in demand for personal financial services as we implement the 
Blended Retirement System.
    The Spouse Education and Career Opportunity (SECO) Program 
tremendously assists our Air Force spouses. The DOD-led Military Spouse 
Employment Partnership, in collaboration with our A&FRCs, is supporting 
our spouses as they work to overcome the significant challenges of 
relocation. There are currently 338 civilian companies who have 
partnered to recruit and hire military spouses and have posted nearly 6 
million jobs since 2011. This partnership with SECO resulted in 105,000 
military spouses hired through the program since June 2011. 
Additionally, the Small Business Administration includes spouses in 
programs offered to the total force by providing the same counseling, 
training, and access to capital, provided to servicemembers and 
veterans. This support is a significant boon to the employment 
prospects of our spouses who relocate every few years, but more work 
must be done. Most notably, spouses with careers that require 
certification (real estate, hairstylists, nursing, teaching, etc.) must 
continually seek, and pay for, recertification after every move. All 
states have enacted broad legislation that improves license endorsement 
for military spouses, provides temporary licenses, and expedites their 
applications. Of the 50 states, 38 have improved endorsement, 47 have 
temporary licensure and 37 have expedited applications, but the goal is 
to have professional licenses and certificates which travel with 
spouses whenever they relocate.
    The quality of locally available public education, whether on base 
or off base, remains a critical concern of our airmen and families. 
These concerns are significantly exacerbated for special needs family 
members or those who are home-schooled and seeking extra-curriculum 
activities with local schools. While the Military Interstate Children's 
Compact Commission has done much to standardize the administrative 
rules between states for the transition of military children between 
schools, there is more to be done. The Air Force continues to explore 
options to meet childcare needs. Options include extending hours at 
child development centers, using family childcare (FCC) providers and 
partnering with qualified community based providers. The Air Force 
Child and Youth Programs operations and installation support team is 
working with installations who are having challenges recruiting FCC 
providers; however, we still need affordable, safe, immediate childcare 
for our families when they move. We continue to need support in funding 
the programs we have, building additional childcare centers on bases or 
building better partnerships with community providers.
    To ensure we meet the expectations of our families, the Secretary 
of the Air Force and the Chief of Staff of the Air Force live streamed 
a Spouse and Family Forum centered on exceptional family members, 
spouse employment, schools, and deployment support. The Air Force 
followed up a month later with a Facebook Town Hall to announce what we 
accomplished since. Here are a few brief examples:
    In response to requests for better communication for families 
enrolled in our exceptional family member program (EFMP), we 
established quarterly events and webcasts to the country including 
EFMP, family support, assignments, and medical representatives.
    Also in support to EFMP family members, we funded 44 additional 
Exceptional Family Member Program-Family Support (EFMP-FS) 
coordinators. Currently, there are 43,000 exceptional family members 
but not every installation has an EFMP-FS coordinator, ensuring every 
community with more than 200 exceptional family members has a dedicated 
coordinator.
                    air force single airman program
    The Air Force's Single Airman Program Initiative (SAPI) delivers 
resilience and readiness capabilities that help revitalize squadrons 
and optimize airmen performance. SAPI began in 2011 to expand 
activities for our single airmen population. The Air Force created 
capabilities that focus on resilience, camaraderie, and reintegration; 
thereby, increasing readiness.
    Air Force made SAPI a component of its overarching Recharge-for-
Resiliency (R4R) program, which encompasses high adventure/adrenaline 
activities and A&FRC programs focusing on reintegration after 
deployment. R4R is executed in two separate formats.
    There are Design-It-Yourself activities, where the Air Force 
allocates funding directly to installations to develop programs unique 
to the location and interests of the airmen. These programs include 
ropes courses, zip-lining, water and winter sports, and cultural tours. 
The Air Force also created Ready-to-Launch activities with pre-designed 
programs to ease initial startup. As an example, the Team Cohesion 
Challenge is a successful program introducing the team-based training 
found in special operation units. The 4 to 5 hour event is demanding 
physically and customized to the terrain of each installation. Our 
airmen make great use of SAPI opportunities in recharging themselves 
and elevating their fitness level.
    The Air Force recognizes programs such as SAPI contribute to the 
four pillars (spiritual, physical, mental and social) of Comprehensive 
Airman Fitness, while at the same time, provide fun events which help 
revitalize squadrons and optimize airmen performance. Since the SAPI 
launch in 2011, the Air Force continues to advocate for resources to 
ensure the program flourishes as a valuable tool in building airmen who 
are resilient, ready and available for the joint fight.
                               conclusion
    Chairman Tillis, Ranking Member Gillibrand, and Members of the 
subcommittee, thank you again for this opportunity to represent our 
incredible airmen and their families. Despite the many challenges we 
face, your airmen, supported by some of the strongest families our 
Nation will ever know, remain committed to building a strong community 
whose members are capable and have a sense of belonging.
    Thank you for the opportunity to provide insight into the issues 
impacting single servicemembers and our families. We appreciate your 
continued support, and for your commitment to retaining ready, 
resilient airmen and families. We're counting on you to lead our Nation 
and ensure we have the resources to remain the world's greatest Air 
Force.

    Senator Tillis. Thank you all, gentlemen. To your spouses, 
thank them for their service too because I know, if it is like 
my job, it is teamwork that makes it possible.
    The topics we are going to discuss today are vital to the 
health of our All-Volunteer Force. We have got a number of 
stressors, some of which we address. Some of them we may not 
address in the most efficient manner possible, and there are a 
lot of opportunities for, I think, improvement here. I think 
that the Ranking Member and I agree.
    The main thing that we need to focus on, though, is instead 
of just purely asking you all questions about what we think you 
need is to make sure that we are listening to you about things 
that we have not even thought about yet. Some of that will come 
down to an ongoing dialogue with myself, the Ranking Member, 
and Members of this committee to offer up suggestions for 
things that we can do better, to be more expedient, more 
responsive to the needs you think our soldiers, sailors, 
marines, and airmen all have in common.
    I want to thank you again for being here today.
    I also want to defer to Senator Gillibrand for her opening 
comments before we go to questions.
    Senator Gillibrand. Thank you, Mr. Chairman. I will submit 
my opening comments for the record.
    [The prepared statement of Senator Gillibrand follows:]

            Prepared Statement by Senator Kirsten Gillibrand
to receive testimony on department of defense single servicemember and 
                   military family readiness programs
    Thank you, Senator Tillis. I join with you today in welcoming our 
witnesses as we discuss these very important issues.
    Before I begin my statement, I want to congratulate you, Senator 
Tillis, on your new chairmanship of this very important subcommittee. 
As military and civilian leadership of the Department and the Services 
have testified over the years, our men and women in uniform are our 
greatest asset and resource; thus, it follows that this subcommittee is 
in many respects the most important, and certainly the issues we 
grapple with carry great import for our servicemembers and their 
families. This subcommittee has a long history of bipartisan 
cooperation, which continued throughout Senator Graham's tenure as 
Ranking Member and Chairman, and I fully expect that to continue under 
your leadership. I very much look forward to working with you as we 
strive to improve the lives of our soldiers, sailors, airmen, marines, 
retirees and their families.
    This is an appropriate topic for our first subcommittee hearing 
this year, and I thank you for holding it. My primary concern continues 
to be how we support servicemembers and their families, especially 
those with children and other dependents with special needs, and how we 
set them up for success. This hearing is styled as a review of single 
servicemember and family readiness programs. The readiness of our 
military--in short, its ability to fight and win the Nation's wars, 
depends on the readiness of its units, which in turn depends on the 
readiness of the individual servicemember, which ultimately depends on 
the readiness of that servicemember's family. If the family isn't 
ready, the servicemember isn't ready, and the military as a whole is 
not as ready as it needs to be, and lives will be at risk.
    Our military has gone through many changes in these 16 years of 
war, and it is the servicemembers and their families who have borne the 
brunt of the impact. I would like to hear from our witnesses what 
support services are available for these families, how they are 
assigned, what happens to the family when the member deploys, and 
whether these programs will be fully funded in the upcoming budget 
request.
    To that end, one initiative I have pursued the last 2 years, and 
which I will continue to pursue in this Congress along with Senator 
Blunt, my cosponsor, is the Military Family Stability Act. We've heard 
from our military families about the challenges they face when a 
servicemember is reassigned, and we need policies that better 
accommodate spouses with careers and children in school. The Military 
Family Stability Act would better serve the modern military family to 
give our servicemembers, their spouses, and their children new 
resources and much-needed flexibility when they have to move. I would 
like to hear more from our witnesses about the challenges that confront 
our military families, due to the nature of military service, and how 
we can address these challenges to better support military families.
    I also appreciate the inclusion in this hearing of consideration of 
single servicemember programs. While it is difficult for military 
families to adjust to military life, we shouldn't lose sight of the 
fact that most servicemembers are first termers, first time away from 
home, away from their families, and have to adjust to military life 
away from their support networks. These individuals have families and 
friends that they depend on, but the military in many ways becomes 
their family, and that brings its own challenges. I look forward to 
hearing how we take care of these servicemembers, and what role the 
military plays in their lives.
    We have also made many changes in the past few years--from 
retirement to healthcare--and I would like to hear from our witnesses 
how these changes are being rolled out, what kind of programs you are 
putting in place to ensure that servicemembers understand the changes, 
and how you are incorporating military families into that educational 
process.
    One of the major changes the Department made in the last year was 
to open up all combat positions to women. I would like to hear about 
how the Services are implementing this policy to ensure the effective 
integration of women into these units and address any challenges.
    Again, I thank the witnesses and I look forward to your testimony.

    Senator Tillis. Then I am going to move very quickly.
    We have a little bit of a military presence down in North 
Carolina. Down at Fort Bragg, my wife has taken on a cause 
called Baby Bundles. Ironically about 9 months after a major 
deployment, we have a lot of babies born down at Womack. What 
we have done is created, you know, this Baby Bundle support for 
new families. It is amazing to me. When you get personally 
involved in that--this is going into our third year--you see 
how under-met the needs are of these young families and single 
military personnel. So I want to talk just briefly on 
childcare.
    What are the Services doing to expedite the process for 
employee background checks?
    Sergeant Dailey. Sir, I can address this. I appreciate the 
concern you have for our soldier family members and I 
appreciate the outreach that you do with you and your wife. 
That is well received by our family members down at Fort Bragg, 
sir. So thank you.
    This is a huge concern for us. One of the key things that 
enable our family members and a lot of our spouses to seek 
employment is childcare. It is the number one resourced 
function within MWR [Morale Welfare Recreation] in the United 
States Army by size and scope. It is critical to our success 
and it is something we have continue to invest in for the 
future.
    We experience a backlog for several reasons. First and 
foremost, we need additional space. So it is a MILCON [Military 
Construction] issue and we need to seek resources to meet the 
adequate needs of our soldiers at our major installations.
    Second is the one you described, sir. It is a backlog of 
employment, sir. We have been working this very hard. I think 
we have done an okay job at reducing that amount of backlog, 
but it is compounded by the simple problem that people often do 
not want to wait for those background checks and they need to 
seek employment. We are working very hard through our 
individuals that conduct backlog to continue to reduce that, 
and we are allowing more soldiers--if we cannot meet their 
needs on post, we are allowing them use funds in order to seek 
equal opportunities for them to seek childcare off post by 
offsetting the costs.
    Senator Tillis. Unless the other gentlemen have an 
adjustment to that, I would like to expand the question just a 
little bit. You can go back and add onto what the Sergeant 
Major said. That would be, have you looked at fully supervised 
provisional approvals so that you can start addressing the 
backlog and making sure that we have adequate childcare 
services for our soldiers?
    Sergeant Green. In the Marine Corps, sir, we have committed 
more adjudicators to the process. Today we do not have a 
backlog or wait for employment in our childcare process. What 
we are experiencing is the outside community have adjusted the 
age that they are taking on kids under 4 years of age, and that 
is causing employment to go elsewhere. So when that backlog was 
there, we had employers leaving and now it is more competitive 
to get them to come on base with the salary that the government 
pays childcare providers. That is the problem we are having 
now.
    Senator Tillis. Anything to add on the subject?
    I am also kind of interested in something. We are going to 
have to submit a number of questions for the record on these 
topics. One that I would like to talk about in my remaining 
time is what initiatives the service lines have taken to expand 
employment opportunities for military spouses. We will start 
with Mr. Giordano.
    Chief Giordano. Thank you, Mr. Chairman.
    If I may in regard to the spouse employment through the 
childcare facilities, you know our Navy has approximately 237 
CDCs, child development centers, and youth centers across the 
globe. We deal from a spouse employment perspective. We allow 
our spouses the opportunity to basically operate in any of 
those CDCs. So if a servicemember PCSes [Permanent Change of 
Stations] and gets to another location that has a CDC, that 
spouse's credential automatically translates to that other CDC, 
and they are guaranteed employment into that other location, 
which has yielded great benefit and removes a little bit of 
stress for those providers inside the facilities, which also 
allows for increased capacity because of the number of 
providers that can easily come on board inside those 
facilities.
    Senator Tillis. Thank you.
    We will submit these so we get consistent answers from each 
of the lines of service here. Thank you.
    Chief Giordano. In regard to the spouse employment piece--
and as you mentioned, my wife is with me. I will share a story, 
which is my wife is a registered nurse, and her license across 
the State lines has changed a number of times throughout the 
years. It presents a challenge for her every time she has got 
to get a new license and pay for that licensing. I know that we 
have taken great steps to try to mitigate that in the Services, 
working with our Department of Labor and our State processes, 
and we appreciate all those efforts.
    But the bigger challenge is probably the overseas 
locations. When our spouses are looking for that employment 
overseas and they are restricted by the status of forces 
agreements and things of that nature that might limit those 
employment opportunities. So I think that the biggest struggle 
in this is those employment opportunities in overseas 
environments and what we can do to try to help mitigate those.
    Senator Tillis. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    I am also concerned about spouses. Over the past few years, 
I have requested all files for sexual assault cases from the 
four major bases, one for each of the Services. One of the 
issues that came to light was the high number of spouses who 
are abused. Oftentimes those were cases that, although reported 
in an unrestricted way, get withdrawn within the first year of 
the investigation.
    For these cases of spousal abuse, some of them end up in 
the Family Advocacy Program and then are included in the yearly 
SAPRO [Sexual Assault Prevention Office] reports. Do you know 
why spouses are not surveyed as part of the biennial prevalence 
survey, and do you recommend they should be? Each one.
    Sergeant Dailey. Ma'am, I can't answer at this time why 
they are not surveyed. Of course, I would have to take that for 
the record. With regard to the Family Advocacy Program, there 
are rules associated with release of that information. I am not 
referring that to being released to Congress. So I cannot 
comment right now on whether or not they should be surveyed. I 
have to take a look at those rules before I make that 
recommendation.
    Senator Gillibrand. That would be great. Thank you.
    Chief Giordano. The same response.
    Sergeant Green. The same response, ma'am.
    Sergeant Cody. Ma'am, I think we do include them if they do 
report. But to your point on the survey, I just do not know 
that we have expanded that aperture----
    Senator Gillibrand. They are only included if they filed an 
unrestricted report, but they are not surveyed. The survey is 
an estimate because all servicemembers take it. When we say 
last year there were 20,000 cases of sexual assault, unwanted 
sexual contact, and other sexual abuse, they survey the members 
and they extrapolate from that. So if they are not being 
surveyed--in 1 year that we looked at it, more than half of the 
cases were spouses. So that would mean if they are not being 
surveyed and there is no estimate, that 20,000 number is not 
accurate because they are not actually being surveyed to be 
part of the prevalence survey.
    I would urge you to look at what is happening in your own 
services and make recommendations because I would like to 
include them in the survey. We are thinking on what would make 
sense, how it would make sense because we are just not 
capturing the data. Then when they withdraw from the 
prosecution of the case, then you do not even know why they 
withdrew because once they are out of the system, they are out 
of the system. It may go to the 62 percent retaliation rate. I 
mean, spouses might be uniquely positioned that they easily get 
retaliated against because it is against their spouse.
    [Responses included in the questions for the record.]
    Related, I am also worried about child abuse. There are a 
number of cases that are really heartbreaking. When there is a 
child abuse case, it gets reported to the Family Advocacy 
Program, but again, if that then is not prosecuted, is not 
treated as such. I will give you just a couple examples.
    The DOD instruction 6400 states that commanders are 
responsible for ensuring alleged military abusers are held 
accountable for their conduct through appropriate disposition 
under the UCMJ and/or administrative regulations, as 
appropriate. This does not appear to be happening.
    Two examples, in 2015, a 14-week-old baby, Kiley Houston, 
died from suffocation in her soiled crib on board the Naval Air 
Station New Orleans. A 20-month-old, Ryan Ott, drowned in a 
pond while his mother and her boyfriend, a military police 
officer at Fort Bragg, snorted prescription tranquilizers. In 
each case, the abuser's commander either knew or should have 
known of the abuse that led to each child's death and no 
military justice action was taken.
    What are your recommendations about how to fix the system?
    Sergeant Cody. Ma'am, I will start. Obviously horrific 
situations and crimes. From an Air Force perspective, when we 
are aware of those crimes, we do prosecute, and we can 
certainly provide an example of that. When child abuse is 
brought or neglect is brought to our attention, if it does fall 
within the purview of the UCMJ [Uniform Code of Military 
Justice], we have done so and held people accountable, as well 
as work with child protective services to ensure that the 
child--in the event that it is not a catastrophic loss because 
of their death type of thing. But we do do that. So it is 
unfortunate when things slip through, but I know we do 
vigorously prosecute these crimes when they are brought to our 
attention.
    Chief Giordano. If I may. You know, from a Navy 
perspective, again I am not familiar with those two cases, but 
I think our Navy, our leadership, does a phenomenal job in 
holding----
    Senator Gillibrand. Well, let me just give you a proof 
point why I am so concerned. In 2015, FAP [Family Advocacy 
Program] counted 5,378 child abuse and neglected victims in 
military families, but claimed they only received reports on 
approximately 25 percent of the cases. So there are a lot more 
cases than wind up getting to criminal justice.
    My time has expired. If you want to submit fuller answers 
to the record. We just have to deal with the fact that only 25 
percent of the cases are typically reported, and it may be a 
process problem that we could fix.
    Senator Tillis. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, it is good to see you here today.
    I echo Senator Tillis' comments and thoughts that this does 
not count as a date, and neither does going through the drive-
thru on the way home. So make sure you treat your spouses 
appropriately on Valentine's Day.
    Sergeant Major Dailey, I would like to start with you. I do 
appreciate the testimony that has been given by each of you 
today on a number of the programs that are available to help 
our families. It is very important because that allows us to 
strengthen our military.
    But I am not only concerned about those that are currently 
serving and will continue to serve in the future, but those 
that are transitioning out of our services as well.
    Just a few years ago, I was an Active Duty spouse of one of 
the Army's finest NCOs [Non-Commissioned Officer]. During that 
time, I worked for a transition assistance program at Fort 
Benning, and in that program, we were able to assist soldiers 
as they left the military. We helped them find jobs, whether it 
was in the local community or in their home States if they 
chose to return to those home States.
    Sergeant Major, if you could talk a little bit about the 
transition assistance programs that continue to need support, 
but why those are so important and what we can do better to 
assist our services in those transition assistance programs.
    Sergeant Dailey. Senator, I would be happy to. This is an 
area, Senator Ernst, distinguished Members of the panel, that I 
would like to talk about that I think we have gotten right for 
the last several years. As you describe, we need to continue 
because it is a constant effort that we need to continue to 
provide for our young soldiers as they leave the service.
    But we have invested in this heavily. With the new Soldier 
for Life program--we turned this on about 3 or 4 years ago--we 
recognized the absence of providing adequate transition 
services to our young servicemembers and their families as they 
left the service. It really is an investment in our future. It 
is an investment that tells America that we believe in these 
young men and women and they are valued enough to invest in 
them for the future. We have worked things like our career 
skills programs throughout our institution partnering with our 
great organizations outside of our gates to help us provide 
them with the necessary skills. We have instituted 
credentialing programs to give credentials to those soldiers 
where their job skills in the military translate to civilian 
sectors to provide them jobs, and those efforts since 2008, 
ma'am, have reduced our unemployment compensation from over 
$500 million a year to approximately $172 million this year.
    So I agree that we need to continue to do this and we need 
to continue to find ways to credential our young men and women 
so they fill those valuable spots that they can seize in 
today's job market.
    Senator Ernst. That is fantastic.
    The credentialing--is that done through our Army university 
or are there other methods of credentialing?
    Sergeant Dailey. Currently, ma'am, because of the work that 
Congress did for us last year, we have the authorization to 
credential soldiers that are within the MOS [Military 
Occupational Specialty] that they hold currently in the Army, 
and those credentials match civilian occupations in the 
civilian sector.
    I think where there is future potential to expand that 
capability, as you describe--and I do not think we are done 
with our efforts--we can allow soldiers to elect credentials. 
The preponderance of the soldiers in our Army serve in combat 
MOSs, and their job skills do not directly translate to 
civilian sector jobs. I think this is an opportunity, a vacancy 
that we can find an opportunity to help our soldiers and 
continue to provide them with the necessary skills they need to 
be successful as they transition from Soldiers for Life.
    Senator Ernst. Fantastic.
    Any other comments?
    Sergeant Green. Yes, ma'am. I will give you some examples 
of how this process is working. We partnered with Microsoft. 
Actually they host a 16-week program aboard three major 
installations, and upon completion, they actually invite the 
marines in to actually do interviews for jobs. If they are not 
picked up by Microsoft, they make an interview for other IT 
[Information Technology] industries who have picked up on this, 
and eventually they will have a place of employment.
    We partner with the Department of Energy for solar. We have 
a 16-week solar program, along with the enrollers in the 
American Aluminum program and we have a 16-week program. It has 
been going for about 8 years at Camp Pendleton. It just came on 
board about 2 years ago at Camp Lejeune. So there are numerous 
programs out there and organizations that are getting the 
process, and like Sergeant Major Dailey said, this is a good 
news story.
    Senator Ernst. It is very good.
    Any other comments?
    Sergeant Cody. Ma'am, I would just add on to what they said 
as an airman who is 3 days away from that transition himself. 
So I fully appreciate the impact of this.
    We are doing a lot, but I think the challenge and the 
disconnect quickly comes in this idea, and it goes to this 
financial education that I am talking about and the realization 
of the compensation and what they have been doing for their 
country and the lifestyle that they and their family have 
become accustomed to and have earned and then transitioning 
those skills into somewhere where they can actually do the same 
thing. Because we do things a little different--you know, there 
is some magic math that takes place on how we compensate the 
military and account for all of that.
    I think the challenge is people separate because there are 
a lot of jobs out there. If we can get them credentialed where 
they can get those jobs that are comparable, you are in. But if 
you are not, they are not going to take those jobs because they 
cannot afford to. That is where I think we still have work to 
do is to really bridge that gap working with the Department of 
Labor, crossing State lines on those things. There is lots of 
opportunity to get this better, not that we have not put a lot 
of good effort into it.
    Senator Ernst. That is fantastic. Thank you and 
congratulations.
    This is just an important point for those of us that are 
here is making sure that not only do we value those 
servicemembers who are currently on inactive status, but that 
we value what they have given to our Nation as they move into 
their next career. So thank you, gentlemen, very much.
    Senator Tillis. Senator Warren?
    Senator Warren. Thank you very much, Mr. Chairman.
    I just want to say how delighted I am. I am the newest 
member of this committee and looking forward to serving with 
you as chair and with our Ranking Member and doing the hard 
work that this committee should be doing.
    So I wanted to follow up on Senator Ernst's question and 
see if I can just dig in a little bit more and make sure I 
understand this.
    Each of you is responsible for communicating the concerns 
of enlisted personnel up the chain of command. So you know, as 
well as anyone, that the vast majority of our enlisted 
servicemembers transition out of service before they reach 
their 20 years. When they leave, they need to be able to find 
these civilian jobs.
    You know, this transition, I recognize, can be really 
difficult even for highly trained and experienced personnel. I 
just want to ask a couple of questions about why that is so.
    Sergeant Major Dailey, the Army trains thousands of 
soldiers every year to drive trucks in the most difficult 
conditions, in combat, with hazardous cargo, at night in 
sandstorms. You name it. If it is tough, you train people to do 
it. So would you say those folks are pretty good truck drivers?
    Sergeant Dailey. I am saying in my opinion they are the 
best in the world, ma'am.
    Senator Warren. Best truck drivers in the world. That 
sounds like an expert opinion on that.
    So with those kinds of skills, when they transition from 
the Army, it is reasonable to assume that they could pretty 
much sign on with any long-haul trucking company and hit the 
interstate the next day. Right?
    Sergeant Dailey. That is correct, ma'am.
    Senator Warren. And they can?
    Sergeant Dailey. Not fully, ma'am, no.
    Senator Warren. No, they cannot. How come?
    Sergeant Dailey. Ma'am, it is a complicated matter. First 
and foremost, one, we have to credential them, those young men 
and women. Two is we have to work the requirements for each and 
every one of the 54 States and territories that license those 
trucks, ma'am.
    Senator Warren. So we have got a State, a national 
licensing problem here, and we cannot take the world's best 
truck drivers and just automatically move them into truck 
driving jobs. Right? Civilian truck driving jobs. Okay.
    Let me ask another one. Chief Cody, I know that you got 
your start as an air traffic controller. I did my homework, and 
the Air Force trains thousands of air traffic controllers every 
single year. These airmen are responsible for the safety of 
aircraft worth millions of dollars, not to mention the lives of 
their crews, that they often direct traffic in the most 
hazardous possible situations. Is that correct?
    Sergeant Cody. Yes, ma'am.
    Senator Warren. All right. It sounds very challenging. 
Surely these individuals can walk out of the Air Force and fill 
an opening at a low-key domestic airport when they separate 
from the Services.
    Sergeant Cody. So they can.
    Senator Warren. You would like them to be able to. Can 
they? Can they get fully credentialed? So they right now are 
fully credentialed and able to do that? Any airman can leave?
    Sergeant Cody. So for us in the Air Force--and this goes 
back to 32 years-plus for me--we have been given that authority 
from the get-go. So when we graduate our training, we have an 
FAA [Federal Aviation Administration] certificate, which is 
what is required to be a CTO, control tower operator. So any 
air traffic controller that has received that can go and apply. 
Now, they have to compete with everybody else. Post 9/11, the 
FAA changed their hiring rules for controllers that were over 
the age limit. Age limit is the biggest factor for us.
    Senator Warren. But we have set up at the federal level a 
licensing program. So once you have gotten that training, you 
just take it and you come out and you slip right into at least 
the competition for the civilian jobs.
    Sergeant Cody. Exactly.
    Senator Warren. Very helpful. Thank you very much.
    Master Chief Giordano, let me ask. Enlisted sailors operate 
and maintain some of the most sophisticated equipment in the 
world. They are trusted and trained to respond in any number of 
crisis situations. So surely these personnel are able to obtain 
civilian certifications and licenses at their service jobs. Is 
that right or not?
    Chief Giordano. To an extent, ma'am. We have about 80 
enlisted ratings in the Navy, and we offer every sailor at 
least one opportunity to earn a credential in each one of those 
ratings. But the unfortunate thing is those ratings encompass a 
number of different skill sets. So our Navy is driving to 
reinvent our training pipeline to where we can train to a 
specific skill set in each one of those ratings and then get to 
a credentialing opportunity so that they will have that 
expertise as they do make that transition.
    Senator Warren. Then, like the Air Force expertise, will it 
be a credential that will be recognized in all 50 States, or 
are you going to have to negotiate or, as you say, 54 different 
jurisdictions that you have to negotiate?
    Chief Giordano. A path that we will have to cross, Senator.
    Senator Warren. I think that sounds like 54.
    But thank you. Look, I know that we have made progress in 
this area in part thanks to the former First Lady's Joining 
Forces Initiative. I know you all have worked on that. I 
definitely do not want to change or lower civilian 
certification standards. That is not the problem here. But it 
seems to me that America spends hundreds of millions of dollars 
each year to train our servicemembers to do these highly 
skilled jobs. We train them to do these jobs with precision, to 
do them without mistakes, to do them in Active combat 
situations, and I believe they should be ready to move into 
civilian life with those certifications.
    What concerns me right now is that too many servicemembers 
are being roped into expensive credentialing programs by 
predatory, for-profit colleges that are looking to get a hold 
of those military benefits and make a profit off them. I just 
want to work on making it easier for our servicemembers, when 
they leave the service, to have that credential in hand and 
know that that credential is going to be recognized in all 
relevant 54 jurisdictions. I think we can fix this problem, and 
I look forward to working with you on it. Thank you.
    Thank you, Mr. Chairman.
    Senator Tillis. Thank you, Senator Warren. Senator Warren, 
I suspect there are going to be one or two policy matters on a 
broader base that we may not see eye to eye on, but on the line 
of questioning you just had, there is a lot of--after we 
defer--you know, Chairman McCain announced that we are going to 
have a rodeo roll here in the committee where after 8 seconds, 
we buck people to the next committee. Of course, that was 
before I knew the chairman was going to stop in.
    [Laughter.]
    Senator Tillis. So Chairman McCain.
    Chairman McCain. I thank you, Mr. Chairman. I thank you and 
Senator Gillibrand for your focus on the personnel issues that 
are obviously vital to our Nation's defense.
    I do not want to interrupt the proceedings. I would just 
like to ask one question of our distinguished leaders. Anything 
I ever learned about leadership I learned from a master chief 
petty officer, and I thank you especially Chief Petty Officer 
Giordano.
    As we know, 25 percent of military spouses in the labor 
force are unemployed. Many are under-employed. Obviously, the 
movement of our military personnel makes it extremely difficult 
for spouses to hold employment and jobs. My only question I 
would have, Mr. Chairman, is maybe our witnesses could describe 
how we are trying to address that challenge. Maybe we could 
begin with you, Command Master Chief Cody.
    Sergeant Cody. Yes, Senator. Thanks for the opportunity to 
address this.
    So I think we are making some inroads here, but the 
previous discussion you will see in the record is we do need to 
work on this ability of licensing and the transferability of 
that. We have done some work here. So I want to be respectful 
of the fact that there has been an effort to create the ability 
to have some time frame--right--so you can seek employment, 
given some time to get the credentialing done or licensing done 
for that State.
    Chairman McCain. Would that require approval or legislation 
on the part of States?
    Sergeant Cody. It is going to require collaboration between 
the States. Yes, sir. Absolutely. I mean, that is essential to 
this.
    I do think there is a way ahead. We did this with 
education. We came up with the Military Coalition Act where we 
kind of worked with every State to say, hey, with children that 
are going to transfer from school to school, a baseline of what 
they will accept so our children would not be taking a step 
back with every State that they went into and getting behind.
    But something similar to that nature where there is at 
least some type of baseline foundation where everybody 
fundamentally agrees that in this transition time, we are going 
to accept things as long as they meet some minimum level, to 
Chairman Tillis' point, you know, some level of supervised 
ability to get employment, understanding it will take time.
    I do think we have a responsibility to take on the cost of 
that, help with the cost of that through some type of offset 
because it is very expensive for some of these licensing and 
credentialing across State lines. It makes it prohibitive when 
you are talking about a 2- to 3-year move ratio. It is almost 
cost prohibitive.
    Sergeant Green. Yes, sir. Good afternoon, sir.
    Chairman McCain. We are calling on the communities to help.
    Sergeant Green. Yes, sir. I agree, sir.
    Two things from the Marine Corps. Number one, we are 
looking at our programs and seeing how we can further align 
with the States. We felt maybe we could teach them some things 
in our curriculum, one or two things that actually will parse 
out what the differences are in that licensing process. We 
tried it with a few MOSs. The industry out there--they actually 
accepted that. So some of it is just going through our 
curriculums.
    The other part of it is the language is different. Of 
course, truck drivers can drive, but some of it is just how we 
write the language in our system, going back and taking a look 
at that and rewriting it. That has been successful for us in 
some cases.
    Another thing is for the Marine Corps--we are so young. We 
move pretty often. We are looking at the model that we move on 
and the number of years we move families, looking to keep them 
more stabilized in this environment we are in. So that is 
helping us as well.
    Chief Giordano. Thank you for the question, Senator, and 
the compliment as well. I appreciate it.
    You know, I would say that one of the issues we have from a 
spouse employment base is also access to the things that are 
readily available today. That is where we are at, I think in a 
little state of play with the Navy, is aligning all those 
things to make sure that spouses understand how they can access 
these things, whether it is access to scholarship opportunities 
or whether it is access to figure out how to link to a partner 
that we have through our SECO [Spouse Educational Career 
Opportunities] initiatives in those hiring practices or how to 
speak--when they go into a fleet and family service center to 
speak to a counselor that talks about our Hiring Our Heroes 
programs. So getting that access and that information to the 
family members is critical in this.
    The other piece that I mentioned earlier I think that is 
even more important or as important, as we cross State lines 
within the continental U.S., is the employment outside of the 
U.S. in the other areas that we find our spouses trying to gain 
employment and have limited opportunity for employment.
    Sergeant Dailey. Senator McCain, thanks for the opportunity 
and thank you for the question.
    I think this is important not just advocating for soldiers, 
but all of us here have lived this with our spouses as we moved 
probably seven dozen times or more combined. This is important 
because we know that stability in the family makes for better 
soldiers, sailors, airmen, and marines, and we proved that over 
time.
    I think that we have done a lot of great work in the area 
of the MSEP, the Military Spouse Employment Program. We have 
asked people outside our gates to help us with this, partnering 
with hundreds of non-government agencies that produce thousands 
of employment opportunities for our spouses for the last 
several years. I think we need to continue to strengthen that 
in every way, shape, and form we can.
    One of the things I think we can improve on is what MCPON 
[Master Chief Petty Officer of the Navy] just talked about is 
internal and external communication in both forms, talking to 
our spouses about the availability of these type of programs 
and having them exercise these resources and to continue to 
talk to our partners outside of our gates of our installations, 
talk to them about the value that they bring because, as you 
mentioned, sir, many times they are more educated but they are 
getting less salary for the work that they are doing.
    Lastly, I believe that we can resource our internal 
resources. Over the last several years, we have done great work 
with regard to finding education and training opportunities 
that enhance job opportunities for our young soldiers, sailors, 
airmen, and marines as they exit the service. With the 
appropriate resourcing for these things, we can easily extend 
these services to our families as well.
    Chairman McCain. I thank you, Mr. Chairman.
    I think this is an issue and maybe we ought to look at--if 
an individual is credentialed or licensed to work in one State, 
maybe we could look at making the licensing applicable in other 
States. I hope we would look at that.
    I thank you, Mr. Chairman. I thank you, Senator Gillibrand.
    Senator Tillis. Thank you.
    Ranking Member Reed?
    Senator Reed. Thank you very much, Mr. Chairman, for 
holding this hearing.
    Thank you, gentlemen, for your service. My sense is that 
the greatest force multiplier we have in our military forces is 
the non-commissioned officer. So go back and tell your other 
NCOs the great job they are doing for all of us.
    Chairman McCain. The absence of leadership from West Point.
    [Laughter.]
    Senator Reed. That is right.
    I do not know if the chairman found this out at Annapolis, 
but they taught us very early before we did anything, check 
with the first sergeant. If he said it was cool, then do it. It 
at least got me through without major incident.
    Anyway, one of the issues that I discovered, as probably 
the chairman did and others, on Active service is financial 
problems complicate life so dramatically for servicemen and 
women. I saw something that really was staggering. According to 
the DOD, every time we separate a servicemember, it costs the 
Department $57,000. The Department estimates that each year 
somewhere between 4,700 and 8,000 servicemembers are 
involuntary separated due to financial hardship. That is a 
staggering amount of money, and it is totally avoidable I 
think.
    One thing we have tried to do--and I want to thank the 
chairman and all my colleagues--is the Military Lending Act 
ensured real protections for servicemen and women and families. 
In addition to that, what we have done when we created the 
Consumer Financial Protection Bureau, we specifically put in an 
Office of Service Members Affairs, which has been led until 
recently by Holly Petraeus. I am just wondering if you can give 
us any sort of on-the-ground feedback about if it is helping. 
Do we need to do more? What else can we do? I will start just 
because it is the Army, just because he is there. Okay? 
Sergeant Dailey?
    Sergeant Dailey. Senator Reed, thanks for the question. I 
would be happy to share with you my experience with the 
organization, which you described and which previously was led 
by Ms. Holly Petraeus.
    We have scheduled meetings with her on frequency in the 
past. She has easily described the benefit that she provided to 
our soldiers in the ways of protecting and making sure they 
were not being aggressively pursued by predatory lenders. So I 
cannot speak for the specific numbers, but I know it is a 
substantial amount of help that was provided by that 
organization for our soldiers.
    This also increased our internal agencies that provide 
assistance. So now soldiers are no longer going with those 
predatory lenders. They are now using things like the Army 
Emergency Relief Fund, which is a nonprofit organization 
governed by the military service or oversight by the military 
service that provides low and no-cost interest loans to our 
soldiers. So I see value in that organization and I know that 
they have done great things for our servicemembers.
    Senator Reed. Chief?
    Chief Giordano. Thank you, Senator.
    I know that our sailors think about when they get the calls 
from debt collectors, they think about mortgages, and they 
think about interest rates, high interest rates. What we can do 
to try to help mitigate that or provide them education up front 
to work through all that--and like my battle buddy here, the 
sergeant major, I have also met with Holly Petraeus prior to 
her retirement. I had the opportunity to speak with them about 
services that are provided and the education that is provided 
to our servicemembers.
    Something that we spoke about just recently is, we have 
this thing called the Misadventures of Money Management that we 
provide to those personnel that are in our delayed entry 
programs to kind of start them upfront on education in those 
regards, so things that later may affect them in life that they 
may not understand. The idea is educate them early before they 
even get into an institution that may affect them later on, 
involuntary separation, or clearance matters that may affect 
money matters. So we have worked hand in hand with them. We 
continue a weekly battle rhythm with the office to continue to 
figure out any support they can provide in the realm of 
financial literacy.
    Senator Reed. Thank you.
    Sergeant Major?
    Sergeant Green. I echo my battle buddies here. We are the 
last one to come on board. I was reading this morning on the 
treadmill, sir, the Misadventures of Money Management. We 
actually tied it into our program for our policy for the 
blended retirement system which we will roll out on March 1 and 
we will start to capture those members as well. This is a great 
program, a great tutorial, and starting with the delayed entry 
program is the right place to start. We know that.
    Senator Reed. Thank you very much.
    Sergeant Cody?
    Sergeant Cody. Senator Reed, thanks.
    I think all of us who have spent time with Holly Petraeus 
would have the same opinion of any agency out there 
specifically focused on supporting servicemembers and their 
families, and helping them make decisions is good for the 
military. It is good for them.
    The only thing I think I would share with you on this, 
especially as we talk about this blended retirement stuff--we 
are talking a lot about military compensation and looking at 
all this, and to your point, money is a huge factor in just the 
sustainability of a family and a lifestyle--is this idea that 
we are never going to be experts within the Department of 
Defense on this type of money management. It is not what the 
American people expect us to do. This becomes a personal thing. 
But the dynamics and the lifestyles that we expect our people 
to live in are dramatically different than anybody else in the 
Nation.
    So having these relationships and available services 
outside where they are resources to us is extremely important 
because they are experts. Having access to the experts that can 
help us through understanding what this fully means to a young 
person, upon their retirement, how that changes I think is 
better because their sole focus is on that, and our sole focus 
cannot be on that. It has to be doing what we do for the 
Nation.
    Again, I think they have done great stuff from that office 
particularly. I think that is the only thing we can speak to 
because that is our interaction with the agency. But no 
question, we need something like that to leverage as a support 
structure for those that serve because realizing the 
predominance--you know, the sergeant major talked earlier--of 
the age of the people that come into the military and the lack 
of education they have on finances. So having them embed into 
school systems and better educate people like we are doing, if 
you start off a little bit better, you have a better chance of 
finishing.
    Senator Reed. Thank you very much. If there is anything 
else you think we can do along these lines, please let us know. 
Thank you for your service and thank the soldiers, sailors, 
airmen, and marines that you so ably represent. Thank you.
    Senator Tillis. Thank you, Senator Reed.
    Just some closing comments before we move to the next 
panel. Senator Reed?
    Senator Reed. Can I, with unanimous consent, submit my 
statement?
    Senator Tillis. Without objection.
    [The prepared statement of Senator Reed follows:]

                Prepared Statement by Senator Jack Reed
to receive testimony on department of defense single servicemember and 
                   military family readiness programs
    Thank you, Senator Tillis and Senator Gillibrand, for holding this 
very important hearing. The readiness of the Armed Forces is 
fundamental to ensuring our men and women in uniform can perform all 
that we ask of them, fighting and winning the Nation's wars, while 
maximizing the chance they return safely home to their families.
    I want to highlight one particular aspect of readiness that is 
often overlooked, but is probably the single biggest element in 
ensuring the stability of military families and the readiness of 
servicemembers: financial readiness. Eleven years ago, the Department 
of Defense sent a report to Congress that alarmed many of us, detailing 
the predatory lending practices of payday lenders, car title lenders, 
and other unscrupulous actors who targeted servicemembers in order to 
trap them deeper and deeper in debt. Specifically, these predators took 
advantage of our servicemembers' unusual combination of youth and 
financial inexperience, a steady income, and the very fact of military 
service itself. This is because these young servicemembers could be 
threatened in a variety of ways for their unpaid debts, whether by 
raising the specter of punitive action by commanders, including the 
loss of a security clearance, or even administrative disciplinary 
action. In short, young enlisted military members present a target-rich 
clientele for predatory lenders, and they have taken full advantage.
    Congress responded by passing the Military Lending Act (MLA), which 
provides numerous consumer protections for servicemembers and their 
families. These protections have served us well, and have allowed 
servicemembers to keep their focus where it should be--on their 
mission. It is important that these protections continue.
    The Office of Servicemember Affairs of the Consumer Financial 
Protection Bureau (CFPB) has been instrumental in ensuring consistent 
enforcement and awareness of the protections afforded by the MLA. The 
CFPB has worked tirelessly on behalf of servicemembers since its 
inception, returning over $120 million to military families. According 
to DOD, ``each separation of a servicemember is estimated to cost the 
Department $57,333, and the Department estimates that each year 
approximately 4,703 to 7,957 servicemembers are involuntarily separated 
due to financial distress.'' In addition to the cost savings DOD has 
identified, I give great weight and deference to DOD's belief that a 
strong MLA reduces ``non-quantifiable costs associated with financial 
strains on servicemembers. High-cost debt can detract from mission 
focus, reduce productivity, and require the attention of supervisors 
and commanders.'' These protections clearly enhance the readiness of 
our Armed Forces.

    Senator Reed. Thank you.
    Senator Tillis. The point--before I was Senator, I was 
Speaker of the House in North Carolina. We moved some 
legislation I think is very important. I would like to get 
feedback from all of you all in follow-up form for States that 
are doing a particularly good job of making this crosswalk 
available. [Response not received in time for printing. When 
received, answer will be retained in committee files.] Sergeant 
Major Green, you had a very good point. We need to look at the 
MOSs and the definition of jobs that we have to make sure they 
best crosswalk to, say, industry standards for positions like 
CDLs [Commercial Driving Licenses] in North Carolina. We did 
express permitting for CDLs. We did what we called Brass to 
Class so that we could have officers come in and move into a 
public school classroom on a lateral entry basis. It would be 
helpful to get an inventory of the States that are getting some 
of those policies right so that that can be instructive in 
things that we can to do encourage other States to get up to 
that same level and maybe provide some incentive for doing 
that.
    Mr. Cody--or I should say Master Chief--I would like to 
thank you for your service. I think this may be the last time 
you come before this committee. I want to thank you and your 
family, and on behalf of all the military families and people 
serving, thank you so much for your leadership and commitment 
to taking care of our men and women in uniform. I would just 
ask--you still look pretty young. Make sure you do not have the 
ear buds in the transition meeting, not listening to all the 
things you can take advantage of in transition and come out of 
that transition process transition-literate. That is the last 
thing I will leave you with.
    We are also very curious about the majority of men and 
women who go into the armed services who are going to leave at 
some point far earlier than retirement age. As a member of the 
Veterans Affairs Committee, I would also like to get your input 
on things that we can do better to glue together the DOD and 
Veterans so that we make sure that these soldiers know what 
they have available to them and we also have very clear vision 
into challenges that they may face so that we can do the best 
job of serving them after they have served us.
    Thank you all for your time on the committee, and we 
appreciate your feedback on the follow-up questions.
    The next committee, while we are doing a transition and 
changing the nameplates--I want to welcome the second panel 
before the committee here and introduce the speakers. We have 
Acting Assistant Secretary of Defense for Manpower and Reserve 
Affairs, Ms. Stephanie Barna. We have Kathy Roth-Douquet, CEO 
[Chief Executive Officer] of the Blue Star Families, and we 
have Joyce Raezer, Executive Director of the National Military 
Family Association (NMFA). Thank you all for being here. 
Consistent with the first panel, we will have you, if you 
could, have opening comments of about 5 minutes. Please feel 
free to submit your comments for the record, and then we will 
go to questions. We will start with Ms. Roth-Douquet.

STATEMENT OF KATHY ROTH-DOUQUET, CHIEF EXECUTIVE OFFICER, BLUE 
                         STAR FAMILIES

    Ms. Roth-Douquet. Thank you so much. Senator Tillis, 
Senator Gillibrand, I really appreciate you having us here 
today and I appreciated that earlier session too. We know that 
you all care about us, and that makes a big difference to all 
the servicemembers and their families.
    Blue Star Families builds communities that support military 
families and connects them to their civilian neighbors. We 
believe all military families members ought to be able to both 
serve their Nation and see their families thrive.
    One of the ways we do our work is through research that 
finds the current problems facing military families and works 
with partners on those solutions. Our annual military family 
lifestyle survey is nationally recognized as a yearly snapshot. 
It is the largest and most comprehensive survey of Active Duty, 
veterans, and their families in the country. It is released 
annually with the House and Senate military family caucuses, 
and it is used broadly by the White House, Congress, Department 
of Defense, State and local officials, foundations, and other 
nonprofits.
    So what I would like to talk to you about is what we 
learned in this year's survey, which was released in December, 
which is that we see a military community at a point of 
inflection. The All-Volunteer Force and our military personnel 
system was not designed for our current security situation of 
low-intensity conflict over time for a force that is educated, 
married, and living in a society that is increasingly diverse 
and inclusive, and increasingly middle class families require 
two incomes to maintain lifestyle and create opportunities for 
their children.
    Rather than ad hoc measures meant to provide support during 
periods of acute warfare, military families need to be 
understood as a structure, a part of the structure of the 
force. Military family readiness programs alone cannot be the 
answer. Families are part of recruitment, retention, readiness, 
and reintegration and need to be structured as such in a way 
they currently are not.
    I am honored to help lead an effort with the Bipartisan 
Policy Center examining the impact of military family policy on 
readiness and national security. Our upcoming report, which we 
will be presenting here to the full Senate Armed Services 
Committee (SASC) will demonstrate how military family readiness 
is part of our national security.
    When DOD maintains policies that categorize military 
families purely as quality of life issues, it does not get us 
to where we need to be.
    You have most of my remarks for the record. I just want to 
highlight that when we ask the open-ended response to 
servicemembers' families, what is it that DOD could do to make 
the biggest difference for you in your lives today, the number 
one written-in response was childcare. It is important to note 
that two-thirds of families do not have childcare to meet their 
needs.
    Number two was health care.
    Number three was operational tempo. Nearly three-quarters 
of the families in our survey said that the current operational 
tempo is unhealthy and unsustainable for them, and more than 4 
in 10 had had more than 6 months of family separation in the 
last year and a half. I think our civilian neighbors are 
unaware of how hard we are working.
    Finally, spouse employment is a bit of a silver bullet 
issue we feel. So many stresses are economic, as you mentioned, 
and financial. Military families' median income--
servicemembers' income is $45,000 a year. You cannot reach the 
American dream of a middle class lifestyle without two incomes. 
There is more that we can do to solve that problem.
    [The prepared statement of Ms. Roth-Douquet follows:]

                Prepared Statement by Kathy Roth-Douquet
Dear Mr. Chairman, Ranking Member Gillibrand, and other distinguished 
Members of the Subcommittee,
Blue Star Families deeply appreciates the opportunity to testify in 
front of the Personnel Subcommittee of the Senate Armed Services 
Committee on February 14, 2017. Thank you for including our 
perspective.

The following attachments are also submitted for the record:
    1.  Written Testimony
    2.  2016 Military Family Lifestyle Survey, Comprehensive Report
    3.  2016 Military Family Lifestyle Survey, Executive Summary
    4.  2016 Military Family Lifestyle Survey, Comprehensive 
Infographic
    5.  2016 Military Family Lifestyle Survey, Recruitment Infographic
    6.  2016 Military Family Lifestyle Survey, Readiness Infographic
    7.  2016 Military Family Lifestyle Survey, Retention & 
Reintegration Infographic
    8.  2016 Military Family Lifestyle Survey, Spouse Employment 
Infographic

    Chairman Tillis, Ranking Member Gillibrand and other distinguished 
Members of the Subcommittee, thank you for the opportunity to appear 
before you today.
    I am Kathy Roth-Douquet and I am the CEO of Blue Star Families. 
Blue Star Families (BSF) builds communities that support military 
families by connecting research and data to programs and solutions, 
including career development tools, local community events for 
families, and caregiver support. Since its inception in 2009, BSF has 
engaged tens of thousands of volunteers and serves more than 1.5 
million military family members. BSF believes that all military 
families should be able to serve and simultaneously build thriving and 
healthy families. With BSF, military families can find answers to their 
challenges anywhere they are. With strong ties to all branches of 
service, Active Duty, veterans, and their families, BSF is nationally 
recognized for its annual Military Family Lifestyle Survey. The largest 
of its kind, the survey provides both quantitative and qualitative data 
that reveals a snapshot of the current state of the servicemembers and 
their families. Conducted annually, the Military Family Lifestyle 
Survey is used at all levels of government to help inform and educate 
those tasked with making policy decisions that impact servicemembers 
and their families--who also serve.
 supporting military families strengthens national security and local 
                              communities
    Military families are assets to national defense and local 
communities. They are central to the health and capability of the All-
Volunteer Force and are good neighbors actively engaged in making their 
civilian communities great places to live.
    This past year has seen new and emerging security threats in 
numerous regions while Department of Defense (DOD) budget cuts and 
personnel downsizing continues. The resulting operational tempo is very 
concerning to servicemembers and their families. New proposals to make 
further cuts to housing allowances were accompanied by new cuts to 
military family support programs. Quality of life issues like military 
family stability and the impact of deployments on children are 
increasing relative to lasting concerns regarding pay, benefits, and 
spouse employment.
    Research suggests that servicemembers' top concern is for their 
family's well-being and family well-being is a top consideration in 
whether a servicemember stays or leaves the force. In fact, our 
research shows that while 66 percent of servicemembers and their 
spouses would recommend service to young people, only 43 percent would 
recommend it to their own child. While the military has adopted a 
number of reforms to support military families in the past few years, 
there is still much more to be done.
                  key priorities for military families
    Blue Star Families conducted its seventh annual Military Family 
Lifestyle Survey in April-May, 2016 with over 8,300 respondents 
including military spouses, Active Duty servicemembers, veterans, and 
their immediate family members participating in the survey. The 
Military Family Lifestyle Survey's response rate makes it the largest 
and most comprehensive survey of Active Duty, veterans, and their 
families.
    This year's survey results show a military community at a point of 
inflection. It shows the country needs to get smarter about what a 
healthy All-Volunteer Force really looks like--and what it needs it to 
look like to ensure future success. The All-Volunteer Force was not 
designed for our current security environment of protracted low-level 
conflict, nor was it designed for the modern servicemember--who is 
better educated, married with children, and living in an increasingly 
diverse and inclusive society.
    Analysis of the qualitative portions of this year's survey 
reinforced the quantitative findings. For example, extended family 
separations, frequent moves, and outdated expectations that military 
spouses sublimate their personal, professional, and familial priorities 
to support their servicemember's military service are the most relevant 
topics identified as substantially reducing the quality of life and 
attractiveness of martial service. Military families understand that 
serving may mean making sacrifices in support of service; however DOD 
must also examine the military necessity of the burdens it asks 
military families to bear.
    Despite varied topics covered in this year's survey report such as 
financial readiness, veteran transition, and healthcare, one clear and 
consistent theme emerged: the DOD must do a better job of incorporating 
military families into its current thinking and future planning. Rather 
than ad hoc measures meant to provide support during periods of acute 
warfare, military families must be understood as a structural component 
of the force. Thinking about families in this way makes the country 
smarter about what it takes to ensure our nation's security and it 
improves the ability of the DOD to meet recruitment, retention, 
readiness, and reintegration goals.
    Our key priorities for the coming year are based on areas of need 
identified in our 2016 survey. We feel improvement in these areas also 
has the greatest potential to reduce the trend of increasing quality of 
life concerns that were a top trend in our 2016 survey.
    The areas we will be focusing on are:
    <bullet>  Increasing understanding among the general U.S. 
population that operational tempo and family separations remain very 
high--72 percent of Active Duty and military spouse respondents 
indicated the current op-tempo exerts an unacceptable level of stress 
for a healthy work-life balance, and 42 percent of military family 
respondents report experiencing more than 6 months of family separation 
in the last 18 months. Military families continue to experience 
significant challenges and make heavy sacrifices as a result of their 
service.
    <bullet>  Improving access to timely and competent healthcare 
services is imperative for wellness and force readiness--Improvement to 
healthcare was a top response when asked ``What could DOD do to make it 
easier for you to ensure your family is healthy and happy during your 
or your loved one's military service?''
    <bullet>  Improving employment and career viability for military 
spouses--unemployed or underemployed military spouses--military spouse 
unemployment sits around 25 percent (compared to 3 percent for all 
married women with children under 18) and is a top obstacle to the 
financial security and successful retirement or transition planning for 
military families
    <bullet>  Developing better solutions to the lasting challenge of 
access and affordability of quality childcare--66 percent of military 
families are unable to reliably find childcare that meets their needs 
and it was the top response when asked ``What could DOD do to make it 
easier for you to ensure your family is healthy and happy during your 
or your loved one's military service?''
                operational tempo and family separations
    The military lifestyle demands long hours, unpredictable work 
schedules and that families endure frequent and prolonged separations 
not just for wartime deployments, but also for training, temporary duty 
assignments, and additional responsibilities that frequently require 
travel. Servicemembers and their families feel the current optempo is 
unsustainable and threatens the health of their families. Active Duty 
servicemember respondents rank ``general military op-tempo/deployments/
training time'' as their number five issue and 33 percent rank it in 
the top five issues overall. Seventy-two percent of Active Duty and 
military spouse respondents indicated the current op-tempo exerts an 
unacceptable level of stress for a healthy work-life balance.
    Despite the troop drawdowns in Iraq and Afghanistan, military 
families continue to experience high rates of separation from their 
servicemember. Forty-two percent of military family respondents report 
experiencing more than 6 months of family separation in the last 18 
months and 37 percent of military couples reported experiencing 
relationship challenges in the past year related to worry over future 
deployments. Sixteen percent of Active Duty family respondents had a 
family member currently deployed.
    For the first time since the survey began ranking issues by 
respondent subgroups in 2014, Active Duty respondents ranked the impact 
of deployments on children as a top five issue. Thirty-one percent of 
Active Duty respondents indicated the impact of deployments on children 
was a top five issue, a 57 percent increase as compared to the 2015 
survey, with Active Duty and military spouse respondents both ranking 
it the number four issue for 2016. Fifty-one percent of military family 
respondents feel the DOD support services are inadequate to support 
military children in coping with deployments. Military leaders can 
continue to prioritize military family programming as an essential 
component of readiness while operational tempos remain high and the 
global security environment remains uncertain.
                               healthcare
    Healthcare coverage is part of a complete compensation package for 
a servicemember and his or her family, just as it is in the civilian 
labor markets. As military families consider whether or not staying in 
the military is a good decision for their families, many quality of 
life and cost considerations go into that decision calculus. In this 
year's survey, satisfaction was considerably higher regarding access to 
and timeliness of care among military spouse respondents who use 
Tricare Standard (81 percent) as compared to military spouse 
respondents who use Tricare Prime with a Military Treatment Facility 
(MTF) provider (54 percent).
    Medical and mental health care are intimate exchanges between a 
patient and a provider, requiring trust and empathy. However, 35 
percent of military family respondents who have a child with special 
needs report they do not feel their child's needs are being adequately 
addressed. Forty percent of servicemember respondents were 
uncomfortable seeking mental health care from a military provider. For 
military family respondents who identify as LGBT [lesbian, gay, 
bisexual, and transgender], 59 percent feel the military system lacks 
LGBT competent mental health providers, and 39 percent of feel 
Tricare's LGBT healthcare policies are inadequate.
    To reduce uncertainty around healthcare benefits, stakeholders 
including Congress, the Department of Defense, and the Administration, 
need to communicate the details of proposed changes early and often. 
Yearly cuts or changes to benefits erode trust--and as a result, the 
readiness--of military families. Only 19 percent would recommend 
service to others if the current trend of cutting/changing benefits 
continues. Additional steps include reducing healthcare red tape 
experienced by users--especially transferability of established 
services/specialists after a permanent change of station (PCS), and 
eliminating the need for referrals to obtain/maintain continuity of 
care (i.e. referrals for long-term specialty care/educational services 
should be valid in new duty station without seeking new referrals). We 
need to learn from trends in the civilian medical and healthcare 
sectors to increase patient satisfaction such as expanding MTF hours to 
later into the evening, opening weekend hours, and increasing same day/
next day appointments. Finally, increasing provider continuity and 
ensuring appropriate staffing levels (i.e. providers assigned to MTF's 
deploy during their MTF tour, resulting in frequent shortages in 
providers and lack of continuity of providers at MTF's. Consequently, 
patients are forced to see multiple providers and lack continuity of 
care). \1\
---------------------------------------------------------------------------
    \1\ Casetenada, L.W. and Harrell, M. (2008). Military Spouse 
Employment: A grounded theory approach to experiences and perceptions. 
Armed Forces and Society, 34(3), 389-412
---------------------------------------------------------------------------
                       military spouse employment
    The ability of military spouses to meet their own employment 
expectations is a significant factor with overall satisfaction with the 
military lifestyle \2\ and with individual servicemember retention 
decisions \2\. Fifty-one percent of respondents to our survey 
identified military spouse employment as a top obstacle to their 
family's financial security and military spouse employment remains a 
top concern for Active Duty spouse respondents. Twenty-one percent of 
military spouses responded they were unemployed (versus 3 percent for 
comparable civilian group--married women with children under 18), a new 
finding in this year's survey. Findings also indicate that married 
Active Duty and military spouse respondents were 27 percent less likely 
to have dual incomes than married non-military couples with children 
under 18. Less than half (48 percent) of military families with a 
civilian spouse earn two incomes, as compared with two-thirds (66 
percent) of the general U.S. population with kids under 18 who field 
two incomes.
---------------------------------------------------------------------------
    \2\ Scarville, J. (1999). Spouse Employment in the Army: Research 
Findings. Retrieved from http://www.dtic.mil/dtic/tr/fulltext/u2/
a222135.pdf
---------------------------------------------------------------------------
    *ERR13*A newly released white paper from the Bipartisan Policy 
Center appropriately explains how an outdated view of military spouses 
and families is not adequate for a modern All-Volunteer Military. In 
this year's survey 79 percent of Active Duty military spouses reported 
being a military spouse had a negative impact on their ability to 
pursue a career, an increase from last year's survey results. It is 
important to note that findings indicate that military spouses able to 
maintain a career are 36 percent more likely to recommend military 
service which contributes towards retention and future recruitment.
    Finally, Active Duty spouse respondents in this year's survey 
indicate seeking federal employment is not a successful strategy for 
military spouses despite special military spouse hiring authority. The 
existing special federal hiring authority does not appear to be a 
particularly effective initiative for hiring military spouses with 79 
percent of military spouse respondents who applied for employment using 
the hiring authority indicating they had not obtained federal 
employment.
    To address these military spouse employment needs we need to 
prioritize military spouse employment and education initiatives at the 
national and community leadership levels. Increase coordinated efforts 
among the public, private, and nonprofit sectors to promote high-
quality portable or work-from-home positions for military spouses that 
enable employment continuity and career advancement. The DOD and the 
Federal Government can clarify the various public hiring preferences 
available to military spouses and better educate human resource 
managers and spouses on how to implement/utilize to ensure hiring 
managers are implementing existing policies.
                           childcare concerns
    Frequent moves and geographic separation from extended family 
members makes the need for childcare especially acute within military 
families. Childcare continues to be a top need among military families, 
especially military spouses who are pursuing an education or 
employment. In this year's survey 83 percent of Active Duty spouse 
respondents report lack of childcare impacts their ability to pursue 
employment or education. Interestingly, among Active Duty spouses' 
respondents who desire work, those who do not want to work, and those 
who are unsure, the top three reasons for not working are the same: 
family commitments, servicemember's job demands (including PCS, 
deployments, servicemember's unpredictable schedule), and childcare. 
While family commitments and servicemember's job demands is consistent 
with last year's findings, childcare replaced relocation in this year's 
top reason for not working.
    Increasing access to affordable, flexible, and high quality 
childcare will remain a top challenge and presents a substantial 
opportunity to increase military family readiness. Additional support 
for flexible and affordable childcare remains a top request with 66 
percent of military families indicating they are not always able to 
find the childcare they need and 38 percent report spending $500 or 
more per month on childcare. When asked ``What could DOD do to make it 
easier for you to ensure your family is healthy and happy during your 
loved one's military service,'' the top theme among qualitative 
responses was ``offer accessible and affordable childcare.''
    To address these childcare challenges the DOD needs to simplify on-
base childcare enrollment, increase capacity across military-certified 
providers including occasional care capacity, and increase career to 
child ratio in order to align with state laws where federal ratios are 
lower than those mandated by the state. The DOD can streamline the 
process for re-registering children for Child Development Center (CDC) 
placements following a Permanent Change of Station (PCS). Finally, the 
DOD can work to enhance command sensitivity to the growing trend of 
equitable division of household and childcare responsibilities as well 
as command support for improving work schedule predictability and 
military spouse considerations as a factor in PCS assignments.
                               conclusion
    Blue Star Families believes that military families are assets to 
both our national defense and local communities. They are central to 
the health and capability of the All-Volunteer Force and are good 
neighbors actively engaged in making their civilian communities great 
places to live. Servicemembers may be employed by their respective 
services--but they work for all Americans. Thus, the responsibility for 
supporting military families is certainly a duty of the Department of 
Defense; however, a healthy nation also shares in this responsibility. 
Our country can help support military families by learning more about 
the unique nature of military life and increasing civilian and military 
collaboration on a number of levels. We can do this by supporting a 
number of positive military lifestyle factors such as: the employment 
of military spouses; military child education and wellness; financial 
and retirement savings education; military childcare; local civilian 
community engagement; strong mental health; and veteran employment.

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
      
    Senator Tillis. Thank you.
    Ms. Barna?

  STATEMENT OF STEPHANIE BARNA, ACTING ASSISTANT SECRETARY OF 
            DEFENSE FOR MANPOWER AND RESERVE AFFAIRS

    Ms. Barna. Chairman Tillis, Ranking Member Gillibrand, I 
appreciate the opportunity to be with you today, together with 
Ms. Roth-Douquet and Ms. Raezer of the National Military Family 
Association.
    The Department works closely and collaboratively with both 
Blue Star Families and with NMFA on a regular basis, and both 
have provided us with unflagging support in our efforts to 
improve the quality of life of our military personnel, our 
families, and to ensure military family readiness.
    Our nearly 3 million military family members may not wear a 
uniform, but they do serve and they do sacrifice. We believe 
that our single servicemember and military family programs are 
absolutely essential to maintaining the readiness of our Armed 
Forces. With your support, we back that belief with an 
investment of effort, of ingenuity, and dollars.
    The commitment starts at the very top echelon of the 
Department of Defense. In his statement before the Senate Armed 
Services Committee considering his nomination, Secretary Mattis 
said, ``I will hold servicemembers, civilians, and their 
families foremost in my thoughts and give them the best chance 
for victory.''
    In his first message to the entirety of the Department of 
Defense as our Secretary, he called out the uniformed and 
civilian members of the Department and their families saying, 
``You are representative of the fundamental unity of our 
country.''
    In his very first tasking to my office, he asked, ``Tell me 
what this Department is doing for our military families and 
what we can and will do better.''
    The challenges inherent in the military profession, 
deployments, operations, training, and the mobile military 
lifestyle impose great burdens on our military families. In the 
Department, we analyze measures like OPTEMPO [Operational 
Tempo] and PERSTEMPO [Personnel Tempo], but to our military 
families, these mean only one thing, that their loved one is 
gone again. We believe that military families need and deserve 
our continuous support no matter the reason for a 
servicemember's absence.
    Some have concluded that as our commitments shift in Iraq 
and Afghanistan and as many of our servicemembers return home, 
that the need for robust military family programs and services 
has abated. We believe it is quite the opposite. Periods of 
readjustment and periods of reintegration are actually among 
the most stressful in our military families, and they require 
our continuous attention, our caring, our support, and our 
investment.
    The Department will continue to prioritize support for 
servicemembers and their families by providing and resourcing 
quality of life and military family readiness for our people. 
As the needs of our servicemembers and their families change 
for a new generation, we will continue to adjust and rebalance 
our programs best to serve our entire military community.
    Led by my office, the military services are currently 
conducting a review of all assignment and relocation policies, 
and the effects of those policies on military family stability 
and quality of life. We want to ensure that we are optimizing 
the use of existing authorities and resources. This report will 
inform our report that is due to you in June of this year.
    Chairman Tillis, Ranking Member Gillibrand, I thank you for 
having us here today, and I look forward to answering any 
questions that you may have.
    [The prepared statement of Ms. Barna follows:]

               Prepared Statement by Ms. Stephanie Barna
    Thank you, Chairman Tillis, Ranking Member Gillibrand, and Members 
of this distinguished subcommittee, for your unflagging support of 
quality of life programs that keep our military members and their 
families strong and resilient. The Department is committed to providing 
quality programs and services to our servicemembers and their families 
and survivors. I appreciate the opportunity to appear before you today 
to highlight some of the family readiness programs in the Personnel and 
Readiness portfolio.
    Our servicemembers respond without hesitation to our Nation's call, 
both here at home and in combat and humanitarian operations overseas. 
The challenges of military service can strain even our most self-
sufficient members and their families. Military quality of life 
programs, including family readiness and morale, welfare, and 
recreation (MWR) programs, are critical to their overall well-being and 
resiliency. Participation in family support, childcare and youth 
programs, financial education services, recreation, fitness, sports, 
cultural arts, and other leisure activities contributes to personal 
health and well-being, and helps build strong military families and 
healthy communities. As force structure and funding levels have shifted 
in recent years, the Office of the Secretary of Defense (OSD) has 
undertaken proactive partnerships with the military services on a 
number of family readiness initiatives to enhance these programs and 
services for our military community.
                      children and youth programs
    The military is a young force with many young families. According 
to the 2015 Demographics Report published by the Office of the Deputy 
Assistant Secretary of Defense for Military Community and Family 
Policy, 66 percent of the Active Duty force is 30 years of age or 
younger. Slightly more than 41 percent of military personnel have 
children; about 42 percent of the children of Active Duty 
servicemembers are less than 5 years old. Responding to the needs of 
this demographic, more than 55 percent of Department of Defense (DOD) 
child development center care capacity is focused on children under the 
age of 3 years.
    DOD recognizes the importance of providing families with access to 
quality, affordable child development programs and is committed to 
meeting this need through a comprehensive and robust childcare delivery 
system. A quality childcare system helps families balance the competing 
demands of work and family life, and contributes to the efficiency, 
readiness, and retention of the total force.
    As the largest employer-sponsored childcare program in the country, 
DOD provides child development services each day for approximately 
180,000 children ranging in age from birth to 12 years. The system 
includes more than 700 child development centers and school age care 
facilities, and approximately 2,600 family childcare homes, at over 230 
locations worldwide. DOD maintains rigorous compliance with national 
standards and oversight requirements to ensure that our children's 
health and safety needs are met, with 97 percent of DOD child 
development centers maintaining national-level accreditation. Childcare 
options through comparable community-based centers and family childcare 
homes provide alternatives to installation-based center care, when 
available. Community-based programs support families who may be unable 
to access installation-based care as well as those families who are 
geographically dispersed. Such childcare options are partially 
subsidized by DOD, and provide increased capacity and greater 
flexibility for our military families.
    DOD applies the criteria of ``available, affordable, and quality'' 
to ensure a safe, healthy, and developmentally-appropriate childcare 
environment for our children. DOD has implemented a number of 
initiatives to provide critical services and support for our 
servicemembers, civilians, and their families with young children, 
facilitating accomplishment of the military mission, especially in 
today's dynamic operational environment.

    <bullet>  DOD and the military services launched a new online 
childcare request portal, MilitaryChildCare.com, in January 2015. The 
website is designed to make it easier for families to identify 
childcare options in locations around the world and request childcare, 
while improving the management of childcare waiting lists. Standardized 
request and waitlist procedures, together with the efficiency and 
transparency afforded by an online system, will reduce the length of 
time families spend waiting to receive childcare services and keep 
families well informed about the status of their request for care.
    <bullet>  Service-initiated hiring fairs expedite the onboarding 
process for child and youth program staff and are successfully bringing 
additional childcare employees on board.
    <bullet>  Updated processes for criminal history background checks 
have reduced the delays in authorizing new childcare employees to begin 
working on a provisional basis.
    <bullet>  The Department's Extended Child Care Initiative affords 
installation commanders the discretion to extend child development 
center operating hours to 14 hours a day, based on servicemember and 
family needs, and mission and utilization requirements.
    <bullet>  DOD's new Nursing and Lactation Room policy establishes 
facility standards and best practices for the setup and operation of 
``mother's rooms'' where military members and civilian employees can 
nurse or express milk close to their work areas, better meeting the 
needs of both the individual and the command.
                    spouse employment and education
    As a result of the mobile military lifestyle, military spouses 
continue to face multiple challenges in maintaining a career with an 
upward trajectory. The most recent Active Duty Spouse Survey, conducted 
by DOD in 2015, indicates a spouse unemployment level of 23 percent. 
Various studies also indicate a high level of underemployment and a 25 
percent wage gap between female military spouses and their civilian 
counterparts. This is despite the fact that 85 percent of military 
spouses possess some college education, a percentage substantially 
higher than their civilian counterparts. Military spouses are a young 
(with an average age of 35), techsavvy, educated workforce. The 
greatest challenge facing military spouses in relation to their careers 
is that of relocation. Military families relocate 14 percent more 
frequently than civilian families; these relocations are generally 
across state lines, with a high number occurring overseas. Of note, the 
National Defense Authorization Act for Fiscal Year 2017 (NDAA FY17) 
removed the 2-year time limit on spouse eligibility for non-competitive 
appointment as a DOD civilian employee. Prior to that change, a 
military spouse could be non-competitively appointed only within 2 
years of the date of the sponsor servicemember's Permanent Change of 
Station orders; the NDAA removed that limit altogether--a significant 
step forward in affording our military spouses greater opportunities 
for Federal employment. We thank the subcommittee for its role in 
enacting this change.
    The DOD remains committed to providing military spouses with the 
necessary tools, information, and resources to assist them in meeting 
these challenges. The Department's Spouse Education and Career 
Opportunities (SECO) program provides military spouses with expert 
education and career guidance. The SECO suite of initiatives continues 
to evolve and grow.
    The program supports career exploration, education, training and 
licensing, employment readiness, and career connections. SECO is 
delivered through the 24/7/365 servicemember and family support 
website, Military OneSource (www.military onesource.mil). Military 
OneSource is designed to augment the local, installation-based programs 
delivered by the military services, allowing military spouses to 
receive information and utilize tools when and where they choose.
    One SECO initiative is the Military OneSource Spouse Career Center. 
The Career Center provides military spouses with access to masters-
level, certified career counselors at no charge, and as often as 
needed. These career counselors, many of whom are military spouses or 
veterans themselves, provide a suite of assistance options to military 
spouses. This includes helping spouses to develop a path toward their 
chosen career, implement job search strategies, make decisions on 
training and education, identify financial assistance resources, 
develop strong resumes, and conduct mock interviews. In 2016, the 
Career Center provided more than 170,000 counseling sessions and 
maintained a 97 percent satisfaction rate with users.
    The Department also helps military spouses who are pursuing their 
education goals obtain financial assistance. The MySECO website, 
accessed via Military OneSource, provides military spouses with tools 
to cope with this challenge: an Individual Career Plan Wizard, a resume 
builder designed specifically for military spouses, and an online 
database of military spouse scholarships and financial assistance, 
including the My Career Advancement Account (MyCAA). MyCAA provides up 
to $4,000 in scholarship funds to assist spouses of our junior military 
personnel in attaining the training, licensing, and education necessary 
to enter into a portable career field. In 2016, more than 22,000 
spouses utilized MyCAA scholarships to take more than 41,000 courses. 
SECO also works closely with non-profit military service 
organizations--like the National Military Family Association--that 
offer educational financial assistance to military spouses.
    DOD recognizes that we cannot tackle the issues of spouse 
employment alone. The Military Spouse Employment Partnership (MSEP) is 
a SECO initiative that connects military spouses with businesses and 
corporations that have committed to recruiting, hiring, promoting and 
retaining them. Since June 2011, MSEP has grown to more than 335 
partners who have hired more than 100,000 military spouses. 
Representing nearly every industry sector and employment field, MSEP 
partners have advertised more than 5 million jobs through the MSEP 
Career Portal, an online tool that allows spouses to connect to 
participating partners.
    Through the MSEP initiative, the Department has partnered with more 
than 20 military-serving, non-profit, and government organizations to 
assist with spouse employment. Organizations such as the National 
Military Family Association and Blue Star Families, and government 
agencies such as the Department of Labor and the Small Business 
Administration's (SBA) Office of Veteran Business Development, play an 
integral role in this effort. We are working with SBA to secure access 
to tools and resources for our spouse entrepreneurs, and with the 
Department of Labor to secure priority service for military spouses at 
their American Job Centers.
    In trying to maintain their careers and employment, military 
spouses are faced with the additional challenge of maintaining 
professional licensing when they relocate across state lines. Thanks to 
the efforts of the Defense State Liaison Office over the last 4 years, 
all 50 states have now adopted legislation to support the portability 
of licenses and credentials for military spouses. Although the 
Department is proud of this accomplishment, more work remains to be 
done. DOD is currently engaged in a study to examine how this 
legislation is being applied in each state, and identify how efforts 
might be strengthened.
    Spouses who move overseas with their servicemember face additional 
challenges in maintaining employment; our Military OneSource career 
counselors are well equipped to discuss career options available to 
spouses living overseas. DOD continues to work with local officials to 
understand and hopefully ease any restrictions on spouse employment 
imposed by the Status of Forces Agreement (SOFA) with the host nation, 
and to maximize spouse employment opportunities on U.S. military 
installations overseas.
                programs for families with special needs
    The Office of Special Needs (OSN) was established to enhance and 
improve the Department's support of military families with special 
medical or educational needs. OSN achieves this mission through 
oversight of educational services for children with disabilities 
provided by the DOD under the Individuals with Disabilities Education 
Act (IDEA), and through the standardization of Exceptional Family 
Member Program (EFMP) processes.
    Under the auspices of IDEA, approximately 10,000 children from 
birth through age 21 receive early intervention and special education 
services from DOD. OSN develops and oversees the policies and 
procedures through which DOD provides these services. DOD requires the 
Military Departments and the Department of Defense Education Activity 
(DODEA) to provide early intervention services, special education, and 
related services for eligible family members. These services include 
programs in the home, occupational therapy, physical therapy, and 
specialized instruction to supplement the family member's general 
educational experience. The Department also conducts surveillance 
visits to monitor the status of policy and IDEA compliance within the 
military departments and DODEA.
    In the EFMP arena, OSN and the military services have successfully 
standardized key programmatic functions. This standardization has 
provided greater support for military families with special needs, a 
more consistent EFMP experience, and the same level of access to 
services, regardless of military service affiliation or location. For 
example, OSN and the Services collaborated to develop and field a 
standardized Family Needs Assessment/Inter-Services Transfer Summary to 
assist in the identification of family support needs and coordinate 
family support information when a family transfers from one Family 
Support Office to another sister-Service location. In addition, OSN and 
the Services successfully launched a family member travel screening 
pilot to test newly-standardized forms and processes across the 
Services; this program will ultimately benefit all families, not only 
those with special needs.
    Other EFMP accomplishments include developing extensive training 
and information materials for families and staff on subjects such as 
navigating social services systems, developing assessments and services 
plans, and locating and leveraging available community resources. 
Additionally, EFMP has developed and successfully piloted a data 
repository to collect standard demographic breakouts of the special 
needs community across the Services along with data on types of 
activities, assignment concerns, and gaps in support; we expect to 
implement this database DOD-wide in the near future. EFMP has also 
completed a process-and-outcome metrics pilot that allows families to 
provide feedback on the family support services they receive. OSN will 
use this feedback to prioritize and pursue additional initiatives to 
meet the evolving requirements of military families with special needs 
and improve their experience with the EFMP.
                            family advocacy
    The Department is committed to keeping our children safe and 
healthy and to doing all that it can to prevent child abuse and neglect 
and domestic abuse/intimate partner violence in our military 
communities. Now in its 36th year, the Family Advocacy Program (FAP) 
provides comprehensive prevention, advocacy, and early identification 
and treatment of child and domestic abuse victims and offenders.
    FAP is the policy proponent for DOD's Coordinated Community 
Response system which includes medical, law enforcement, legal, child 
and youth, chaplain, and DODEA participants. The Coordinated Community 
Response system plays a key role in the prevention of, and response to 
reports of child abuse and neglect, and domestic abuse in military 
families. DOD provides FAP services across the military services 
through licensed clinical providers, domestic abuse victim advocates, 
new parent support home visitors, and expert prevention staff. FAP 
executes its mission in cooperation with civilian social service 
agencies, and military and civilian law enforcement agencies. FAP is 
mandated to report child abuse and neglect in military families to 
state and local Child Protective Services (CPS), and works in 
collaboration with CPS to respond to incidents of child abuse and 
neglect.
    Although the DOD rates of child abuse and neglect are about half of 
their counterpart rates in the U.S. civilian population as compiled by 
the U.S. Department of Health and Human Services, there has been a 
slight upward trend in the rate from fiscal years 2009-2014. As a 
result, the Department and the military services initiated prevention 
and research efforts to target risk factors: preventing infant abusive 
head trauma related to shaking, strengthening father-child bonding, 
decreasing distracted parenting, and creating safe sleeping 
environments to prevent suffocation.
    The Department has enhanced its focus on the prevention of child 
abuse and neglect through multiple initiatives, to include the 
execution of the Family Advocacy Program 5-year Strategic Prevention 
Plan, and the Coordinated Community Response Integrated Project Team 
systems review. DOD will continue its focus on prevention through 
programs such as intensive home visitation with the New Parent Support 
Program, evidence-based programs to include infant massage focused on 
father engagement and attachment, and dissemination of Purple Crying 
materials produced by the National Center for Shaken Baby Syndrome.
    Notwithstanding these efforts, the Department recognizes that there 
is more work to be done as we strive to enhance our prevention efforts 
to prevent incidents of child abuse and neglect and domestic abuse and 
provide effective treatment and resources for military families.
                   military family readiness council
    The Military Family Readiness Council (MFRC), a congressionally 
mandated, non-discretionary federal advisory committee sponsored by 
DOD, continues to review and evaluate the full range of military family 
readiness policies, programs, plans, and initiatives. At the Council's 
next meeting, to be held on February 15, 2017, the focus will be on the 
support and services provided to families with special needs. Other 
2017 focus areas include educational benefits for service and family 
members, issues associated with the mobile military lifestyle, and the 
identification of viable resourcing options that could provide needed 
support for military family support programs and services.
                 morale, welfare, and recreation (mwr)
    MWR programs provide recreation, fitness, sports, cultural arts, 
and leisure activities worldwide. These vital programs contribute to 
military family readiness and support strong military families and 
healthy communities. Services are provided in many formats, including 
in person, online, and through community partnerships. Ongoing efforts 
to prioritize and streamline offerings will result in a portfolio of 
programs that meet the changing needs of the dynamic military 
population.
    Studies show that communication between family members during 
deployment promotes better resiliency outcomes, including higher 
marital satisfaction post deployment. The Department provides over 85 
MWR internet cafes and 55 morale satellite units at main operating and 
remote and isolated contingency operation locations, 24 hours a day, 7 
days a week. In fiscal year 2015 this program enabled our deployed 
servicemembers to enjoy more than 3 million minutes of talk time with 
family and friends at home.
    For our single servicemembers, each military service offers MWR-
targeted programming. While each Service uses a different program 
delivery model and program name, all have the same core vision: 
engaging single servicemembers in MWR activities that will help them 
unwind, connect, and recharge. Engagement in positive recreational 
activities during offduty hours helps single servicemembers build their 
social circles, increase physical fitness, acclimate to the climate and 
culture, engage in outlets for stress, and make better behavioral 
choices.
    During 2016, MWR focused on two programs in particular, fitness 
centers and libraries, and published updated program standards for 
implementation in fiscal year 2017. Fitness facilities support mission 
readiness, active lifestyles, and health and wellness by offering an 
array of fitness equipment, programming, and instruction appropriate to 
the fitness goals of servicemembers and their families. The updated 
fitness standards address pre-activity screening, administrative 
operations, staffing, health, safety, and security issues, requirements 
for unstaffed fitness facilities that allow patrons 24/7 access, 
fitness programming, and equipment.
    Through a partnership with the Armed Services YMCA [Young Men's 
Christian Association], more than 105,600 fitness memberships have been 
provided to servicemembers and families since the program's inception 
in 2008. This includes 40,371 individual and 65,269 family memberships, 
as well as support for approximately 142,325 military children. 
Eligible participants enjoy free YMCA memberships, private fitness 
memberships, and respite childcare at approximately 1,574 YMCAs and 
1,802 private fitness centers across the U.S.
    Library activities support readiness and the military mission, 
professional military and technical education and training, personal 
and technical skill development of members of the military community, 
quality of life, voluntary education and lifelong learning, transition 
and career assistance, relocation assistance, and leisure needs of the 
military community. Updated library program standards focus on key 
areas such as staffing, library operations, customer programs and 
services, technology infrastructure, and facilities.
    Approximately 20 library online databases provided through Military 
OneSource and DOD service portals support DOD life-long learning, 
affording easy access to personal financial management and transition 
assistance information, professional skills reading, and a variety of 
family and child and youth programs. These databases drew approximately 
48 million users in fiscal year 2016. In the same year, more than 
227,000 tutoring and online skills sessions were provided to DOD 
dependent children through an online 24/7 live homework support 
network.
    The 2016 summer reading program, entitled ``Read for the Win,'' was 
hosted at 215 DOD libraries around the world, and boasted 38 million 
minutes (more than 72 years) of reading time by children of all ages.
    The MWR library program also provides library support to 
servicemembers in deployed environments. Approximately 30 locations 
receive paperback book kits, and approximately 130 locations receive 
mp3 audiobook kits. These kits contain best seller titles, as well as 
books on military history, leadership, and spiritual topics.
    The Department conducted the third military-wide survey to assess 
customer satisfaction with MWR programs in 2014. Approximately 22,298 
Active Duty servicemembers participated, rating customer service, 
operational hours, facility condition, and quality of service.
    The survey showed that unit participation in MWR programs has a 
positive effect on readiness, as well as retention and unit cohesion. 
The readiness score increased by one point from the previous survey in 
2011. Retention intentions showed no change from its positive showing 
in the 2011 survey, but unit cohesion increased by two points. The 
Customer Satisfaction Index is an important tool that helps leaders to 
rebalance resources within MWR programs to align better with the most 
critical challenges and priorities. Data collection for the 2016 DOD 
MWR Customer Satisfaction Survey closed in January 2017, and analysis 
of its findings is anticipated in the summer of 2017.
                   nonappropriated fund construction
    The DOD Commissary Surcharge, Nonappropriated Fund (NAF), and 
Privately Financed Construction Program supports a portfolio of 
activities offered at installations based on the needs of Active Duty 
servicemembers and their families, as well as other authorized patrons 
who comprise the military community at each location. Whether it is a 
golf club house, family camp, youth center, or an outdoor recreation 
facility, these projects help servicemembers and their families cope 
with the stresses of military life and afford opportunities to de-
compress through participation in recreational, social, or cultural 
programs and services based on their interests.
    Many of these projects also support servicemembers by generating 
revenue that helps offset the cost of other MWR programs that are not 
self-sustaining, such as skills development or base-wide picnics. NAF 
construction projects are important to maintaining the viability of 
these programs.
       appropriated fund support to mwr category a and b programs
    The continued vitality of MWR programs depends on sound management, 
meeting command and customer needs, generating a predictable stream of 
NAF revenue, and critical appropriated fund (APF) support for 
authorized activities.
    In fiscal year 2015, APF funding for MWR programs was $1.66 billion 
for direct baseline support, with $800 million for MWR activities and 
$860 million for child and youth programs. Funding in fiscal year 2015 
decreased by $254 million from fiscal year 2014. Funding results for 
fiscal year 2016 will not be available until March 2017. The military 
services anticipate further reductions to APF based on current trends.
    APF support to MWR programs was not in full compliance with DOD 
funding policy in fiscal year 2015. Category A activities, which 
include mission-sustaining programs such as physical fitness, 
libraries, and single servicemember programs, are required to be funded 
entirely with appropriations. The Department sets a minimum standard 
for Category A activities that require at least 85 percent of total 
expenses be supported with APF; three of the four Services exceeded 
that 85 percent minimum standard in fiscal year 2015. Category B 
activities include basic community support programs such as child and 
youth development programs, outdoor recreation, crafts, and automotive 
skills. APFs are required to support at least 65 percent of the total 
expense in Category B, but all four of the military services fell below 
the minimum Category B funding standard in fiscal year 2015.
    Most of the decrease in funding is attributed to competing 
priorities within installation services and management. The military 
services mitigated the impact of constrained funding by adjusting hours 
of operation, reducing personnel requirements, and cutting back on the 
number of program offerings. They prioritized and funded the most 
critical services, explored opportunities for partnering, and 
considered alternative methods for delivering programs and services 
where APFs were reduced or no longer available. To sustain the delivery 
of programs to meet customer demand, the military services also 
increased the use of nonappropriated funds, which affects the future 
recapitalization of revenue-generating MWR activities. This is not a 
sustainable APF/NAF funding model and, if future funding continues to 
be constrained, the breadth and availability of MWR programs available 
to servicemembers and their families will continue to decrease. Efforts 
are underway to evaluate the existing model and recommend a viable path 
forward to meet the ever-changing needs of servicemembers and their 
families.
    Our goal is to ensure MWR programs and services remain relevant and 
financially sustainable, particularly in light of changes in the needs, 
attitudes, and lifestyles of servicemembers. We continue to develop 
innovative strategies that will better serve the needs and interests of 
all members of our military community.
                           military onesource
    In recognition of our enduring commitment to supporting 
servicemembers and their families, the Department provides confidential 
help through the Military OneSource and Military and Family Life 
Counseling programs. Military OneSource is both a 24/7/365 call center 
and an interactive website that provides comprehensive information, 
referrals, and assistance on every aspect of military life to Active 
Duty, National Guard and Reserve members, their families, and 
survivors. Services include confidential non-medical counseling, 
financial counseling, and specialty consultations, with more than 
750,000 contacts annually. Masters-level consultants and non-medical 
counselors receive between 30,000 and 40,000 calls each month, and are 
available to provide expert assistance by telephone, online, through 
video, or in face-to-face meetings. Military OneSource also maintains a 
vetted, comprehensive community resource repository that contains 
information used by Military OneSource service providers to assist and 
refer servicemembers and their families.
                         non-medical counseling
    The Military and Family Life Counseling program provides 
confidential in-person, non-medical counseling sessions and briefings, 
both on and off military installations worldwide. Currently, more than 
2,100 Military and Family Life Counselors (MFLCs) are available to 
provide short-term, solution-focused counseling when and where military 
families need it most. Counseling support is available at family 
centers, child and youth programs, schools, youth summer programs, 
embedded within military units, targeted ``surge'' locations for 
emerging issues, and on-demand for up to 3 days at Yellow Ribbon and 
other unit and family oriented events. MFLCs also support DOD's 
Military Caregiver PEER Forum initiative by facilitating virtual and 
in-person forums for military caregivers at more than 70 installations 
worldwide.
                         defense state liaison
    The Department recognizes that many issues impacting the well-being 
of servicemembers and their families are best addressed by state 
governments. Issues encompassing family law, voting, consumer 
protection, health, and education are defined primarily by the states, 
often without having considered the impact on military families. In 
2004, the Under Secretary of Defense for Personnel and Readiness 
established an outreach program (USA 4 Military Families) and the 
Defense State Liaison Office (DSLO) to engage with state policymakers, 
educate them on unintended barriers created by their policies, and 
promote state awareness of other issues important to the well-being of 
servicemembers and their families.
    Annually, DSLO consults with the personnel community throughout DOD 
to develop a list of ten key issues on which it will focus its 
engagements with the states. Initiatives championed by DSLO have 
included the Interstate Compact on Educational Opportunities for 
Military Children, enacted by all 50 states and the District of 
Columbia; credit for military training and experience toward 
professional licenses for separating servicemembers, presently enacted 
in 47 states; license portability (other than for teachers and 
attorneys) for military spouses, enacted in all 50 states; unemployment 
compensation eligibility for military spouses in 47 states; child 
custody protection in 50 states; and veterans' treatment courts in 44 
states. The 2017 list of key issues includes Medicaid waiver 
eligibility for family members with special needs, child abuse and 
neglect identification and reporting, teacher certification portability 
for military spouses, and pro-bono legal representation for military 
families.
                          financial readiness
    The financial readiness of servicemembers and military families 
remains a priority for the Department. Financial readiness is essential 
to sustaining both quality of life and overall operational readiness. 
The less our servicemembers have to worry about the financial wellbeing 
of their families, the more they can focus on achieving the mission. 
Financial setbacks or mismanagement can quickly escalate into major 
financial problems. Through the military services' personal financial 
managers and counselors located at each military installation, as well 
as in-unit financial liaisons, servicemembers and their families have 
access to face-to-face financial counseling and education classes on 
various financial topics to help them set and meet financial goals and 
establish financially-responsible behavior.
    Several recent changes to law and regulation have driven expansion 
of the financial readiness mission. The National Defense Authorization 
Act for Fiscal Year 2016 (NDAA FY16) authorized a new, modernized 
military retirement system, known as the Blended Retirement System 
(BRS). Over 1.7 million servicemembers will be eligible to choose 
whether to remain under the current military retirement system or opt-
in to the new plan when it becomes effective on January 1, 2018, and 
the Department has deployed a robust education strategy to ensure that 
members have the knowledge necessary to make an educated decision that 
meets their personal and professional needs. Training and education for 
these servicemembers will focus on the components of the new BRS and 
how savings and benefits can be maximized under the new system. This 
educational strategy extends to leaders at all levels, financial 
educators and counselors, and family members who are part of any major 
household financial decision. Eligible servicemembers will have all of 
2018 to make their decision and enroll in the BRS, if they so choose. 
After January 1, 2018, the BRS becomes the retirement plan for all new 
military accessions.
    NDAA fiscal year 2016 also expanded financial literacy training by 
identifying several personal and professional events or ``touch 
points'' across the military lifecycle. These distinct events represent 
timeframes when training should be provided to help servicemembers and 
their families understand and respond to commonly associated financial 
implications. To support the existing and expanded programs deployed by 
the Services, the Department has developed an innovative on-line and 
downloadable ``app'' that will host micro-learning modules aligned with 
each lifecycle touch point, intended to respond to the changing 
preference of our servicemembers for short and interactive ``just in 
time'' training. Additionally, the Department has expanded the 
footprint of the personal financial counselor program from 110 to 216 
counselors in order to support additional financial education 
requirements, with plans to expand to 336 counselors in fiscal year 
2017. This program provides the Department with a highly-flexible 
cohort of financial counselors that can respond to the varying needs of 
the Services, and, in particular, address the unique requirements of 
the Reserve components.
    Consumer protection is also an important component of financial 
readiness. In July 2015, the Department amended the Military Lending 
Act (MLA) regulations to expand the definition of ``consumer credit'' 
to be consistent with the Truth in Lending Act. The MLA provides 
specific protections for servicemembers and their families, including 
capping the cost of credit to a 36 percent Military Annual Percentage 
Rate (including finance charges and fees). To ensure compliance, the 
Department relies on the Federal regulatory agencies to enforce 
relevant regulations. For example, the Consumer Financial Protection 
Bureau has recovered more than $120 million on behalf of servicemembers 
and families.
                               conclusion
    The Department will continue to prioritize support for 
servicemembers and their families by providing quality of life and 
military family readiness programs for our most important asset--our 
people. As the needs of servicemembers and their families change for a 
new generation, we continue to strive to adjust and rebalance our 
programs to best serve the military community. We look forward to 
working with this subcommittee and Congress in this effort.

    Senator Tillis. Ms. Raezer?

  STATEMENT OF JOYCE W. RAEZER, EXECUTIVE DIRECTOR, NATIONAL 
                  MILITARY FAMILY ASSOCIATION

    Ms. Raezer. Mr. Chairman, Ranking Member Gillibrand, thank 
you so much for the invitation to the National Military Family 
Association to speak about military family readiness. Our 
statement for the record highlights many of the issues 
important to these families. I am going to touch on a few.
    Nothing is more important, say our military families, to 
their readiness than access to quality health care. I want to 
thank members of this subcommittee, the entire Senate Armed 
Services Committee, and Congress for your dedication last year 
to creating meaningful reforms in the military health system to 
enhance medical readiness, provide the best care for our troops 
in combat, and improve military families' access to care. These 
reforms are needed.
    In our recent survey of 9,000 military spouses, 30 percent 
who use a military hospital reported they rarely or never get 
an acute care appointment within the 24-hour access standard, a 
finding that is reinforced by the Defense Health Agency's own 
transparency data. We urge you to hold DOD accountable for 
meeting both the letter and the spirit of the law you have just 
passed as they implement these reforms.
    Please help ensure ongoing work to improve pediatric care 
and support for special needs families does not get lost in the 
rush to implement both the legislative reforms and the next 
round of TRICARE contracts this year.
    While DOD has made progress in making the Exceptional 
Family Member Program more consistent across the Services, 
military families still need better coordination between the 
relocation, education, health care, and family support elements 
of the program.
    We also urge you to adopt the recommendations of the 
Military Compensation and Retirement Modernization Commission 
and direct DOD to align coverage under the ECHO [Extended Care 
Health Option] program, especially respite care, with State 
Medicaid waiver programs.
    Military spouses face barriers in obtaining an education, 
getting a job, and moving up in a career, all while managing 
the frequent moves, deployments, and other stressors of 
military life. We thank you for questioning the senior enlisted 
advisors on this issue. Military spouses need help funding 
their education, to include loan forgiveness for professions 
such as behavioral health. They need relief from transferring 
multiple professional licenses, employers who value their 
skills, and better access to childcare. Please address the 
continuing childcare shortage by working to ensure that 
installation child development centers are adequately staffed 
and to increase availability of part-time and hourly care and 
more access to the childcare fee assistance program.
    We also ask you to ensure that as the nature of deployments 
continues to evolve and as the Services increase end strength, 
the programs that support military families and keep them both 
physically and financially fit, health care and childcare 
access, and the pillars of military compensation all remain 
strong.
    Military family and servicemember readiness are inexorably 
linked. Military families shudder when they hear their 
servicemember may not have the training and equipment they need 
to do the job. Servicemembers cannot focus on that job if their 
spouse cannot get a job, their sick child cannot get a doctor's 
appointment, or if there is no quality childcare available.
    Families faltering with the demands of military life will 
also be less prepared for transition out of the military. 
Programs to support these families must be responsive, 
consistently funded, and constantly evaluated as the needs of 
our military families evolve with the demands of the mission.
    Thank you for your support of military families.
    [The prepared statement of Ms. Raezer follows:]

     Prepared Statement by the National Military Family Association
    The National Military Family Association (NMFA) is the leading 
nonprofit dedicated to serving the families who stand behind the 
uniform. Since 1969, NMFA has worked to strengthen and protect millions 
of families through its advocacy and programs. We provide spouse 
scholarships, camps for military kids, and retreats for families 
reconnecting after deployment and for the families of the wounded, ill, 
or injured. NMFA serves the families of the currently serving, retired, 
wounded, or fallen members of the Army, Navy, Marine Corps, Air Force, 
Coast Guard, and Commissioned Corps of the USPHS and NOAA.
    Association volunteers in military communities worldwide provide a 
direct link between military families and the Association staff in the 
Nation's capital. These volunteers are our ``eyes and ears,'' bringing 
shared local concerns to national attention.
    The Association does not have or receive federal grants or 
contracts.
    Our website is: www.MilitaryFamily.org.
                joyce wessel raezer, executive director
    Joyce became the Executive Director of the National Military Family 
Association in 2007. In that position, she leads the Association's 
programs and initiatives to meet the needs of the families of the seven 
Uniformed Services and promote improvements in their quality of life. 
She is frequently called on by government officials, other 
organizations, and the press to share her expertise on the issues 
facing military families. She began her work with the Association in 
1995 as a Volunteer in the Government Relations Department and 
subsequently served in various staff positions, including Government 
Relations Director.
    Joyce has represented military families on several committees and 
task forces for offices and agencies of the Department of Defense (DOD) 
and Military Services. Joyce has served on several committees of The 
Military Coalition, an organization of 36 military-related 
associations. She was co-chair of the Coalition's Personnel, 
Compensation, and Commissaries Committee from 2000 to 2007. In 1999 and 
2000, she served on a congressionally-mandated Federal Advisory Panel 
on DOD Health Care Quality Initiatives. From June 1999 to June 2001, 
Joyce served on the first national Board of Directors for the Military 
Child Education Coalition. In 2004, she authored a chapter on 
``Transforming Support to Military Families and Communities'' in a book 
published by the MIT Press, Filling the Ranks: Transforming the U.S. 
Military Personnel System. She has served on the Strategic Board of the 
Department of Defense Millennium Cohort Study Program since 2015.
    In 2006, Joyce received the Gettysburg College Distinguished Alumni 
Award. She was the 1997 recipient of NMFA's Margaret Vinson Hallgren 
Award for her advocacy on behalf of military families. She also 
received the ``Champion for Children'' award from the Military Impacted 
Schools Association in 1998. In 2007, Military Spouse Magazine listed 
her on its Who's Who of Military Spouses. On May 29, 2012, she was 
honored as a Daily Point of Light by the Points of Light Foundation. In 
2014, she received the Community Hero Award from the PenFed Foundation.
    A Maryland native, Joyce earned a B.A. in History from Gettysburg 
College, and a M.A. in History from the University of Virginia. The 
spouse of an Army retiree, she is the mother of two adult children. She 
is a former teacher and served on the Fort Knox Community Schools Board 
of Education from 1993 to 1995.
                           executive summary
    The United States military is the most capable fighting force in 
the world. For more than a decade of war, servicemembers and their 
families never failed to answer the call, steadfastly sacrificing in 
order to protect our Nation. They made these sacrifices trusting that 
our government would provide them with resources to keep them ready. 
Continued national fiscal challenges have left military families 
confused and concerned about whether the programs, resources, and 
benefits contributing to their strength, resilience, and readiness will 
remain available to support them and be flexible enough to address 
emerging needs. The Department of Defense (DOD) must provide the level 
of programs and resources to meet this standard. Sequestration weakens 
its ability to do so. Servicemembers and their families have kept trust 
with America through 16 years of war with multiple deployments and 
separations. Unfortunately, that trust continues to be tested.
We ask Congress:
    As you evaluate proposals submitted by DOD, consider the cumulative 
impact on military families' purchasing power and financial well-being, 
as well as the effects on the morale and readiness of the all-volunteer 
force now and in the future.
    Please:

    <bullet>  Reject budget proposals that threaten military family 
financial well-being as a way to save money for the government.
    <bullet>  Keep military pay commensurate with service and aligned 
with private sector wages.
    <bullet>  Preserve the savings military families receive by 
shopping at the commissary and oppose any reform measures that would 
reduce the value of the benefit.

    We especially ask Congress to end sequestration, which places a 
disproportionate burden on our Nation's military to reduce the deficit.
    We also ask Congress to make improving and sustaining the programs 
and resources necessary to keep military families ready a national 
priority.

    We ask Congress to:

    <bullet>  Provide oversight to ensure DOD and the individual 
Services are supporting families of all components by meeting the 
standards for deployment support, reintegration, financial readiness, 
and family health. Fund appropriately at all levels.
    <bullet>  Ensure adequate funding for military child care programs, 
including child care fee assistance programs. Improve access to 
installation-based child care and increase availability of part-time 
and hourly care.
    <bullet>  Facilitate easier paths to both licensure and employment 
for military spouses and veterans who are in the mental health field 
when they work with our servicemembers and their families. Include 
military spouses who enter the mental health profession in federal 
loan-forgiveness programs.
    <bullet>  Expand servicemember and family access to Military 
OneSource counseling and other assistance to 1 year post-separation.
    <bullet>  Ensure appropriate and timely funding of Impact Aid 
through the Department of Education (DOED).
    <bullet>  Continue to authorize DOD Impact Aid for schools 
educating large numbers of military children and restore full funding 
to Department of Defense Education Activity (DODEA) schools and the 
DODEA Grant Program.
    <bullet>  Bring the Extended Care Health Option (ECHO) benefits on 
par with State Medicaid waiver programs and extend ECHO eligibility for 
1 year following separation.
    <bullet>  Correct inequities in survivor benefits by eliminating 
the Dependency and Indemnity Compensation (DIC) offset to the Survivor 
Benefit Plan (SBP). Make the Special Survivor Indemnity Allowance 
(SSIA) permanent.
    <bullet>  Ease the financial burden and coverage confusion faced by 
Medicare-eligible, medically-retired wounded, ill, and injured 
servicemembers.

    After 16 years of war, we continue to see the impact of repeated 
deployments and separations on our servicemembers and their families. 
We appreciate Congress' recognition of the service and sacrifice of 
these families. Your response through legislation to the ever-changing 
need for support has resulted in programs and policies that have helped 
sustain our families through these difficult times.
    On January 23, 2017, the National Military Family Association 
posted this letter to our incoming Secretary of Defense, James Mattis, 
on behalf of the military families we serve:
                      dear secretary mattis . . .
    The National Military Family Association would like to congratulate 
you on becoming our Nation's 26th Secretary of Defense (SECDEF). We 
realize you have your work cut out for you, so we extend our commitment 
to helping you keep up with the pulse of our military families.
    As you know, military life is something unknown to many Americans. 
Your new role gives you an opportunity to elevate the strengths and the 
challenges of today's servicemembers and their families. You will have 
numerous opportunities to help narrow the military-civilian divide that 
widens as the wars in Iraq and Afghanistan continue to fade from public 
view. Your inspiration will show Americans that their support and 
understanding is critical to the well-being and success of the ones who 
stand on, and behind, our front lines.
    While the nature of military deployments has changed, the frequency 
of those deployments hasn't. Military families still need continuous 
support, no matter what type of deployment they face. Because for 
military families, gone is gone, and they're still ``one man down'' on 
the home front.
    A strong family is essential to an individual servicemember's 
mission readiness. Military families need your commitment to provide 
the necessary support to promote family readiness. We recognize the 
burden of sequestration is heavy--we've seen military families carry 
the weight of unfair and unbalanced budget cuts since sequestration 
began. They'll look to you to ease this hardship. As the voice of 
military families for more than 4 decades, we are eager to share their 
real-life experiences with you. Military family support and services 
should not be casualties of budget battles on Capitol Hill, and we are 
ready to arm you with the information to justify their necessity and 
end sequestration.
    With the launch of a new military retirement system and upcoming 
congressionally-mandated changes to military health care, it is urgent 
that you fill vacant senior leadership positions within the Department 
of Defense with the best quality people as quickly as possible. The 
programs and services that fall under those positions--such as the 
Under Secretary of Defense for Personnel and Readiness, Assistant 
Secretary for Health Affairs, and Deputy Assistant Secretary for 
Military Community and Family Policy-- address the specific `day-to-
day' challenges of our military families. Without the required 
oversight and support these key positions provide, readiness will be 
compromised, and families will be at risk.
    Secretary Mattis, military families are the war-weary backbone of 
our military, and our Association is committed to working with you to 
preserve their resilience. As our military moves towards an enhanced 
state of readiness with ever-changing demands and missions, we pledge 
to stand by you as the trusted voice of our nation's families. We look 
forward to being your ally, because together we're stronger.
    Members of Congress, we ask the same of you.
Pay and Compensation
    We appreciate Congress making the pay raise at Employment Cost 
Index (ECI) a priority in the Fiscal Year 2107 National Defense 
Authorization Act (FY17 NDAA). Congress chose the Employment Cost Index 
(ECI) as the standard for Active Duty pay raises in order to recruit 
and retain the quality of servicemembers needed to sustain the all-
volunteer force and we thank you for meeting that standard this year.
    We believe that Basic Allowance for Housing (BAH) is an essential 
component of military compensation. We oppose any changes that threaten 
to reduce military families' pay.
    We ask Congress to keep military pay commensurate with service and 
aligned with private sector wage increases.
                     military health system reform
    Our Association thanks the Senate Armed Services Committee (SASC) 
Personnel Subcommittee Members and professional staff for their 
extraordinary efforts and dedication to addressing military family 
concerns during the Military Health System (MHS) Reform process. The 
fiscal year 2017 NDAA health care provisions represent a massive 
restructuring of the direct care system as well as significant changes 
to purchased care contracting, and many provisions clearly reflect 
concern for the beneficiary experience. Our Association is hopeful MHS 
reform will eventually enable more military families to consistently 
access the right care at the right time and in the right place as well 
as improve the patient experience within military hospitals and 
clinics.
    NMFA has three objectives to communicate through this statement. We 
seek to:

    <bullet>  Provide an overview of the current state of the MHS 
focused on problems that must be resolved to provide military families 
with an appropriate health care benefit
    <bullet>  Outline our reactions to the fiscal year 2017 NDAA health 
care reform provisions, particularly as they relate to the problems 
outlined above
    <bullet>  Identify gaps or MHS problem areas not addressed by the 
fiscal year 2017 NDAA or the upcoming implementation of the T17 
contracts, and suggest possible solutions for future policy changes or 
legislative action

    The quality and value of the military health care benefit should 
reflect the extraordinary demands of military service. MHS care should 
be on par with services provided by top performing civilian health 
systems. Military treatment facility (MTF) policies, procedures and 
customer service should have a beneficiary focus designed to facilitate 
access to care. TRICARE networks and reimbursement policies should be 
on par with high quality commercial plans. In short, military health 
care should be an unmitigated benefit to families--not another 
sacrifice to add to the many that military families already make in 
support of their servicemembers. We truly appreciate your efforts on 
MHS reform that will get us closer to that goal.
            mhs reform vision: are we all on the same page?
    The MHS is unique with its dual readiness and benefit provision 
missions. Its readiness mission must achieve both a medically ready 
fighting force that is healthy and capable of deploying as needed and a 
ready medical provider force capable of delivering health and combat-
casualty care for servicemembers in operational environments. The MHS 
benefit provision mission delivers the earned health care benefit to 
family members, retirees, and survivors. The two missions intersect 
when military medical personnel provide care to family members and 
retirees in MTFs, honing their medical skills in the process.
    As we interpret the fiscal year 2017 NDAA MHS reforms we see 
congressional intent to ``right size'' the direct care component, 
retaining only beneficiary care that directly contributes to the 
readiness mission and outsourcing the rest to civilian providers via 
the TRICARE program. We also see a variety of related provisions 
intended to beef up the purchased care component. These changes should 
help ensure access for beneficiaries who must transition their 
healthcare to the private sector as a result of right sizing. They 
should also allow families to access care with high performing civilian 
providers and health care systems. Other provisions are intended to 
improve integration between the purchased and direct care components. 
Still others focus on purchased care cost savings to DOD.
    Our Association supports this vision for MHS reform. Over the past 
15 years when MTF capacity contracted due to medical provider 
deployments, many families were moved to civilian providers in the 
community. Our families were generally very satisfied with quality and 
access to care with their community providers. In fact, we only heard 
complaints about this policy when families were forced to move back 
into the MTFs. With the emphasis on improved access to high quality 
purchased care running throughout the reform provisions, we 
enthusiastically support this vision of MHS reform.
    Under our interpretation of the congressional intent for MHS 
reform, we have four main concerns regarding the reform process:

    <bullet>  In meetings with DHA, the managed care support 
contractors and other military and veteran service organizations (MSO/
VSOs), we have noted that MHS reform is not being discussed in terms of 
a vision or overarching strategy. Out of necessity, Congress presented 
the reform in a series of complex NDAA provisions that direct specific 
changes with no opportunity to explain linkages or outline the 
strategic vision for the MHS. Extraneous provisions (e.g., hearing 
aids, medical foods) that are valued and appreciated but not directly 
related to MHS reform also detract from the big picture. We believe the 
lack of shared strategic vision presents an obstacle to effective 
implementation of MHS reform.
    <bullet>  As beneficiaries are moved from direct to purchased care, 
problems with TRICARE's reimbursement policies will become more 
prevalent as they impact more families. We fear this will be a 
particular problem for families with young children, given TRICARE's 
historic pediatric reimbursement issues, caused by an inappropriate 
alignment with Medicare reimbursements. Reform measures did not address 
the challenges faced by patients needing care involving emerging 
treatments and technologies. If the intent is to move a significant 
portion of military family care into the purchased component, Congress 
must soon focus on fixing TRICARE reimbursement issues so they don't 
impede beneficiary access to appropriate care.
    <bullet>  We fear DOD will determine only minimal right-sizing is 
necessary and retain most military family care in the MTFs. If this 
happens, we believe future MHS reforms will be necessary to make 
additional tangible improvements to access, quality of care, and the 
patient experience within MTFs.
    <bullet>  Massive change in a health system where the primary 
focus--the reason for being--is medical readiness and combat casualty 
care, will lead to reduced focus on some beneficiary issues. What will 
happen, for instance, to progress on pediatric care problems while MTF 
management responsibilities are being shifted to the DHA and managed 
care support contracts are being restructured and a Joint Trauma Center 
is being developed? We believe that even advances on access to care may 
be at risk as the MHS turns its attention to implementing fiscal year 
2017 NDAA health care reforms versus improving day-to-day operations.

    Our concerns about day-to-day operations and non-reform related 
improvements are exacerbated by the timing of the new TRICARE managed 
care support contracts (T17 contracts). With T17 contracts slated to go 
live in October 2017, DHA will be simultaneously implementing several 
significant organizational changes as well as managing T17 
implementation that includes a Managed Care Support Contractor (MCSC) 
change for approximately two-thirds of CONUS [continental United 
States] beneficiaries. Additionally, MHS reform will necessitate 
modifications of the T17 contracts even before they are implemented. 
From a military family perspective, the current timing means TRICARE 
beneficiaries will experience a MCSC change in October 2017 and then 
almost immediately face the TRICARE program restructure in January 
2018. We believe it would be beneficial to delay T17 implementation 
until January 2018 to align with the introduction of TRICARE Select. 
Delaying T17 implementation will create one major communication event 
regarding TRICARE changes versus staggering multiple messages across 
several months.
    In an MSO/VSO meeting with a senior DOD official late last year, we 
recommended a formal process for MSOs and VSOs to provide feedback on 
T17 implementation and the MHS reform process. DHA has embraced this 
suggestion and developed a construct for regularly gathering 
Association input. We hope this approach will be institutionalized so 
it continues even as leadership in the DHA and the office of the 
Assistant Secretary of Defense for Health Affairs turns over. While we 
believe this partnership will ensure beneficiary perspectives are 
included in MHS reform implementation, we remain concerned about 
beneficiary problems with the MHS that are not addressed by T17 or the 
fiscal year 2017 NDAA. What happens to issues such as concurrent 
hospice for terminally ill military kids, diagnostic genetic testing 
coverage denials, and Extended Care Health Option improvements to bring 
the program in line with state Medicaid waiver services? These issues 
cannot be put on the back burner for the next few years as focus is 
shifted to MHS reform.
                tricare select and other tricare reform
    Before we move into an overview of MHS deficiencies and how the 
fiscal year 2017 NDAA health care provisions address them, we'd like to 
provide our perspectives on the TRICARE reform plan outlined in section 
701 since this TRICARE program restructure is not directly linked to 
identified beneficiary problems.
    As we review section 701, it is our understanding TRICARE reform 
outlined in that section does the following:

    <bullet>  Eliminates the current TRICARE self-managed options--
TRICARE Standard (non-network) and TRICARE Extra (network)--and 
replaces them with a self-managed preferred provider option called 
TRICARE Select that, like TRICARE Standard, includes the option of 
using non-network providers for slightly higher copays/cost shares
    <bullet>  Establishes an enrollment requirement for TRICARE Select
    <bullet>  Creates two tiers of beneficiaries for the purpose of 
out-of-pocket costs under TRICARE Select:
       <bullet>  NEW Active Duty Family Members (ADFMs) and future NEW 
Retirees = those who enter service on or after January 1, 2018
       <bullet>  grandfathered ADFMs and Retirees = those who entered 
service before January 1, 2018
    <bullet>  Maintains current out-of-pocket costs for grandfathered 
beneficiaries except for a new TRICARE Select enrollment fee and 
catastrophic cap increase for grandfathered retirees that will go into 
effect in 2020 contingent on TRICARE Select performance improvements 
relative to TRICARE Standard/Extra
    <bullet>  Changes and/or increases out-of-pocket costs for NEW 
beneficiaries in a variety of ways:
       <bullet>  Increases the catastrophic cap for NEW retirees
       <bullet>  Converts many health care encounter fees from cost 
shares to fixed dollar copays for all NEW beneficiaries
       <bullet>  Applies an annual index to all fixed dollar fees based 
on the military retiree cost of living adjustment (COLA) for all NEW 
beneficiaries
       <bullet>  Increases the TRICARE Prime enrollment fee for NEW 
future retirees
       <bullet>  Establishes a new TRICARE Select enrollment fee for 
NEW future retirees
    <bullet>  Eliminates the preauthorization requirement for TRICARE 
Prime specialty care referrals

    We are disappointed in the choice to create a two tier system based 
on when someone enters military service because it injects a new level 
of complexity into an already complex system. However, we are 
especially grateful Prime is maintained as a zero out-of-pocket cost 
option for ADFMs and that costs for NEW ADFMs remain largely unchanged 
for TRICARE Select (the only increase is an index applied to fixed 
dollar fees including the deductible and catastrophic cap). We 
appreciate that Congress chose to link moderate grandfathered retiree 
cost increases to improved TRICARE Select performance/value.
    Our Association believes that NEW retiree out-of-pocket cost 
adjustments are reasonable and future increases will be predictable and 
linked to retiree COLA. Relatively low out-of-pocket costs reflect the 
value of service while catastrophic caps protect families from 
potential financial hardship related to medical expenses. Given the 
extraordinary risks assumed during the course of military service, we 
believe it is appropriate to protect servicemembers, retirees, their 
families, and survivors from financial risk wherever possible.
    We welcome the attempt to streamline access to specialty care by 
eliminating the specialty care preauthorization requirement. It will be 
important to educate families that without preauthorization there is no 
guarantee TRICARE will pay for specialty care even if referred/
recommended by their Primary Care Manager (PCM.)
    The fiscal year 2017 NDAA mandates 85 percent network coverage of 
TRICARE beneficiaries. However, we and others have raised concerns 
about how robust TRICARE Select's PPO [Preferred Provider Organization] 
network will be across the country and how much beneficiary choice it 
will provide. The promise of a PPO network with better access and cost 
will create an expectation among beneficiaries who must now pay an 
enrollment fee to access their basic TRICARE benefit. What happens if 
DOD and its TRICARE contractors cannot deliver on the promise? What 
costs will TRICARE beneficiaries not residing in a location with a PPO 
network incur for the enrollment fee they now must pay? How will the 
new TRICARE Select option work for beneficiaries who currently use 
TRICARE Standard as second-payer to their employer-sponsored plans?
    Why are these questions important? Military families must be able 
to understand TRICARE Select and what the change means in how they 
access and pay for health care. Given the recent cuts to the Basic 
Allowance for Housing (BAH), reductions in family support programs, and 
continued threats to the commissary benefit, military families are 
poised to perceive TRICARE Select as a diminished benefit relative to 
TRICARE Standard/Extra. It is critical that DHA, the managed care 
support contractors, and military associations can clearly communicate 
about TRICARE Select.
    We thank Congress for including a TRICARE Select enrollment grace 
period to ensure beneficiaries maintain coverage during the transition 
period. The unprecedented Select enrollment requirement demands an 
effective communications plan and we appreciate Congressional oversight 
via the DOD Enrollment Plan report requirement.
    Oversight and accountability are crucial during reform of this 
magnitude so we thank Congress for including the DOD and GAO report 
requirements to monitor access to purchased care.
    While we are generally supportive of TRICARE Select and the other 
TRICARE reform measures, that support is dependent on the assumption 
that access to care is enhanced and the adjusted fees and COLA-based 
index will put an end to the sporadic and unpredictable health care fee 
increases that we have experienced over the past several years. A well-
defined and predictable health care benefit is critical in keeping the 
faith with the all-volunteer force.
 mhs beneficiary care problems and mhs reform plans: how well do they 
                               match up?
    In the past, our testimony has outlined problems military families 
encounter with the direct and purchased care systems. In this document, 
we seek to recap those issues and identify which will be addressed with 
fiscal year 2017 NDAA health care provisions, where gaps still exist, 
and potential solutions for unresolved issues.
    First, we would like to thank Congress for Sec. 704, which removes 
the referral and preauthorization requirements for TRICARE Prime 
beneficiaries seeking urgent care. This is an enormous improvement in 
acute care access and allows military families to access care in an 
appropriate setting, not the ER [emergency room]. Removing the referral 
requirement simplifies the policy so it is easily understood and 
implemented by families, providers and managed care support 
contractors. This provision will have such a positive impact on 
military families seeking care for sick or injured family members when 
their PCM is unavailable or when they are traveling or PCSing.
PROBLEM: MTF Acute Appointment Shortages
    For years, military families have asked for better access to MTF 
acute care appointments for medical problems such as ear infections and 
strep throat--conditions that aren't emergencies, but must be treated 
promptly. The inability to make sick appointments at the MTF continues 
to be one of the main complaints we hear:

    <bullet>  Multiple data sources validate the anecdotal information 
we receive from our volunteers and military families. From October 2016 
through January 2017, our Association fielded a survey of 9,566 
military spouses. Thirty percent of respondents who use an MTF for 
primary care indicated they rarely or never get an acute appointment 
within the 24 hour access standard.
    <bullet>  This problem is further substantiated using DHA 
transparency data. From April through August 2016, the number of MTFs 
that failed to meet the 24 hour access standard for acute care 
appointments ranged from 48 percent to 68 percent. While we recognize 
this timeframe covers PCS season--when both the beneficiary population 
and uniformed MTF staff may be in flux leading to scheduling 
challenges--the number of noncompliant MTFs still seems unacceptably 
high.

    We appreciate that Section 704: Access to Urgent and Primary Care 
Under TRICARE Program directs DOD to determine MTF primary care clinic 
hours based on the MTF's requirement to meet TRICARE Prime access 
standards and primary care utilization patterns and authorizes DOD to 
expand clinic hours if necessary. However, we would have liked to see 
DOD and/or GAO reporting requirements to ensure transparency and 
accountability in the implementation of this provision, which may 
require shifting or adding staff.
    Given that MTF acute appointment access remains the most prevalent 
complaint regarding direct care, and is substantiated by both survey 
and DHA transparency data, we believe more must be done to ensure 
improvements. Most importantly, DOD must monitor acute appointment 
access using meaningful metrics that identify underperforming MTFs. 
This information should be used to understand obstacles to meeting 
access standards and develop solutions focused on addressing those 
obstacles. If acute access problems persist, we ask that you consider 
future legislation mandating enhanced reporting and data-driven process 
improvements on the acute care access issue.
    We appreciate DHA has included representatives from the Services' 
Surgeons General offices in MSO/VSO Working Group and Executive 
sessions to brief on access to care initiatives. As the MTF management 
structure evolves, we would like to see a point person(s) responsible 
for MTF beneficiary access continue to participate in those meetings 
and be held accountable for MTF performance against published access 
standards.
PROBLEM: MTF Routine Care Scheduling Challenges
    Families report delays in scheduling preventative, routine, and 
follow up care.

    <bullet>  In NMFA's military spouse survey, 30 percent of MTF users 
said they rarely or never get a routine appointment within the 7 day 
access standard.
    <bullet>  DHA's transparency data indicates that 26-42 percent of 
MTFs failed to meet the 7 day access standard for routine appointments 
during the April-August 2016 timeframe.
    <bullet>  Please note MTF access problems are not exclusive to 
family members. We regularly hear about servicemembers who are unable 
to get timely appointments. Failure to provide timely care to 
servicemembers is a readiness issue.

    Not only are some families unable to schedule routine appointments 
within a reasonable time frame, but the process for scheduling is 
cumbersome. Families are frequently required to call the appointment 
line multiple times in the hopes of finding an opening within the 
currently available appointment book and are often confronted with an 
entirely different set of rules from one installation to the next.
    We appreciate Sec. 709: Standardized System for Scheduling Medical 
Appointments at MTFs. A standardized appointment scheduling system, 
together with the first call resolution mandate, should alleviate many 
challenges families currently face when making MTF appointments. 
Assuming the online option is user-friendly, it should appeal to 
military families accustomed to conducting much of their family 
business online and via mobile apps.
    Thank you for requiring a section 709 Implementation Plan from DOD. 
As you review the plan, please consider the following:

    <bullet>  The online appointment system should be easy to access. 
Unless there are major improvements to TRICARE Online, it should not be 
part of the new system.
    <bullet>  The online system should include the ability to not only 
schedule an appointment, but to change or cancel an appointment as 
well.
    <bullet>  The system should include an ability to track first call 
resolution rates.
    <bullet>  Both the online and manual systems should allow families 
the option to schedule acute appointments with providers other than 
their PCM, or even outside of their Patient Centered Medical Home 
(PCMH) if there is no availability in the PCMH.

PROBLEM: Direct Care System Variable Quality and Safety
    We remain concerned about the mixed results found during DOD's 2014 
MHS review, which identified considerable variation across the system 
for both specific clinical quality measures and for individual MTFs. 
Issues identified in the review are consistent with feedback we 
continue to hear from military families. Some are very pleased with 
their MTF care, while others relay stories that clearly demonstrate 
quality and safety issues.

        ``I had a visible lump on my knee that developed over several 
        years following a trauma. It was causing pain to the point I 
        needed crutches at times and my PCM sent me for ultrasound and 
        an ortho referral. Ortho ordered an MRI which they claimed to 
        show nothing abnormal. After seeing the head of ortho at the 
        military hospital and being accused of being a drug seeker, 
        despite the visible lump about the size of an egg on my knee, I 
        finally got a referral to a civilian specialist who took one 
        look at the MRI and said, there's a ball of scar tissue sitting 
        on your nerve, we can book you for surgery in 2 weeks.''--
        Military Spouse

        ``Over a year ago, I went to see my doctor at the MTF to 
        discuss some symptoms I'd been having. He dismissed my concerns 
        and I subsequently went back at least 5 times for the same 
        issue. They never took it seriously, even when I told them I 
        was having trouble swallowing solid food. I finally decided to 
        switch to TRICARE Standard so I could see a civilian 
        specialist. He listened to my symptoms and immediately 
        scheduled further testing . . . for the next day. During that 
        test, the civilian specialist discovered a problem that needed 
        surgery very quickly. This diagnosis explains the symptoms I 
        had been complaining about to the doctors at the MTF and 
        military emergency rooms for the past year. I believe I could 
        have (and should have) had this surgery a year ago, if one of 
        the PCMs I saw at the MTF (because I never did see the same PCM 
        twice) had given me the referral I asked for again and again. 
        Unfortunately, because my condition had gotten so much worse, 
        they were unable to correct it with laparoscopic surgery and 
        had to do a much more invasive surgery. As a result, my 
        recovery has been much lengthier and more difficult.''--Air 
        Force Spouse

    Another finding of particular concern involved follow up on 
sentinel events. The MHS review found the execution and content of root 
cause analysis (RCA) to understand the possible causes of adverse 
health events related to care (sentinel events) remains highly variable 
across the Services and MTFs. In addition, there has been a failure to 
routinely follow up on reported RCAs to ensure systemic issues 
identified were corrected. \1\
---------------------------------------------------------------------------
    \1\ Military Health System Review Final Report to the Secretary of 
Defense--August, 2014
---------------------------------------------------------------------------
    Section 702: Reform of the Administration of the DHA and MTFs 
requires a DHA professional staff, including a Deputy Assistant 
Director for Medical Affairs with responsibility for clinical quality, 
patient safety, and the patient experience. We trust this position will 
be held accountable for improved quality of beneficiary care. It is 
also critical that DHA's High Reliability Organization initiative, 
established in response to findings of variable quality across MTFs in 
the 2014 MHS review, be continued.
    We appreciate that Section 726: Program to Eliminate Variability in 
Health Outcomes & Improve Quality of Health Care Services Delivered in 
MTFs establishes a program of clinical practice guidelines for certain 
diseases and conditions and hope this enhances quality of care for 
beneficiaries with chronic health conditions.
    We also thank you for Section 727: Adoption of Core Quality 
Performance Metrics. However, we feel this is only a partial solution 
since it assumes there is an existing culture of data-driven process 
improvements within the direct care component. Simply requiring 
performance metrics does not ensure they will be appropriately applied 
to enhance quality of care.
    We appreciate that Section 751: Comptroller General Reports on 
Health Care Delivery and Waste in the MHS requires a GAO report to 
assess the delivery of health care within the MHS (including processes 
for reporting and resolving adverse medical events). If this report 
indicates the MHS has not fixed the highly variable RCA sentinel event 
reporting and follow up uncovered in the 2014 MHS review, it will be 
imperative for Congress to mandate corrective action.
    Our Association is concerned fiscal year 2017 NDAA health care 
reform provisions don't go far enough to address the primary care 
quality problems reported by our military families. While we don't 
believe Congress should prescribe medical treatment protocol, we do 
believe it is important for Congress to require and monitor the 
implementation of data-driven process improvements that are the 
cornerstone of modern high performing health systems.
    Once the fiscal year 2017 NDAA quality metrics are adopted, it will 
be critical to ensure they are used to identify beneficiary care 
problem areas and develop plans for corrective action as necessary. We 
would like greater transparency not only with performance data, but how 
it is being leveraged to improve military family care. For instance, 
our analysis of DHA transparency data shows the direct care system is 
underperforming on a HEDIS pediatric primary care measure: Pharyngitis 
Pain/Pediatric Strep Testing Rates. According to HEDIS Outpatient 
Quality Measures, pharyngitis (inflammation of the throat) is the only 
condition among upper respiratory infections where antibiotic use may 
be appropriate. U.S. medical leaders recommend only children diagnosed 
with strep be treated with antibiotics. The HEDIS measure indicates 
what percentage of children prescribed an antibiotic received a strep 
test. The average for health plans nationwide is 85 percent. 
Approximately 3/4 of MTFs fall below the national average in terms of 
strep testing to verify appropriate antibiotic use. More than 1/3 of 
MTFs are at least 10 points below the national average. Data is only 
beneficial to military families if used to direct improvements at MTFs 
such as Bayne-Jones Army Community Hospital at Fort Polk or the 1st 
Special Operations Medical Group at Hurlburt Field where only 60 
percent of military kids prescribed antibiotics are tested for strep.
    We also suggest DHA develop a process to conduct ``exit 
interviews'' for Active Duty families who switch from TRICARE Prime to 
TRICARE Select. Given the new TRICARE Select enrollment requirement, it 
should be feasible for DHA to identify and contact families who make 
the switch. We believe there is great opportunity for identifying 
direct care problem areas by talking to families who elect to leave 
TRICARE Prime's zero out-of-pocket cost option for TRICARE Select's 
deductible and copays. Identifying problems and taking corrective 
action will help not only military families, but it will contribute to 
DHA's goal of retaining family member care within the direct component.
PROBLEM: Policies and Patient Experience Vary Across MTFs
    Inconsistent Policy Implementation at the MTF Level: MTF commanders 
currently have a great deal of authority when it comes to setting 
policies at their facilities. While this is understandable given the 
complexity of the MHS and the unique conditions of each location, the 
existence of policies and procedures that vary from one MTF to another 
can make it even harder for mobile military families to effectively 
navigate the system.
    Poor/Inconsistent Communication: Related to inconsistent policy 
implementation is the varying quality and extent of communication at 
MTFs. For example, DOD announced the Urgent Care Pilot in January 2016 
and started it on May 23, 2016. In January 2017, a family member 
visited the Dumfries Health Center (a clinic of the Fort Belvoir 
Community Hospital system) and saw this message on the electronic board 
stating that Prime beneficiaries must obtain a referral for urgent care 
services or face Point of Service charges.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Dumfries and Fairfax clinic websites, accessible through the 
Fort Belvoir Community Hospital site, have a link to the TRICARE 
website about the Urgent Care Pilot in small print at the bottom of 
their websites. While small, this link is more accessible than anything 
to be found on the main Fort Belvoir Community Hospital page. \2\
---------------------------------------------------------------------------
    \2\ Fort Belvoir Community Hospital: http://www.fbch.capmed.mil/
SitePages/Home.aspx; Fairfax Health Center: http://www.fbch.capmed.mil/
About/fairfax.aspx; Dumfries Health Center: http://www.fbch.capmed.mil/
about/dumfries.aspx (accessed 2/11/17)
---------------------------------------------------------------------------
    Contrast the information provided by Fort Belvoir and its satellite 
facilities with that provided by the Guthrie Clinic at Fort Drum, NY. 
On the Guthrie Clinic home page, the Urgent Care Pilot is highlighted 
under Announcements. Guthrie has also been promoting the Urgent Care 
Pilot rules on its Facebook feed. \3\ MTF leaders must ensure benefit, 
policy, or procedural changes are communicated effectively and in a 
timely manner. They should not add to the misinformation already 
conveyed by some non-DOD sources.
---------------------------------------------------------------------------
    \3\ Fort Drum MEDDAC, http://www.drum.amedd.army.mil/SitePages/
Home.aspx (accessed 2/11/17)
---------------------------------------------------------------------------
    Families often state they cannot count on getting accurate 
information from their MTFs. They also complain of difficulties in 
obtaining lab results, errors in medical records, and providers' 
failure to return phone calls.
    Lagging Customer Service Innovations: DOD has been slow to adopt 
customer service innovations common in civilian health plans, such as 
the Nurse Advice Line (NAL) and Secure Messaging. New program rollouts 
often lack patient focus. While DOD has analyzed the NAL's business 
impact, it has not to our knowledge surveyed users to ensure the 
service meets beneficiary needs. Although Secure Messaging aligns with 
young military families' preferred communication methods, adoption 
rates at MTFs have lagged. We suspect this is linked to implementation 
issues such as the wide variety of names for the system (Relay Health, 
MiConnect, Medical Homeport Online, Army Medicine Secure Messaging and 
simply Secure Messaging) and inconsistent MTF, clinic, and provider 
adoption.
    We appreciate that Section 702: Reform of the Administration of the 
DHA and MTFs requires DHA to assume responsibility for administration 
of all MTFs. Currently, DHA sets policy but MTFs have no accountability 
to the Agency for implementation of that policy. Consolidating MTF 
administration under DHA should allow the Agency to enforce policy and 
ensure consistent communication. In theory. However, the Fort Belvoir 
Community Hospital and its clinics--including the Dumfries clinic that 
displayed inaccurate information about the Urgent Care Pilot 7 months 
after it launched--are part of the Defense Health Agency's National 
Capital Region Medical Directorate. While we are concerned about 
Dumfries patients getting inaccurate information regarding the Urgent 
Care Pilot, we are even more concerned that this incident indicates a 
lack of expertise or motivation at all levels of the chain of command 
to ensure families get the right information. To us, it suggests that 
we will have to go beyond simply consolidating all MTFs under DHA to 
ensure accurate and consistent policy and information dissemination.
    We thank you for including Section 718: Enhancement of Use of 
Telehealth Services in MHS directing DHA to incorporate telehealth into 
both the direct and purchased care components. By developing telehealth 
services to improve access to care and monitor individual health 
outcomes, DOD can provide health care industry leadership in 
telehealth. We look forward to seeing the benefits telehealth can 
provide to mobile families experiencing frequent geographic 
separations.
    We're willing to give the new DHA/MTF management structure a 
chance. However, if policy variations and inconsistent communications 
persist after a reasonable start up period, we recommend that Congress 
require a management implementation plan focused on beneficiary facing 
issues and follow on monitoring similar to that required for Section 
703: Military Medical Treatment Facilities.
PROBLEM: Cumbersome Referral and Authorization Process:
    The referrals and authorizations needed to obtain network specialty 
care can result in delays and disruptions to care. These issues become 
more pronounced during PCS moves. Military families recognize 
continuity of medical care is one of the sacrifices they must make as a 
result of the highly mobile military lifestyle. Unfortunately, many 
TRICARE and MTF policies hinder rather than facilitate the smooth 
transition of care during PCS moves. For instance, specialty care 
requires a new referral and authorization in the new location while 
patients are often required to reconfirm an existing diagnosis before 
seeking treatment.

        ``With my second, I had to establish care with a new PCM after 
        a move at 35 weeks pregnant to get a referral to an OB. The 
        provider (off-post) laughed her head off at my hugely round 
        self when I explained I needed a referral. She sent it through 
        marked urgent and Tricare denied the referral because she 
        didn't have a documented pregnancy test in the billing codes. 
        Another visit for in-office lab work and I got my referral, 
        finally!'' -Military Spouse

    Section 701: TRICARE Select and Other TRICARE Reform eliminates the 
specialty care preauthorization requirement for outpatient care. We 
welcome this attempt to streamline access to specialty care, but it is 
only a partial solution. As the preauthorization requirement is lifted, 
it will be important to educate families on the new policy so they 
understand that without preauthorization they face some risk that 
TRICARE may deny coverage for certain care and services. Since some of 
TRICARE's coverage policies are outside the civilian plan norm (e.g. 
denying coverage for many diagnostic genetic tests covered by 
commercial insurance and other government payers, ``inpatient only' 
rules at odds with pediatric standards of care), families cannot count 
on their provider offices to know when a particular service is at risk 
of being denied.
    The TRICARE T17 contracts include an electronic referral processing 
system. It is our understanding this system will make it feasible to 
transfer specialty referrals electronically from one geographic 
location to the next, even across TRICARE managed care support 
contractor regions. However, DHA seems reluctant to commit to utilizing 
this capability to streamline the transition of specialty care. 
Removing the requirement to get a new specialty care referral following 
a PCS, and allowing the existing referral to transfer electronically to 
the new duty station, would greatly help military families transition 
care in a timely fashion.
PROBLEM: Areas with TRICARE Network Inadequacy
    In some locations, families complain of a shortage of network 
providers in the network and that many of those listed in TRICARE 
contractors' network lists are no longer accepting new TRICARE 
patients. We fear this problem will become worse as TRICARE 
reimbursement rates become less competitive relative to other payers.
    We thank Congress for the multiple provisions that attempt to 
address this problem. The provisions focused on growing and improving 
the TRICARE network will also allow beneficiary care to shift from the 
direct to the purchased care component as DOD implements Section 725: 
Adjustment of Medical Services, Personnel Authorized Strengths, and 
Infrastructure in MHS to Maintain Readiness and Core Competencies of 
Health Care Providers. This provision directs DOD to ``right-size'' the 
MHS limiting MTF care, medical personnel end strengths, and MHS 
infrastructure to only that required for critical wartime medical 
readiness skills and servicemember medical readiness. It also requires 
that beneficiaries affected by these measures have the ability to 
receive care through the purchased care networks.

    <bullet>  Section 705: Value-Based Purchasing and Acquisition of 
Managed Care Support Contracts for the TRICARE Program requires DHA to 
transfer contracting responsibility for MCSCs to the Office of the 
Under Secretary of Defense Acquisition, Technology & Logistics. We hope 
this provision will enable DOD to improve TRICARE contract 
accountability to enhance access and quality of care as well as the 
health care experience.
    <bullet>  Section 705 also requires DOD to develop value-based 
incentive programs. We appreciate this provision says DOD must maintain 
assurance that beneficiaries will have timely access to care and not 
incur any additional costs.
    <bullet>  We appreciate that Section 706: Establishment of High 
Performance Military-Civilian Integrated Health Delivery Systems seeks 
to improve access to high quality care via partnerships with civilian 
providers. We believe aspects of this model have been successfully 
employed at Fort Drum, NY, and look for implementation of this 
provision to take military-civilian medical partnerships to the next 
level for both beneficiary care and medical provider readiness training 
opportunities.

PROBLEM: TRICARE Slow to Cover Emerging Technologies and Treatment 
        Protocols
    Health care is in a period of rapid change and innovation. Since 
TRICARE coverage policies are governed by statute, they are difficult 
to update to cover new technologies. As a result, TRICARE beneficiary 
care lags that of civilians. Military families who receive care at MTFs 
have better access to health care innovations, since the rules 
governing MTFs are less stringent than TRICARE's regulations for 
purchased care. Unfortunately, we don't see any provisions in the 
fiscal year 2017 NDAA that address this issue.
    We appreciate Congress gave DOD the authority to cover emerging 
technologies in the fiscal year 2015 NDAA. However, DOD seems reluctant 
to exert that authority. In the case of Lab Developed Tests (LDTs,) 
TRICARE's demonstration project still covers only a fraction of tests 
covered under commercial plans, Medicare, and Medicaid. We have heard 
that dozens of military families have faced coverage denials for 
diagnostic genetic tests that are routinely reimbursed by other payers. 
As one physician familiar with TRICARE coverage said:

        ``If DOD wants to insert themselves in the clinical decision 
        making process, they must do it in a clinically relevant 
        timeframe.''

    In other words, taking years to review and evaluate diagnostic 
genetic tests that have widespread acceptance, use, and reimbursement 
in the medical community and commercial insurance plans is 
unacceptable.
    If Congress succeeds in the goal of right-sizing the direct care 
component and shifting significant beneficiary care to the TRICARE 
program, the prevalence of these reimbursement issues will grow 
dramatically. The next iteration of MHS reform must address current 
TRICARE coverage gaps and create a process for the timely resolution of 
future coverage discrepancies.
PROBLEM: TRICARE Customer Service Issues
    The contracting process leads to regular MCSC turnover. These 
changes rarely go smoothly and the result is customer service 
disruptions for military families. In some cases, where referral/
authorization processing was disrupted, it has even affected access to 
care. TRICARE's T17 contracts move to two TRICARE Regions will result 
in a contractor change for approximately two-thirds of TRICARE 
beneficiaries. As mentioned before, we have significant concerns about 
a change of this magnitude being undertaken in conjunction with 
numerous MHS reform initiatives.
    Additionally, the process for resolving TRICARE problems is 
disjointed, ineffective, and unclear to military families. We hear from 
many resourceful military families facing legitimate TRICARE coverage 
and reimbursement problems--they simply do not know where to turn when 
the standard MCSC customer service resources fail to resolve their 
problem. DHA's answer is typically to refer us to the TRICARE Regional 
Office (TRO). This is not a resource that is readily available to 
beneficiaries--most have never even heard of a TRO--and it should not 
be the only resource for resolving complex TRICARE issues. Military 
families should not face experiences such as the following relayed to 
us by a military mom and former Navy nurse after her son's life 
altering injury:

        ``I do think that the cumbersome beyond belief system that we 
        are putting our servicemembers and their families through at 
        the worst time of their lives is within your scope of concern. 
        As individuals, I believe that most of the people involved are 
        kind hearted and sincerely doing their best. As a group, and 
        there are at least two dozen people actively involved on my 
        son's ``team'', it is a broken system. No one in charge or 
        accountable, poor communication, control issues, lack of trust 
        among the constituents, policies that defy common sense...we 
        are completely beaten down. A Naval Academy grad, a retired 
        admiral and a Navy nurse, and we are completely beaten down. 
        Especially the fact that everyone involved says, ``I'm sorry 
        but this is the system.'' I love Navy medicine, but to have to 
        fight every step of the way for what should be readily provided 
        without red tape, delays, and difficulty has been the most 
        disappointing experience of my life.''--Military mom and former 
        Navy nurse

    No fiscal year 2017 NDAA provisions address issues with TRICARE 
customer service. In fact, the implementation of section 702 and the 
assumption by DHA of administrative responsibilities in the MTFs could 
confuse patients receiving MTF care about what entity has the 
responsibility to resolve their concerns.
    TRICARE, the MTFs, and the managed care support contractors must 
develop a better process allowing beneficiaries to escalate issues if 
they cannot be resolved with the typical customer service resources. If 
the TRO is intended to serve this purpose, all beneficiaries and those 
who support them (e.g., case managers, patient advocates) should be 
well-versed in the TRO's function and how to contact the appropriate 
person at the TRO. If significant patient volume is shifted from the 
direct to the purchased care component, customer service issues will 
become more prevalent making it even more important to institute a 
process for resolving problems and ensure adequate customer service 
resources from both the managed care support contractors and the TROs.
             special populations to address with mhs reform
Reserve Component Families
    National Guard and Reserve families are poorly served with their 
current TRICARE options. When activated, their families become eligible 
for TRICARE, but coverage and network providers may not align with 
their civilian plans. This leads to confusion and disruptions in care 
as families switch to providers in the TRICARE network.
    We thank you for Section 748: Assessment of Transition to TRICARE 
Program by Families of Members of Reserve Components Called to Active 
Duty and Elimination of Certain Charges for Such Families to study 
Reserve component (RC) family member difficulties in transitioning 
health care to the TRICARE program during Active Duty orders.
    We have long advocated for more flexibility in allowing RC families 
to retain their servicemember's employer sponsored plan when activated, 
perhaps by paying them a stipend to help cover premiums. We believe MHS 
reform does not have to be a ``one size fits all'' solution. TRICARE 
coverage should be tailored to meet the unique needs of Reserve 
component families.
Special Needs Military Families
    Caring for a special needs family member can be difficult and 
draining for any family. However, the impact for military families is 
magnified by the unique challenges associated with military service and 
TRICARE policy. We had hoped MHS reform would ensure military special 
needs families are appropriately supported as they navigate multiple 
systems of care for their family members.

    <bullet>  PCS: A PCS will, by definition, disrupt the continuity of 
care that is so important in managing complex medical conditions. After 
every move, special needs families must begin a lengthy cycle of 
referrals, authorizations and waitlists resulting in repeated gaps in 
care.
    <bullet>  ECHO: State Medicaid programs provide assistance not 
covered by TRICARE: respite care, custodial care, and more flexible 
medical coverage. TRICARE's Extended Health Care Option (ECHO) was 
designed to provide coverage for non-medical services often covered by 
Medicaid, but not allowed under TRICARE. However, the Military 
Compensation and Retirement Modernization Commission (MCRMC) found ECHO 
benefits, as currently implemented, are not robust enough to replace 
state waiver programs. \4\ DOD has assured us they are working on ECHO 
improvements. However, other than a policy update to cover incontinence 
supplies, there has been no tangible progress on this issue.
---------------------------------------------------------------------------
    \4\ Final Report of the Military Compensation and Retirement 
Modernization Commission--January, 2015
---------------------------------------------------------------------------
    <bullet>  Case Management: Families often run into roadblocks when 
establishing or re-establishing care for special needs family members. 
When this happens, they need effective case management services to help 
them navigate obstacles to obtain the needed care and services. 
Families who contact our Association have no idea where to turn when 
their existing case managers fail to resolve their problems.

    Section 701's elimination of the preauthorization requirement for 
specialty care will streamline the process of transferring care during 
a PCS somewhat, but it is only a partial solution. T17 is supposed to 
include enhanced case management services. We look forward to learning 
more about those to see if they address military family concerns 
regarding case management.
    Removing the requirement to get a new specialty care referral 
following a PCS, and allowing the existing referral to transfer 
electronically to the new duty station, would greatly help special 
needs military families transition care in a timely fashion.
    We are encouraged by DHA's stated committed to addressing ECHO 
shortfalls. However, if there is no change in respite care policy--a 
well-documented gap relative to state Medicaid waiver programs--within 
the next year, we believe the next round of MHS reform must include a 
legislative fix to bring ECHO in line with the program's legislative 
intent.
Pediatric Population
    The MHS provides care for 2.4 million military kids, but because 
TRICARE reimbursement is based on Medicare, a program for senior 
adults, its policies are not always optimal for pediatric care.
    Concurrent Hospice Care: Last summer, the TRICARE for Kids (TFK) 
Coalition, of which NMFA is a member, was contacted about two 
terminally ill military kids who could not access hospice because it 
would mean foregoing curative care per TRICARE hospice reimbursement 
policy. This is an outdated policy, based on Medicare requirements for 
senior adults. Acknowledging that the path of a child's illness is 
unpredictable and parents refuse to give up hope and therefore curative 
care, Medicaid and commercial plans will now cover hospice in addition 
to curative care for pediatric patients.
    When Rep. Walter Jones (R-NC/3rd) contacted DHA about the issue, 
DHA responded it is a statutory issue and implied that military kids 
are not lacking palliative care due to other TRICARE services and 
supports in place. The TFK Coalition subsequently met with members of a 
children's hospital palliative care team who explained in detail how 
military kids are not getting the same level of care as children on 
Medicaid and commercial health insurance who have access to hospice 
services:

    <bullet>  The goal of palliative care, of which hospice is a part, 
is to improve the quality of life of patients with serious/terminal 
illnesses. What kids want more than anything is to be at home.
    <bullet>  While TRICARE does cover in home nursing care, it is 
provided by an LPN. This is not the same level of care that hospice 
provides--typically RN care.
    <bullet>  Without RN level care, the child is at higher risk for 
future ER [emergency room] visits and hospital readmissions. Example: A 
child is sent home from the hospital. After several days, the child is 
in intractable pain. If that child has hospice, the family can ask the 
hospice nurse to evaluate the child. The hospice nurse can communicate 
with the child's medical provider and adjustments can be made to the 
pain control plan. Without hospice, the family only has LPN care. An 
LPN does not have this same level of authority so the family's only 
option for their child in intractable pain is an ER visit and likely 
readmission.

    <bullet>  According to the children's hospital representatives, 
they no longer even bring up the option of hospice care to military 
families (even though this is what they would normally recommend) 
because they know TRICARE will not cover it--this is probably why we 
aren't hearing directly from more families.
    <bullet>  The palliative care team also mentioned the hardships 
military families face when their terminally ill child is hospitalized. 
This team noted that our families typically don't have extended family 
or an established support system nearby to help out with other children 
and may be dealing with the servicemember's absence. Thus, military 
families are even more in need of hospice services to allow their child 
to remain at home than are typical families with a terminally ill 
child.

    We have discussed the concurrent hospice issue with DHA leadership. 
Their response included supporting affected families on a case by case 
basis (although it is unclear what can be done if, in fact, TRICARE is 
prohibited from covering concurrent hospice by statute), as well as 
establishing a demonstration project to allow TRICARE to cover 
concurrent hospice for pediatric patients. Unfortunately, it will take 
about a year to get a demonstration up and running. We don't believe 
this is an adequate response. Military families with terminally ill 
children deserve access to the current standards of pediatric care, 
including concurrent hospice services.
    Medical Necessity: TRICARE's adult-based definition of medical 
necessity prevents some kids from getting the care they need--care that 
is widely accepted and practiced in the civilian health care system and 
MTFs. TRICARE is authorized to approve purchased care only when it is 
``medically or psychologically necessary and appropriate care based on 
reliable evidence.'' \5\ DOD's hierarchy of reliable evidence includes 
only ``published research based on well controlled clinical studies, 
formal technology assessments, and/or published national medical 
organization policies/positions/reports.'' \6\ While beneficiaries 
certainly want safe and effective treatment, such tightly prescribed 
data for children is not always available. TRICARE's strict adherence 
to this adult-based standard of reliable evidence results in coverage 
denials for widely accepted pediatric treatments.
---------------------------------------------------------------------------
    \5\ DOD Report to Congressional Defense Committees: Study on Health 
Care and Related Support for Children of Members of the Armed Forces--
July, 2014
    \6\ DOD Report to Congressional Defense Committees: Study on Health 
Care and Related Support for Children of Members of the Armed Forces--
July, 2014
---------------------------------------------------------------------------
    Habilitative Care: Habilitation services are available only for 
Active Duty family members through the ECHO program and are subject to 
an annual dollar limit of $36,000. This differs from the ACA 
[Affordable Care Act] which recognizes habilitative services and 
devices as an essential health benefit without lifetime or annual 
dollar caps on care. Habilitative services, provided for a person to 
attain or maintain a skill for daily living, are uniquely necessary for 
children due to their stages of growth and development. Habilitative 
services should be covered as a basic health benefit as medically 
necessary just as rehabilitation services are covered.
    Medical Nutrition: TRICARE's current definition of medical 
nutrition is too narrow and counseling and management are only covered 
as part of diabetic care. TRICARE is not keeping pace with current best 
practices nationally for specialized pediatric care.
    We are grateful for Section 713: Coverage of Medically Necessary 
Food and Vitamins for Certain Conditions Under the TRICARE Program that 
addresses the medical nutrition problem outlined above by authorizing 
TRICARE to cover medically necessary food, vitamins and related 
supplies.
    Although not part of Congress' MHS reform, we would also like to 
express our appreciation for a recent DHA policy update that brings 
TRICARE's well child care in line with the American Academy of 
Pediatrics Bright Futures guidelines.
TRICARE Behavioral Health Changes Need Faster Implementation
    Sixteen years of war have left families with behavioral health 
problems and reintegration challenges that may last for many years. It 
is a moral imperative to provide servicemembers and their families with 
the help they need after years of enduring repeated combat deployments. 
While we appreciate the comprehensive revisions to TRICARE mental 
health coverage outlined in the final rule issued on September 2, 2016, 
the lack of timely policy implementation speaks to our concerns about 
DOD's capacity to parallel process multiple major changes as part of 
T17 and MHS reform. Although the TRICARE final rule on revised mental 
health regulations was ``effective'' October 3, 2016:

    <bullet>  The new regulations require between 90 and 100 changes to 
TRICARE policy and reimbursement manuals, which the Defense Health 
Agency projected would be completed by the end of 2016.
    <bullet>  The only TRICARE manual changes that DHA has released to 
date are related to eliminating the quantitative treatment limitations 
(day and dollar limits, copayments).
    <bullet>  The current managed care support contractors do not have 
any policy guidance to implement the new treatment services or to 
streamline the authorization of current institutional providers.
    <bullet>  Currently participating providers are operating under the 
outdated standards.
    <bullet>  New providers who would like to participate cannot, until 
DHA issues new policy guidance and the managed care support contractors 
put their implementation processes in place.

    The managed care support contractors are ramping up for the 
consolidation to two regions and transition to T17 contracts; 
incorporating the new behavioral health elements does not appear to be 
in their work plans at the moment.
               perspectives on health care and readiness
    Affordable and timely access to health care is important to all 
families, but it is vital for military families. Repeated deployments; 
caring for the wounded, ill, and injured; the stress and uncertainty of 
military life; and the need to maintain family readiness demand quality 
and readily available health care. Families need a robust and reliable 
health care benefit in order to focus on managing the many challenges 
associated with military life versus worrying about how they are going 
to access and pay for essential health care. We appreciate your 
dedication to improving health care for our military families and stand 
by to help with future reform efforts.
                               commissary
    Military families consistently tell us the commissary is one of 
their most valued benefits. We view the commissary as an important 
element of military compensation and thank Congress for fully funding 
it in the fiscal year 2017 NDAA. However, we are concerned about 
changes to commissary operations that the Defense Commissary Agency 
(DeCA) is implementing pursuant to provisions included in last year's 
Defense authorization. Specifically, DeCA is abandoning the previous 
``cost plus 5 percent'' pricing model and replacing it with variable 
pricing, in which prices would fluctuate based on local competitors' 
prices. DeCA has also announced plans to introduce private label 
products.
    Taken together, these changes represent a significant departure 
from DeCA's traditional business model. We are not convinced that DeCA 
officials have the expertise to manage these new systems. In addition, 
while we acknowledge that private label products might be popular with 
customers, we wonder how including them in the product mix will 
generate enough revenue to reduce the need for appropriated funds, as 
DeCA claims. If the changes do not generate the needed revenue--or if 
customers respond by shopping elsewhere--how will DeCA make up the 
shortfall?
    It is worth noting that DeCA has embarked on this transformation 
with little to no input from the military families it serves. We have 
suggested that DeCA reinstitute the Patron Advisory Council, which 
would ensure greater transparency and accountability to commissary 
customers. Military families rightly expect the commissary to offer 
high quality products and shopping experience in addition to good 
value. That focus on the customer must not be lost as DeCA undergoes 
changes in its operations.
    It is also important to remember that the Exchange retail stores 
are highly dependent on foot traffic from nearby commissaries. Any 
threat to the health of the commissary is a risk to the military resale 
system as a whole. This is particularly concerning as Services reduce 
funds for installation Morale, Welfare, and Recreation (MWR) programs. 
These programs are increasingly dependent on the Exchanges for funding. 
If Exchange sales revenues decrease, funding for MWR programs will go 
down as well.
    We are gratified that both Congress and DOD have recognized the 
importance of commissary savings to military families and have 
expressed their commitment to preserving the value of the benefit. 
However, we are concerned about what will happen if the changes do not 
generate the expected revenue.
    Given the importance of the commissary benefit, we ask for close 
Congressional monitoring as DeCA embarks on this transformation.
                       military retirement system
    Servicemembers with fewer than 12 years of military service are 
faced this year with an important decision--whether to opt in to the 
``blended'' retirement system created in the fiscal year 2016 NDAA or 
remain in the current system. This choice has significant long-term 
financial ramifications for servicemembers and their families. It is 
vital to ensure these young servicemembers--and their spouses--are 
given the tools and resources they need to make the decision that is in 
their financial best interest.
    We are pleased DOD has recognized this responsibility and is taking 
steps to ensure that servicemembers are informed about the new 
retirement system. They have recently launched an online course that 
will educate servicemembers about the new plan and their options. We 
are especially glad the Department recognizes that the choice of 
retirement plan must be a family decision and is making the online 
course available to spouses as well.
    However, while these initial steps are encouraging, more needs to 
be done to ensure servicemembers and spouses are fully educated about 
their retirement choices and the benefits and drawbacks of each choice. 
First, the Department must do more to raise awareness of the new 
retirement system, especially among military spouses. While we are 
pleased the online training will be available to spouses, it is 
currently housed on a site few spouses have cause to visit. We would 
like to see better utilization of Military OneSource to raise awareness 
of the new retirement system and the training available to families. In 
addition, in our view, online training is not sufficient. Better family 
access is needed to the financial education provided by Military Family 
Life Counselors and unit Personal Financial Managers. Servicemembers 
and families should receive in-person training and guidance to answer 
their questions and ensure they make the best choice for their long-
term financial well-being.
    We appreciate the new military retirement system will allow more 
servicemembers to accumulate retirement savings while preserving the 
defined benefit for those who serve a full career. However, we ask 
Congress to consider amending the plan to increase its value for 
servicemembers. Specifically, we ask Congress to increase the maximum 
level of matched contributions to servicemembers' Thrift Savings Plan 
(TSP) accounts to 5 percent--the level recommended by the Military 
Compensation and Retirement Modernization Commission (MCRMC). Because 
the match is based on servicemembers' basic pay, rather than total 
compensation, servicemembers should have the option of a higher match 
in order to maximize their retirement savings. We also ask Congress to 
extend the government match for the full career of the servicemember, 
rather than ending it at 26 years of service.
    Finally, we note that the adoption of the new retirement plan is 
likely to affect the Survivor Benefit Plan (SBP). Will future retirees 
elect to pay into SBP if they have TSP accounts to leave their 
survivors? What would a lower participation rate mean for the overall 
health of the SBP? These are important questions that need to be 
studied. We ask Congress to direct DOD to study the potential impact 
the blended retirement system will have on the Survivor Benefit Plan.

    We ask Congress to increase the maximum level of matched 
contributions to servicemembers' TSP accounts to 5 percent--the level 
recommended by the Military Compensation and Retirement Modernization 
Commission (MCRMC).

    We ask Congress to extend the government match for the full career 
of the servicemember, rather than ending it at 26 years of service.

    We ask Congress to direct DOD to study the prospective impact the 
blended retirement system will have on the Survivor Benefit Plan.
   cumulative effects of cuts threaten military families' financial 
                               readiness
    Recent years have seen military pay raises below the ECI and caps 
to servicemember housing allowances. Looking ahead, servicemembers face 
increased health care costs and the need to contribute to their 
retirement savings. Taken together, these changes represent reduced 
purchasing power for servicemembers and their families. We ask you to 
consider the cumulative effects of these policies on military families' 
financial well-being and reject any proposals that ask families to 
shoulder a greater financial burden.

    We ask Congress to reject budget proposals that threaten military 
family financial well-being as a way to achieve savings for DOD.
          sequestration: an ongoing threat to family readiness
    The effects of sequestration have already resulted in cuts to 
benefits and programs military families utilize to maintain their 
readiness. Much of the funding for these programs is embedded in the 
Service Operations and Maintenance accounts, which have been the 
hardest-hit by sequestration. Understanding what is affected by 
sequestration has been confusing for families.
    The total effect of sequestration on military families is unclear. 
What is clear is that military families do not deserve having to deal 
with such uncertainty--uncertainty of the availability of programs they 
rely on, uncertainty of whether their servicemember will receive the 
training they need to do their job safely, the uncertainty of not 
knowing what new cost they will be asked to absorb from their own 
pockets.
    While the Bipartisan Budget Act of 2015 provided some relief for 
fiscal year 2016 and fiscal year 2017, we know with future cuts 
required down the road, military families will continue to see threats 
to the programs and resources they require for readiness.

    We ask Congress to end sequestration and end the threat to the 
resources military families depend on for their readiness.
      what do today's military families need to ensure readiness?
    It has often been said while the military recruits a servicemember, 
it must retain a family. Our Association has long argued in order to 
build and maintain the quality force our Nation demands, the military 
must support servicemembers as they balance the competing demands of 
military service and family life. We were gratified to see significant 
family-focused proposals in recent years. We urge Congress to continue 
to strengthen the programs and services available to support all troops 
and families in diminishing uncertainty and meeting the daily 
challenges of military life.
    One of the greatest challenges facing military families is 
instability caused by frequent military-ordered moves. The effect of 
these frequent relocations is most clearly visible when considering the 
issue of military spouse employment. Like their civilian counterparts, 
military families typically rely on two incomes to help make ends meet. 
However, despite the fact that most military spouses both need to and 
want to work outside the home, the unemployment rate these spouses is 
nearly 23 percent \7\--more than triple the national average. Much of 
this is due to constant relocations, which force military spouses to 
leave their jobs and start over in their new locations.
---------------------------------------------------------------------------
    \7\ 2015 Demographics Report Profile of the Military Community, 
http://download.military onesource.mil/12038/MOS/Reports/2015-
Demographics-Report.pdf
---------------------------------------------------------------------------
    Military children are also affected by military-ordered moves. 
While most Permanent Change of Station (PCS) moves occur during the 
summer months, not all do. It is not uncommon for children to be pulled 
out of school midway through the year and dropped into a new 
environment.
    Military families tell us they need more flexibility in order to 
minimize the upheaval associated with moving. Yet, budget issues may 
reduce flexibility for families facing a military-ordered move. On 
February 8, the Navy announced sailors and families should expect a 
compressed household goods move schedule due to the constraints caused 
by the ongoing Continuing Resolution. \8\ The military must evolve to 
meet the needs of today's military families, but it needs a predictable 
budget and appropriation to do so.
---------------------------------------------------------------------------
    \8\ ``Household Goods Move Timelines Compressed Due to FYCR'', 
February 9, 2017, http://www.navy.mil/submit/display.asp?story--
id=98793.

    We ask Congress to provide military families with greater 
flexibility in timing their relocation either before or after a 
servicemember's permanent change of station (PCS) report date.
                               child care
    Military families frequently cite the lack of high quality, 
affordable child care as among the most significant challenges they 
face. In part, this reflects a national shortage of affordable child 
care options. However, the need for child care is especially pressing 
for the military community, which is disproportionately composed of 
young families. According to the 2015 Demographics Profile of the 
Military Community, more than 40 percent of military personnel have 
children. Of the nearly 1.8 million military-connected children, the 
largest cohort--37.5 percent--is under age five. \9\
---------------------------------------------------------------------------
    \9\ 2015 Demographics Profile of the Military Community, http://
download.militaryone source.mil/12038/MOS/Reports/2015-Demographics-
Report.pdf
---------------------------------------------------------------------------
    Like all working parents, servicemembers with young children need 
access to affordable child care in order to do their jobs. However, the 
military lifestyle comes with unique challenges and complications for 
families. Servicemembers rarely live near extended family who might be 
able to assist with child care. Their jobs frequently demand long 
hours, including duty overnight. They are often stationed in 
communities where child care is expensive or unavailable. 
Servicemembers frequently deploy or travel for training or other 
assignments, putting strain on at-home parents.
    We are gratified DOD has recognized the need for child care among 
military families and has made it a priority, to include exempting 
child care staffing from the recently-announced federal hiring freeze. 
They are to be commended for the high quality of many of their 
facilities and the standards they set for professional development and 
training of their staff. We were also pleased to see child care 
provisions such as expanded hours for installation child development 
centers (CDCs) included by DOD in last year's Force of the Future 
initiatives. However, while expanded CDC hours will address the needs 
of some military families, we urge Congress and the Department to 
consider additional steps in order to meet the needs of military 
families with young children.
    Ensure installation CDCs are adequately staffed: For families 
living on or near a military installation, on-base CDCs are often the 
preferred choice for child care, offering a convenient location and 
high quality care at an affordable price. However, in some locations 
demand for spots at installation CDCs far outstrips supply. In many 
places the waiting list is so long the CDC is effectively not an option 
for military families. In some locations, the issue is lack of physical 
capacity. However, in many locations the reason for the insufficient 
supply of on-base care is not a lack of space; it is a lack of staff. 
The process of hiring CDC personnel is lengthy and arduous. It can be 
difficult for CDC directors to find, hire, and put into place qualified 
staff. This limits the number of children a facility can serve. DOD 
should analyze whether and how the hiring process can be streamlined 
while still ensuring that necessary background checks and training take 
place to ensure children's safety. We also urge Congress to ensure 
child care workers remain exempt from hiring freezes. Budget cuts 
should not prevent CDC directors from staffing their facilities 
appropriately.
    Increase availability of part-time and hourly care: We hear from 
many military families frustrated by the lack of hourly or drop-in care 
at installation CDCs. Many military families--especially those overseas 
or in remote locations--do not have easy access to reliable caregivers. 
For those families, access to drop-in care at an installation child 
care facility can greatly enhance their quality of life, enabling 
parents to go to medical appointments, run errands, and volunteer in 
their communities. This service can be especially vital when a 
servicemember is deployed, providing the at-home parent with a much 
needed break. Increasing the number of hourly slots would also help 
address a common conundrum faced by military spouses after a PCS move: 
they can't look for work without child care, but thanks to DOD priority 
guidelines, they aren't eligible for child care if they're not working. 
DOD should evaluate the programs at installation CDCs to ensure the mix 
of care offered--full time, part-time, and hourly--meets the needs of 
the families they serve.
    Increase participation in the child care fee assistance program: 
The fee assistance program operated by the services is an innovative, 
effective approach to the problem of insufficient child care 
availability on base. The program helps offset the cost of child care 
in the civilian community, ensuring participating families can access 
high quality care at an affordable cost. Unfortunately, relatively few 
families take advantage of this benefit. Expanding participation in the 
child care fee assistance program would address many families' child 
care needs. We recommend the following steps:

    <bullet>  Increase the number of eligible providers: DOD has 
stringent requirements for child care providers participating in the 
fee assistance program, to include national certification, regular 
inspections, and background checks. However, many states have less 
stringent requirements for providers. In those locations, families 
often have difficulty locating a provider who meets DOD's eligibility 
requirements. The Office of Military Community and Family Policy and 
the Defense State Liaison Office (DSLO) have worked together to 
encourage states to increase their standards to meet DOD's and have had 
a great deal of success in this regard. We encourage them to continue 
with this effort.
    <bullet>  Standardize Service requirements: Because the fee 
assistance programs are operated by the individual Services, there are 
variations in eligibility requirements for providers and families. Some 
Services require families live a certain distance from an installation 
in order to participate in the program; others have no geographic 
restrictions. The Marine Corps requires providers to have a specific 
national certification that is not required by the other Services. 
These differences lead to confusion and frustration among families. We 
ask you to direct DOD to review Services' fee assistance programs with 
the goal of standardizing eligibility requirements.
    <bullet>  Raise awareness of the program among military families: 
We consistently encounter families who have no idea the fee assistance 
program exists. From our experience, it would seem most families learn 
about the program through word of mouth from other military families. 
If families are not aware of the fee assistance program and cannot 
obtain care on base, they may be forced to seek out less than optimal 
caregivers who provide care at a lower cost. DOD must ensure the 
Services are providing information about the fee assistance program to 
eligible families to ensure military children are receiving quality 
care.
                     military children's education
    The vast majority of military-connected students attend local 
public schools in their civilian communities. Districts serving large 
numbers of military children rely on funding from the Department of 
Education and the Department of Defense to help offset the additional 
expenses they incur. It is incumbent on DOD and the federal government 
to ensure that schools charged with serving military-connected children 
have the support they need to provide the best possible education. 
Military families often have no control over when and where they move. 
They worry about the effect multiple moves will have on their 
children's academic achievement. They deserve the assurance that their 
children will receive a high quality education wherever they happen to 
be stationed. We urge Congress to continue funding programs designed to 
support the education of military-connected children.
Impact Aid
    We are grateful to Congress for authorizing $30 million for DOD 
Impact Aid and $5 million in Impact Aid for schools serving military 
children with special needs in the fiscal year 2017 NDAA. We ask 
Congress to increase this funding to offset the costs incurred by 
districts educating large numbers of military children. These funds 
help local school districts meet the education needs of military 
children in an era of declining state budgets. Both DOD and Department 
of Education Impact Aid funding are critical to ensuring school 
districts can provide quality education for military children.
Department of Defense Education Activity Grant Program
    The John Warner National Defense Authorization Act for Fiscal Year 
2007 established a grant program, administered by the Department of 
Defense Education Activity (DODEA), to support public schools educating 
large numbers of military children. This innovative program allows DOD 
to offer tangible support to public schools charged with educating 
military-connected students. Schools and school districts are able to 
identify areas of need among the military children they serve and 
design programs to meet those needs. The grants have been used to bring 
Advanced Placement (AP) courses to high schools that would otherwise 
not be able to provide this level of instruction. Other grants have 
been used to fund special education, foreign language instruction, and 
programs to enhance students' proficiency in reading, science, and 
math.
    Since 2009 this program has awarded $433 million in grants. These 
three-year projects have supported over 530,000 military-connected 
students in more than 2,300 schools \10\. We thank Congress for 
extending the grant program for a year in the 2017 NDAA. However, this 
valuable program will sunset at the end of this fiscal year absent 
congressional action. It would be regrettable if military children lose 
access to the valuable educational programs that have been made 
possible through the DODEA grant program. A relatively small investment 
can make a huge impact at the local level. We ask Congress to 
reauthorize the DODEA grant program and allow DOD to continue 
supporting military-connected children in public schools.
---------------------------------------------------------------------------
    \10\ Source: http://www.dodea.edu/Partnership/grants.cfm
---------------------------------------------------------------------------
                spouse employment and education support
    Spouse employment and education support is a critical component of 
military family readiness. Much like their civilian counterparts, many 
military families rely on two incomes in order to help make ends meet. 
However, military spouses face barriers hindering their educational 
pursuits and career progression due in large part to challenges 
associated with the military lifestyle.
    We are gratified in recent years Congress, DOD, the White House, 
and States have all taken steps to lessen the burden of an Active Duty 
member's military career on military spouses' educational and career 
ambitions. We fully support these initiatives, including DOD's 
portfolio of Spouse Education and Career Opportunities (SECO), which 
provides educational funding for select military spouses, career 
counseling, employment support, and the DOD State Liaison Office's 
(DSLO) state-level initiatives. However, while progress has been made, 
military spouses continue to face significantly lower earnings and 
higher levels of unemployment and underemployment than their civilian 
counterparts, greatly impacting their families' financial stability. 
\11\
---------------------------------------------------------------------------
    \11\ Institute for Veterans and Military Families, Military Spouse 
Employment Report, Syracuse University (IVMF) February 2014: http://
vets.syr.edu/wp-content/uploads/2014/02/Military 
SpouseEmploymentReport--2013.pdf
---------------------------------------------------------------------------
Grow Our Own
    One of our top legislative priorities is to ensure adequate access 
to behavioral health providers who are attuned to the unique stressors 
of military life for servicemembers and their families who have endured 
years of repeated deployments, long separations, and possible injuries 
or illnesses. We support efforts to educate and employ military spouses 
as mental health professionals.
    As military families struggle to cope with the effects of 16 years 
of war, we are seeing an increasing demand for mental health services 
within our families and community. Since 2004, NMFA's military spouse 
scholarship and professional funds program has had almost 90,000 
applicants. Data from this year's approximately 9,000 scholarship 
applicants, as well as from Active Duty spouse respondents to the 2015 
health care survey done by the Military Officers Association of America 
(MOAA), indicate increased rates of behavioral health usage among 
military families. Both surveys show between 40-50 percent of military 
spouses have sought behavioral health care for someone in their family.
    Unfortunately, access to top-notch care is limited. The shortage of 
mental health professionals nationally is mirrored in the military 
community; it is even greater at military installations in remote 
areas. We believe our Nation has an obligation to prevent, diagnose, 
and treat the mental health needs of servicemembers and their families. 
Doing so in the face of a nationwide shortage of mental health 
professionals will require innovative solutions and strategic public-
private partnerships including Congress, DOD, the VA, and other 
organizations. We believe military spouses may also be a source of help 
for their community.
    Each year we've offered military spouse scholarships, the number of 
spouses pursuing mental health careers has increased. Our 2017 
applicant pool had more than 500 spouses planning to pursue careers in 
mental health fields. Twenty-two percent of these mental health 
profession applicants are spouses of wounded or fallen servicemembers.
    Many of our military spouses pursuing careers in mental health 
fields intend to serve military families. Helping these spouses 
overcome obstacles and pursue their careers has the dual benefit of 
assisting the individual spouse and family while addressing the 
shortage of mental health providers in the military community. However, 
these spouses face obstacles due to the unique challenges of the 
military lifestyle. In a February 2016 Facebook post a Marine Corps 
spouse shared an experience all too common for military spouse mental 
health professionals:

        ``I'm looking for fellow military spouses who have completed 
        the practicum and internship process for clinical mental health 
        counseling or who have earned their LPC or LPCC by following 
        California, Arizona, or North Carolina state requirements. We 
        are currently stationed at Camp Pendleton, CA and I will start 
        my practicum this June. I have excelled in my graduate program 
        and now I am facing major challenges finding a facility that 
        doesn't require a year sign-on and who has openings for new 
        interns starting this summer. One specific problem I'm facing 
        is we aren't sure when new orders will come or where they will 
        be (making it additionally hard to convince licensed 
        supervisors to take a new intern on if I will only be there for 
        a couple months). Is there anyone who can share a professional 
        contact with me?

    We offer the following recommendations for Congress to consider:

    <bullet>  Include military spouses and others who enter the mental 
health profession in federal loan-forgiveness programs;
    <bullet>  Facilitate easier paths to both licensure and employment 
for military spouses and veterans in the mental health field when they 
work with our servicemembers and families;
    <bullet>  Provide a tax credit for spouses' re-licensing after a 
military move to offset the out-of-pocket cost of the additional 
license;
    <bullet>  Pass legislation to allow military spouses full 
reciprocity when transferring an Active unrestricted mental or 
behavioral health license from one state to another due to PCS;
    <bullet>  Support partnerships between the Military Health System 
and the VA to ease spouse difficulties in obtaining clinical 
supervision hours, reduce licensing barriers, and spur employment of 
military spouses and veterans in the mental health field.

    We ask Congress to increase access to behavioral health providers 
by supporting employment efforts of military spouses in the mental 
health profession.

    We ask Congress to provide a tax credit for spouses' re-licensing 
after a military move to offset the out-of-pocket cost of the 
additional license.
                   exceptional family member programs
    Military families with special needs family members are supported 
through the Services' Exceptional Family Member Programs (EFMP). The 
primary mission of the EFMP is assignment coordination, to ensure that 
special needs families are sent to locations that can meet their 
medical and educational requirements. However, the EFMP also includes a 
family support component. While we are grateful that DOD recognizes the 
importance of supporting special needs families, we hear often from 
families who tell us that EFMP family support programs are falling 
short. This is especially true when it comes to respite care.
    Families with special needs children have unique child care needs. 
For those families, dropping a child off at a day care center or with a 
sitter may not be an option. Instead, parents of special needs children 
need respite care provided by trained caregivers. Access to quality 
respite care allows families to run errands, spend time with other 
children, and simply recharge.
    Recognizing the importance of respite care, especially for military 
families far from the support of friends or extended family, the 
Services have provided respite care for military families with eligible 
special needs family members as part of the EFMP family support 
function. However, because the respite care programs are operated and 
funded by each of the individual Services, eligibility requirements and 
the number of respite care hours available to families vary. This is a 
significant source of frustration to families assigned to joint bases 
or installations managed by other Services. We are also concerned the 
current fiscal environment may lead the Services to reduce the level of 
respite care they offer.
Extended Care Health Option (ECHO) and Medicaid
    For special needs military families, frequent relocation presents 
another obstacle: the inability to qualify for services through 
Medicaid waivers. Caring for children with complex medical needs can be 
incredibly expensive. We appreciate the MCRMC recognized this problem 
faced by our families with special needs. Most civilian families in 
this situation ultimately receive some form of public assistance, 
typically through state Medicaid waivers. State Medicaid programs 
provide assistance not covered by TRICARE: respite care, employment 
support, housing, supplies, and more flexible medical coverage. Because 
the demand for these services far outstrips the supply, there is a 
lengthy waiting list to receive assistance in most states. For that 
reason, these services are often out of reach for a military family who 
must relocate every 2 to 3 years. A military family who places their 
special needs child on a Medicaid waiver waiting list must start again 
at the bottom of the waiting list when they move to a new state. The 
Defense State Liaison Office (DSLO) has recognized military families' 
inability to access care through Medicaid waivers as one of its high 
priority issues and is working with state legislatures to address this 
problem. However, little progress has been made in resolving this 
disparity.
    TRICARE's Extended Care Health Option (ECHO) program was designed 
in part to address this imbalance, by allowing families to access non-
medical services not covered under TRICARE. According to TRICARE's 
website, benefits covered under ECHO include ``training, 
rehabilitation, special education, assistive technology devices, 
institutional care in private nonprofit, public and State institutions/
facilities and, if appropriate, transportation to and from such 
institutions/facilities, home health care and respite care for the 
primary caregiver of the ECHO-registered beneficiary.'' However, in 
practice military families find it difficult to obtain services through 
the program.
    This reality was reflected in TRICARE's May 30, 2013 report, The 
Department of Defense Report to Congress on Participation in the 
Extended Care Health Option (ECHO), detailing military families' usage 
of the ECHO benefit. They reported, in 2012, 99 percent of funds 
expended through the ECHO program were spent on Applied Behavioral 
Analysis (ABA) therapy and ECHO Home Health Care (EHHC). Although these 
services are important and popular with special needs families, it is 
impossible to see this statistic and not wonder why families are not 
accessing the long list of other services ostensibly available to them 
under ECHO.
    The MCRMC also found ECHO benefits, as currently implemented, are 
not robust enough to replace state waiver programs. \12\ DOD has 
assured our Association they are working on ECHO improvements. However, 
other than a policy update to cover incontinence supplies, we have 
heard no specifics. Given the importance of ECHO to special needs 
families, DOD must examine how to bring the ECHO benefit on par with 
state Medicaid waiver benefits.
---------------------------------------------------------------------------
    \12\ Final Report of the Military Compensation and Retirement 
Modernization Commission--January, 2015
---------------------------------------------------------------------------
    As stated previously, one service much in demand by families is 
respite care. Respite care is ostensibly available through the ECHO 
program, but TRICARE policies limit its utility. ECHO sets strict 
requirements for respite care providers, making it difficult for 
families to identify eligible providers.
    Congress has given DOD much more discretion in its coverage of ECHO 
benefits than it has concerning medical benefits provided under the 
Basic Program. Thus, TRICARE has the authority to make changes that 
would enhance the ECHO program's utility to military families. Aligning 
ECHO coverage with that of state Medicaid programs, as the MCRMC 
recommends, would do much to enhance special needs military families' 
readiness and quality of life.

    TRICARE should enhance the ECHO program's utility to military 
families by ensuring it covers the products and services families need.

    The transition out of the military and into civilian life is 
difficult for many families but especially so for special needs 
families, who immediately lose access to ECHO benefits. Families may 
still face long waits before being eligible for care through Medicaid, 
which leads either to gaps in treatment or financial hardship for a 
family trying to pay for needed care. To ease the hardship for families 
in this situation, we recommend ECHO eligibility be extended for 1 year 
following separation to provide more time for families to obtain 
services in their communities or through employer-sponsored insurance.

    We ask Congress to extend eligibility for the Extended Care Health 
Option (ECHO) for 1 year following separation to provide more time for 
families to obtain services in their communities or through employer-
sponsored insurance.
                      military families in crisis
    Our country is still at war and military families continue to live 
extraordinarily challenging lives. Reintegration continues to pose 
challenges for some. Others are anxious about their financial futures. 
Most military families are resilient and will successfully address 
whatever challenges come their way. However, some will need help. It is 
critical military families trust DOD services and programs and feel 
comfortable turning to them in times of need. These programs and 
services must be staffed and resourced adequately so when families 
reach out for help, they can trust it is available. Military families 
must be assured our Nation will support them in times of family or 
personal crisis.
Suicide
    In 2014, the Defense Suicide Prevention Office (DSPO) released a 
report outlining an approach for tracking military family member 
suicides. The report, Suicide and Military Families: A Report on the 
Feasibility of Tracking Deaths by Suicide among Military Family 
Members, was requested by the Senate and House Armed Services 
Committees.
    We appreciate Congress including a provision directing DOD to track 
military family suicides as well as Reserve component suicides in the 
fiscal year 2015 NDAA, but are frustrated by DOD's delays in developing 
a plan to meet this mandate. If we don't have solid information on the 
extent of the issue, targeting solutions becomes more difficult.
Preventing Child Abuse and Neglect, and Domestic Violence
    Research commissioned by our Association \13\ and others during the 
past decade documents the toll of multiple deployments on children and 
families, the difficulties many families face on the servicemember's 
return, and the added strain a servicemember's physical and invisible 
wounds can place on a family. These stressors put military families at 
risk for marital/relationship problems and compromised parenting that 
must be addressed with preventative programs.
---------------------------------------------------------------------------
    \13\ Anita Chandra, et al., RAND Center for Military Health Policy 
Research, Views from the Homefront: The Experiences of Youth and 
Spouses from Military Families, 2011
---------------------------------------------------------------------------
    Current research validates families will experience the effects of 
war long after deployments end. A recent study highlighted parenting 
challenges fathers face following deployment. The study found that 
while deployment is a time of great stress for families, the need for 
support and a strong community continues during the extended period of 
reintegration after the servicemember returns. This need is 
particularly pronounced when the returning servicemember is father to a 
young child, and he faces the core challenge of reconnecting with a 
child who has undergone significant developmental changes while he was 
away. \14\ A 2013 research brief issued by Child Trends, Home Front 
Alert: The Risks Facing Young Children in Military Families, \15\ 
concluded many children negatively impacted by a parent's repeated 
combat deployments will continue to have exceptional needs as they grow 
older.
---------------------------------------------------------------------------
    \14\ Tova B. Walsh, et al., ``Fathering after Military Deployment: 
Parenting Challenges and Goals of Fathers of Young Children,'' Health & 
Social Work: A Journal of the National Association of Social Workers, 
February, 2014
    \15\ ``Home Front Alert: The Risks Facing Young Children in 
Military Families'', Child Trends, July 22, 2013
---------------------------------------------------------------------------
    Those looking for budget cuts may find it tempting to slash family 
support, family advocacy, and reintegration programs. However, bringing 
the troops home from war zones does not end our military's mission, 
family separations, or the necessity to support military families. 
``Rotations'' and ``training exercises'' of units to Europe and 
elsewhere must be accompanied by the same high levels of family support 
as if servicemembers were heading on a combat deployment. To family 
members, especially young children, ``gone is gone.''
    Recent media coverage indicates the incidence of child abuse and 
neglect among Army families has increased. We are concerned the 
extraordinary stress military families face could lead to increased 
domestic violence as well. Preventative programs focused on effective 
parenting and rebuilding adult relationships are essential. The 
government should ensure military families have the tools to remain 
ready and to support the readiness of their servicemembers.
    We are encouraged the Family Advocacy Program, a congressionally 
mandated DOD program designed to prevent and respond to child abuse/
neglect and domestic abuse in military families, has redoubled its 
focus on prevention programs. Their efforts to repair relationships and 
strengthen family function will be essential. Programs like New Parent 
Support focus on helping young parents build strong parenting skills 
early on.

    We encourage Congress and the Department of Defense to ensure that 
Family Advocacy programs are funded and resourced appropriately to help 
families heal and aid in the prevention of child and domestic abuse.
                   support for transitioning families
    Transitioning out of the military affects the whole family. In 
addition to the transition assistance program available to 
servicemembers, resources relevant to family members need to be 
identified. Issues such as how to find community resources to replace 
DOD programs and the military spouse's role in the long-term care of 
the family as a whole aren't addressed in the transition classes.
    In May 2014, our Association conducted a survey of military spouses 
facing transition. Over half the spouses indicated they were extremely 
or very concerned about relocation and finding employment. Over three 
quarters of the spouses were extremely/very concerned about being 
financially prepared and finding employment for their servicemember. 
Access to the counseling and other services provided by Military 
OneSource, beyond the 180 days currently provided, would make available 
resources and information to ease some of the concerns of our 
transitioning military families.

    Expand the opportunity for spouses to access transition information 
including face-to-face training and on-line training.

    Expand family access to Military OneSource to 1 year from a 
servicemember's separation from the military.
        today's surviving spouses need the dic offset eliminated
    Our Association has long believed the benefit change that would 
provide the most significant long-term advantage to the financial 
security of all surviving families would be to end the Dependency and 
Indemnity Compensation (DIC) offset to the Survivor Benefit Plan (SBP). 
Although we know there is a significant price tag associated with this 
change, ending this offset would correct an inequity that has existed 
for many years. Each payment serves a different purpose. The DIC is a 
special indemnity (compensation or insurance) payment paid by the VA to 
the survivor when the servicemember's service causes his or her death. 
The SBP annuity, paid by the Department of Defense (DOD), reflects the 
military member's length of service. It is ordinarily calculated at 55 
percent of retired pay. Military retirees who elect SBP pay a portion 
of their retired pay to ensure their family has a guaranteed income 
should the retiree die. If that retiree dies due to a service-connected 
disability, their survivor becomes eligible for DIC.

    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career servicemember and spouse.
Special Survivor Indemnity Allowance
    In the fiscal year 2008 NDAA, the Military Personnel Subcommittee 
established the Special Survivor Indemnity Allowance (SSIA) as a first 
step in a longer-term effort to phase out the DIC offset to SBP.
    That initial legislation authorized the SSIA for all survivors 
affected by the SBP-DIC offset in the amount of $50 per month for 
fiscal year 2009, with the amount increasing by $10 monthly for each of 
the next 5 years, reaching $100 per month for fiscal year 2014-2016, 
not to exceed the amount of SBP subject to the offset. The authority to 
pay the SSIA, under this initial provision, was to expire on March 1, 
2016.
    In 2009, SSIA payments were extended through the end of fiscal year 
2017, and the monthly SSIA amounts were increased:

      Fiscal year 2014: $150
      Fiscal year 2015: $200
      Fiscal year 2016: $275
      Fiscal year 2017: $310, with payment authority expiring as of 
Sept. 30, 2017.

    As of fiscal year 2017, phased SSIA increases will have eliminated 
roughly 25 percent of the SBP-DIC penalty.
    We appreciate the 18-month extension Congress provided in the 
fiscal year 2017 NDAA, but SSIA must be made permanent so SBP-DIC 
widows will not see an interruption or elimination of the then-$310 
payment.

    Make SSIA permanent so the modest progress in eliminating the DIC 
offset to SBP will not be lost.
              caregiver and wounded servicemember support
    Servicemembers and their families must be assured our nation will 
provide unwavering support to the wounded, ill, and injured. This 
support must extend beyond the recovering warrior's medical and 
vocational rehabilitation. It must also include programs and services 
that help military caregivers, typically spouses or parents, 
successfully navigate their new role.
Medicare Eligible Wounded Warriors & TRICARE Coverage
    Medically retired wounded warriors who receive Social Security 
Disability Insurance (SSDI) benefits become eligible for Medicare Part 
A after 24 months on SSDI. At that point, the wounded warrior must 
enroll in Medicare Part B in order to keep TRICARE coverage. After the 
wounded veteran enrolls in Medicare Part B, their TRICARE coverage 
converts to TRICARE for Life (TFL). This poses a variety of problems 
for the severely wounded population:

    <bullet>  In the worst case scenario, the wounded warrior or his/
her caregiver does not realize or is not appropriately informed they 
must enroll in Medicare Part B (and pay Part B premiums) in order to 
avoid losing their TRICARE coverage.
    <bullet>  In other instances, the wounded warrior or caregiver 
understands and enrolls in Medicare Part B and retains TFL. Although 
medical coverage is retained, the severely wounded veteran is now 
paying more for medical coverage than most other working-age TRICARE 
retirees.
    <bullet>  Finally, some severely wounded veterans receive SSDI for 
over 24 months and are forced onto Medicare/TFL. Eventually, the 
wounded veteran returns to work, but they are required to stay on 
Medicare Part B for 8 years after returning to work. This results in 
over $10,000 in Medicare Part B costs to the severely wounded warrior 
who returns to work.

    This is an extremely complex issue facing the most severely wounded 
servicemembers and their caregivers. These families face emotionally 
challenging lives and overwhelming responsibilities. Making a mistake 
about enrollment in Medicare Part B should not result in the life 
altering consequence of losing health care coverage. Furthermore, our 
most severely wounded warriors should not be forced to pay more for 
their health care than others.
    This complex problem crosses many jurisdictions including the 
Centers for Medicare and Medicaid Services, DOD, the Social Security 
Administration, the Senate Finance Committee, the House Ways and Means 
Committee, the HASC, and the SASC. Given this problem impacts our most 
severely wounded veterans and their families, we urge the House and 
Senate Armed Services Committees to take the lead in creating a 
solution to this complex issue.
Supporting an Enduring Wounded Warrior Mission
    The reduction in combat operations and the resulting decline in 
combat wounded poses a risk that attention and resources for wounded 
warrior programs and initiatives will shift to competing priorities. 
Some of this shift is certainly warranted, but it is critical that 
improvements made over the last 16 years are not lost as we move 
forward. We support Recovering Warrior Task Force recommendations to 
formalize and marshal support for the way forward in wounded warrior 
care and caregiver support for current and future generations of 
wounded warriors.
                 military families--continuing to serve
    Recent national fiscal challenges have left military families 
confused and concerned about whether the programs, resources, and 
benefits contributing to their strength, resilience, and readiness will 
remain available to support them and be flexible enough to address 
emerging needs. The Department of Defense must provide the level of 
programs and resources to meet these needs. Sequestration weakens its 
ability to do so.
    Servicemembers and their families have kept trust with America, 
through more than 16 years of war, with multiple deployments and 
separations. We ask the Nation to keep the trust with military families 
and not try to balance budget shortfalls from the pockets of those who 
serve.
    Evolving world conflicts keep our military servicemembers on call. 
Our military families continue on call as well, even as they are 
dealing with the long-term effects of more than a decade at war. The 
government should ensure military families have the tools to remain 
ready and to provide for the readiness of their servicemembers. 
Effective support for military families must involve a broad network of 
government agencies, community groups, businesses, and concerned 
citizens.

    Senator Tillis. Thank you, Ms. Raezer.
    Ms. Roth-Douquet, I am glad that you brought up childcare 
again. Obviously, we talked about it in the first panel.
    In connection with the Baby Bundles program, I ran across a 
young military couple who all of a sudden found out that they 
were going to have triplets. The point about childcare could 
not be more important because you reach a point with a young 
family, dependent upon the job market, where they have to make 
an economic decision if they do not have broadly available, 
affordable childcare. Is it taking care of the children or 
taking a job? What is best for the family? It is a very 
difficult choice.
    I appreciate and would like to make sure that we get--I am 
looking forward to the testimony before the full committee to 
talk a little bit more about that, what we can do. It seems to 
me that there are a lot of priorities here, but that is a very 
important one and I look forward to your testimony.
    You mentioned something that was not discussed in the prior 
committee, but I think is very important. That has to do with 
the effect on families because of the OPTEMPO that we have 
experienced for quite some time. You know, on the one hand, we 
could talk about family support programs that deal with the 
OPTEMPO. I think the root cause of the problem is we have got 
to change the OPTEMPO because otherwise we are just addressing 
the symptoms and not the problem. That is something for the 
full committee and other subcommittees.
    But can you just talk a little bit about practical examples 
of where this OPTEMPO has just had bad outcomes in terms of our 
military families or things that we should be concerned with 
when you see the pace of deployment and redeployment?
    Ms. Roth-Douquet. Absolutely. As Joyce and Ms. Barna 
mentioned, it is not necessarily just the deployment, it is 
also the training. Sequestration has caused a lot of problems 
with that too because it is difficult then to schedule some of 
the training that is necessary. People end up with larger 
amounts of separation.
    What we do see is families having a plan, having that plan 
be disrupted. I do not have as my backup the person who runs my 
annual survey because 2 months ago she found out that her 
husband was going to be reassigned to Italy. In their case, 
having had him just come back from a 9-month deployment, they 
decided to opt against family separation. She had to move with 
less than 2 months' notice, take her children out of school mid 
school year, which the National Child Education Coalition tells 
us is the most disruptive thing. She is able to keep her job 
because she works for a military family organization, but 
normally she would have lost her job at that point. It is the 
cumulative effect of the separations they have had in the past 
that did not allow them to pace this one out that would have 
been more healthy for their family.
    We see this over and over again, families being forced to 
make decisions about the wellbeing and thriving of their family 
members because repeated deployments or trainings that are 
unsynced with family lifestyle have caused this kind of 
distress. Again, in our survey, nearly three-quarters say it is 
unhealthy, it is unsustainable. That is a big number. Again, I 
do not think that Americans have any idea.
    Senator Tillis. Thank you.
    Ms. Barna, one of the things we discussed and Ms. Raezer 
mentioned it in terms of how we can work more closely with the 
States and other organizations as people make transitions into 
private sector jobs or re-service for that matter. What work 
has the Department done to try and harmonize the differences in 
State jurisdictions and try to come up with a consistent 
message and approach that we can send to the States to make 
sure that we are optimizing those opportunities to put men and 
women in the armed services first and trying to get these jobs 
filled with great skills that they can bring to the table?
    Ms. Barna. Absolutely, Senator Tillis. We would agree that 
our servicemembers, even if not necessarily in a more 
traditional credentialed or licensed occupation like a truck 
driver, an air traffic controller, that they bring to the table 
what we call essential skills, things like the leadership 
training and skills that they have developed over the period of 
their service, their ability to team build, their ability to 
problem solve. We have found that these are exactly the skills, 
no matter the occupation, that employers everywhere continue to 
crave, and it is why our servicemembers are doing so well in 
all of the States as they reenter the job market.
    We are very pleased with the collaboration that we have 
received from the individual States, from various associations 
comprised of States or regions. There are certain organizations 
in the Northeast, for example, that specialize in energy, in 
coal, in shale. They are turning their local needs for 
expertise into calls for servicemember employment. Come our 
way. Listen to what we have to offer. Resettle in our 
particular locale. We have received incredible support for our 
transitioning servicemembers.
    Senator Tillis. I would like to get some specific examples 
of that so that we can see in other areas where maybe we can do 
some work.
    Ms. Raezer?
    Ms. Raezer. Just to add on to what Ms. Barna said, there is 
an office within the Department of Defense called the Defense 
State Liaison Office, that has made tremendous strides on 
working with States to address issues like unemployment 
compensation for mobile military spouses, working the licensure 
issue. There are improvements in licensure transferability, 
thanks to the work of Mrs. Obama and Dr. Biden and also the 
National Governors Association and the State liaison office. 
But as Chief Cody pointed out in the last panel, there are 
still costs involved with that licensure transferability.
    I am an old military spouse. We have seen progress in this 
area because a lot of people have been working on it, but there 
is still a lot more to do to help our spouses and our 
transitioning servicemembers launch or further careers because 
of some of these State barriers. But luckily we have something 
to build on.
    Senator Tillis. Thank you.
    Ranking Member Gillibrand?
    Senator Gillibrand. Thank you.
    Ms. Roth-Douquet and Ms. Raezer, I am a cosponsor with a 
Republican Senator of the Military Family Stability Act. It is 
a bipartisan bill that is designed to lessen the burden on 
military families completing permanent changes of station. The 
legislation allows families to move up to 6 months ahead of or 
behind servicemembers to allow spouses and children to smooth 
this transition between academic and employment settings.
    Senator Blunt and I introduced this last year. It was 
included in the NDAA [National Defense Authorization Act], but 
then it was largely gutted in conference, which was a shame.
    But can you describe for Senator Tillis and the record the 
impact on military children of moving during the school year 
and how the flexibility to complete the entire semester and 
move during the summer and winter breaks would affect military 
families. When you speak with military spouses worried about a 
private sector career or progression of furthering higher 
education opportunities, how do they describe the difficulty of 
PCS orders dictating the relocations? How could the bill lessen 
the concerns of military spouses when transitioning between 
duty stations?
    Ms. Roth-Douquet. Senator Gillibrand, thank you for your 
support of that bill. We are big fans of this legislation in 
part because it gives dignity to military families. Military 
families are increasingly millennials, 35 and under, and 
millennials more than previous generations really value having 
some control and some say over their lives. This bill does let 
families choose when it is best for the family to move, and not 
only when it is convenient for the service from the point of 
view of the service and national security.
    We are very happy to do anything necessary for national 
security, but moves that take place in October or February do 
not necessarily help national security and they are proven to 
hurt military children. When you start in the middle of a 
school year, it hurts socially and it certainly hurts 
academically, and it can delay for a year or more a child 
getting back on track. Likewise, a spouse having the inability 
to control the end of her employment and planning for new 
employment can have devastating effects on the ability of the 
family to maintain fiscal health.
    This bill on your part puts that back in the family's lap 
and gives them the kind of control that can make the necessary 
challenges bearable because the unnecessary ones have not been 
forced on them.
    Ms. Raezer. I agree. It really is about giving that family 
some control of their destiny. I have encountered many spouses 
who did not have enough lead time to work a licensure issue in 
order to get a job in a new place. But if you know you are 
heading to a new place, that is a start to take that class or 
start working the paperwork to get this through or staying 
behind to close out a semester. We have a military spouse 
scholarship program. We have spouses who are trying to finish a 
degree in one place, and if all you need is one more semester 
to be able to stay put, that is a tremendous help both 
financially and in terms of launching a career. So to give that 
family the control to make these decisions for what is best for 
the family while also keeping in mind what is best for the 
military is a great solution for these families.
    Ms. Roth-Douquet. May I offer an anecdote?
    Senator Gillibrand. Yes.
    Ms. Roth-Douquet. When my family was stationed in Germany, 
my husband was reassigned in June. My children's school year 
finished at the end of July. We paid $15,000 out of pocket to 
allow the children to finish the year. My oldest was a 9th 
grader. She would not have graduated with grades that would 
have allowed her to go to college if we had taken her out 2 
months before the end of the school year. We were able to 
absorb that although that was painful, but there are many 
families who do not have that option.
    Senator Gillibrand. Ms. Barna, when we did this 
legislation, the Department of Defense was very worried about 
cost concerns. So we updated the legislation in response to 
their concerns. So the newer language no longer provides for a 
second basic allowance for housing or separate pack-outs when 
moving. Do you think these changes alleviate the Department's 
past concerns regarding the legislation? What further changes 
to the Military Family Stability Act will allow the Department 
to fully support this legislation, which was written in direct 
response to the concerns voiced by military families?
    Ms. Barna. Senator Gillibrand, of course, I cannot comment 
on pending legislation, but I think I can speak to the 
Department's comments on legislation that was introduced in the 
past term and speak to some of our concerns about that 
particular legislation.
    The area of military assignments and relocation is not an 
area in which there is a lot of law. We believe that the 
absence of law in this arena actually gives the Department, 
actually gives our commanders, actually gives our families 
maximum flexibility already.
    The review that I alluded to in my opening statement is a 
review that is designed to get at, are we applying the 
authorities that we do have, the resources that we do have, the 
flexibility that we do have in a way that ensures that the 
types of situations that both Joyce and Kathy have referenced 
do not need to occur.
    We are concerned about a law that says you may move within 
180 days in advance or afterward as being overly constraining 
because we believe that the policies we have in place today 
would allow moves to take place much further on either side of 
that line of demarcation. We are concerned about a law that 
might limit the bases for some family stability or family 
moving in advance to only childhood education or the spouse's 
employment. Today a spouse and a family can come forward for 
any reason and ask for additional flexibility to move on either 
side of that servicemember's report date.
    So those are just a few of the examples. We believe we have 
the flexibility, and we hope we are not restricting it by 
policies and the way that we are implementing them.
    Senator Gillibrand. I would like the two witnesses to 
respond to that answer because it sounds entirely farcical to 
me.
    Ms. Roth-Douquet. With a lot of respect, I have not seen 
that happen in real life ever. In my own life and those--we 
have 150,000 members in Blue Star Families, and that is not the 
experience of people on the ground.
    Ms. Raezer. I think a lot of times our servicemembers and 
families do not know what to ask.
    Senator Gillibrand. Did you ask to change your move date? I 
want to push back on that response. Did you ask to have 
accommodation when you had to move?
    Ms. Roth-Douquet. Well, there was no--right. We could not. 
It was not possible to change that date.
    Senator Gillibrand. I think everyone begs and pleads and 
gets a no.
    Ms. Raezer. Well, I think there are a lot who just--we tend 
to salute and move forward with what is best for the military, 
and so to provide options for families to make choices that are 
best for themselves is what our families are seeking. We 
believe that this is important.
    These are still tough family decisions, a family decision 
to separate, to have a servicemember go ahead or a 
servicemember wait behind and family go ahead, especially if 
you have been separated a lot for deployment. Those are still 
difficult situations, but the legislation would enable families 
to go in and say this is what is best for the family, and we do 
not have to fight the military to get what is best for our 
family. That is the piece that is so important.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Tillis. Thank you, Senator Gillibrand.
    Just going back to this topic, Ms. Barna, I appreciate your 
feedback on the policy or maybe some concerns. Hearing you all 
talk reminded me of that scene in that movie ``Cool Hand 
Luke,'' ``What we have is a failure to communicate.'' A part of 
what we are talking about is that the military families may 
make a decision not to push it because they are so accustomed 
to doing what they have been asked to do, that we have to 
create a culture where it is okay to say that $15,000 for my 
9th grader to be in school for 2 more months is probably 
something we should not impose on a man or woman in the 
military. Creating a culture where that is okay--you will 
always have abuses where it will become a matter of 
convenience. That is where the Department has to give us some 
sense of how we can strike the balance. But I do share Senator 
Gillibrand's concerns that right now we are not communicating 
the potentially negative impacts that we are having on families 
just because of a culture of doing what you have been asked or 
ordered to do.
    Ms. Raezer, I wanted to--first off, I wanted to thank 
Senator Gillibrand for her work and successfully preserving 
some of the TRICARE coverages for families with children with 
autism. I think it is critically important. It is an example of 
one of those things that a man or woman on the battlefield 
could be absolutely distracted by putting their life, the lives 
of their brothers and sisters in danger, and not letting them 
focus on the task at hand on the battlefield. I am glad that we 
were able to deal with that. Hopefully, we will not have to 
deal with that in the future.
    I did have a question, though, because you mentioned, I 
think, briefly the Exceptional Family Member Program. Why do 
you think a congressional mandate to put together a 
comprehensive plan--well, maybe you do not agree. It seems to 
me it is taking a little long to actually get that done. Do you 
share that opinion, and can you give me any idea why that is?
    Ms. Raezer. Yes, sir. We do think it has taken too long, 
and that is why we are coming to you. We are working with the 
Department of Defense Health Affairs on the ECHO program and 
the recommendation raised by the Military Compensation and 
Retirement Modernization Commission on aligning ECHO with 
Medicaid State waivers. It has just taken too long. Huge 
progress made on the autism therapies, but there are many other 
services that are covered by some of these waiver programs that 
our families cannot access. So we still have special needs 
families who are not getting the services they need through the 
Department of Defense or through a State program that are in 
limbo. So we need a push to move that through.
    Senator Tillis. Well, thank you. You know, I think that is 
a classic example. We have a program in North Carolina where we 
allowed families with special needs after a year in whatever 
school that they were assigned to of a parent deciding that 
they were not getting the treatment that they needed to 
actually apply for tuition assistance to take them to a 
specialized school.
    I think about your case, Ms. Roth-Douquet. It is very 
difficult to move a 9th grader. You said it was a daughter. 
Right? Particularly a 9th grade daughter away from any school, 
let alone a couple of months before the end. I've got one and 
did that. But when you have a parent or a family with a child 
with special needs that may be in the middle of an academic 
year, it is literally a loss of a year or more if they have 
gotten to a point of care that is helping the child.
    It may very well be--back to the original point about the 
bill Senator Gillibrand discussed, that we should think first 
by identifying unique categories that we can look at that 
really rise to a level to where you can move very quickly into 
figuring out what sorts of assistance we can provide or 
accommodation to ultimately allow a successful move. Maybe that 
is a way that we can start clawing this back and making 
progress on it. There I think we can do it in a way that would 
not be at odds with the Department who would have to oversee 
administration of it.
    The other thing, Ms. Barna, I wanted to ask you was as we 
are working with either men and women who are trying to get 
education as they are serving, what kind of work has been done 
to help facilitate the crosswalk of their military experience, 
mainly dictated by their MOS, and to experiential learning 
credits for an accredited institution so that you could help 
accelerate some of their academic progress through getting 
credit through the institutions? There are many of them today 
in increasing numbers. What kind of work are we doing to 
promote that and make that easier so that someone can apply for 
experiential learning credits to accelerate their time to a 
degree?
    Ms. Barna. Yes, Senator. You have to bookend the process, 
and I think we are doing some things on both ends. The first is 
to ensure that the classes, the coursework that every 
servicemember from the most junior grade to the most senior is 
required to take in the course of both his leadership 
development and the technical skill in which he or she works to 
try to find a way to quantify and qualify what those skills are 
in a way that a civilian institution of learning or 
credentialing or licensure can understand. We are actually 
working right now with RAND to come up with a way to translate 
those military skills into a listing of civilian skills so that 
the individual can present this is my coursework, these are the 
learning objectives that I achieved during that coursework, or 
this is my experiential learning taken from my job on a day-to-
day basis. Will you as the institution grant me credit for 
those particular experiences? So we have to work first with the 
servicemember to ensure that that translator is in place.
    Then we have to work with the institutions, and we are 
doing that too through our Transition to Veterans Program 
Office and through the Department of Veterans Affairs trying to 
work with institutions to help them understand on their side 
this is exactly what the servicemember is bringing to you and 
how they might equate to something that is worthy of credit 
that you would grant. So it really is a bookended process.
    Senator Tillis. Thank you.
    Senator Gillibrand?
    Senator Gillibrand. In 2013, the Under Secretary of Defense 
for Personnel and Readiness directed a top level review of the 
Department of Defense's Family Advocacy Program to prevent and 
respond to domestic abuse and child abuse and neglect. Recent 
press reports indicate that the number of incidents of child 
abuse in the military is increasing.
    Ms. Barna, what changes were made to the Family Advocacy 
Program as a result of the top level review of the program? 
What accounts for the increase in child abuse in military 
families, and how is the Department responding to the increase? 
Does the Department need any new legislative authority to 
address incidents of child and spouse abuse for military 
families?
    Ms. Barna. It is, of course, a very challenging question 
but a very necessary one. So I appreciate you asking it.
    As the result of the top level review that was really a 
multi-disciplinary review--it involved people from FAP. It 
involved teachers. It involved medical personnel, personnelists 
across the entirety of what we do in the Department of Defense. 
We took a good, hard look at how we were both preventing and 
responding to child abuse and neglect on our installations and 
in our military families. We came up with 87 on-the-spot, 
rapidly generated ideas that turned into 37 actual 
recommendations that we are implementing. The last meeting of 
what we call our Coordinated Care Response Unit was on January 
17th of this year. We continue to look at how those 
recommendations are being implemented and whether they are 
affecting our child abuse and neglect rates.
    As you mentioned, there has been a disturbing trend that we 
see. Certainly one can dicker over the numbers, but there has 
been a disturbing up-tick for our military families in terms of 
child abuse and neglect. Most of those cases we see fall into 
the child neglect realm.
    So we have deliberately targeted the prevention of child 
neglect, again with our youngest and most vulnerable parents, 
those who perhaps have not had prior experience, targeting them 
online and helping them to understand what distracted parenting 
means, what sleeping arrangements mean, what it means for a 
father who has been deployed for any number of months away from 
the family, returns to find a new child, how that father goes 
about actually bonding with that new child in a way that he may 
or may not have had an opportunity to do so before.
    So we have taken some very tactical actions that we hope to 
improve what is going on, the disturbing trend that we are 
seeing, and we have taken some overarching programmatic actions 
through our Coordinated Community Response Initiative.
    Senator Gillibrand. Do any of those recommendations need 
legislative authority?
    Ms. Barna. They do not at this time. But we are slated 
every 6 months to review how the recommendations are being 
implemented, to identify any impacts. So we certainly will come 
to you should we identify a need for legislative authority.
    Senator Gillibrand. Please do.
    Ms. Roth-Douquet and Ms. Raezer, what are you hearing from 
military families about child and spousal abuse, and what is 
your assessment of the effectiveness of the FAP program and any 
other efforts to address child and spousal abuse in the 
military?
    Ms. Raezer. I think we hear a lot from families who are 
worn out. Kathy has talked to some of the information that 
their survey--we are getting the same information. These are 
families who are stressed. We see this in the family programs 
we run where we bring families to an outdoor retreat to 
reconnect after a deployment. It is incredibly uplifting and 
painful at the same time to see these families try to come 
together again. There are stressors for the kids. There are 
stressors for the parents. There are new relationships to 
redevelop. So there is a lot going on.
    Where our concern lies in the DOD program is on the 
preventive end of the continuum. Programs like new parents 
support, health prevention programs, peer support, the whole 
range of services offered either in person by the installation 
or via Military OneSource. How do we connect families with 
resources early on when it is not a problem, and how do we 
maintain a focus and the provision and the resourcing and the 
capacity for all of these programs in times of tight budgets, 
when there are all of the continued deployments and trainings 
and rotations? It is a constant attention. When we get the 
research on the child abuse, we are too late. We have to do the 
prevention.
    Ms. Roth-Douquet. Thank you for asking this question. I 
agree. The majority is neglect. I would say it is related to 
the stress. I think you all can help us not by providing 
authority to DOD but by helping us connect through our 
communities. The problem is not something that can necessarily 
be changed with a law or a regulation. We have families who are 
moving repeatedly away from family and friends in a society 
that does not know them. Only 23 percent are living on base.
    Millennials prefer not to identify with a lot of official 
sources. They often do not want to get their information or 
their resources from official sources. That means they do not 
want to get it from DOD. Your Baby Bundles program--that is 
what they want to get it from and not just that one time, but 
they want to actually know people in their community who can 
help them.
    Blue Star Families has a program called Blue Star Neighbors 
where we celebrate the neighbors who make a difference in 
military family lives. Almost all of the stories people tell us 
are around a neighbor who helped them during a deployment where 
they felt they were going to fall apart, and this person 
stepped in and was part of our family. There are not enough 
Americans who know how to do that. There are not enough places 
in each of our communities where military people can get to 
know non-military people. We often just talk to each other. We 
cannot give each other the kind of support we need. You all can 
help us with that, not with the DOD but with the communities.
    Senator Gillibrand. Since I am out of time, I want to ask 
one question for the record. I described earlier--and you were 
all here--the fact that in some years more than half the 
victims of sexual violence are wives and spouses. Then a good 
number of them, close to half, actually withdraw their 
complaint in the first year. You have to imagine if you have 
actually filed a complaint, it means you filled out the 
paperwork that your husband has beaten you or sexually 
assaulted you. You have actually disclosed his name publicly. 
So it took a lot to do that. For them to withdraw from the 
investigation within a year, a lot would have had to have 
happened.
    Can you please make recommendations to me about what you 
would like to do to fix that problem to, number one, address 
the issue of the high volume, the fact that they are not 
counted in the survey, unless they report, they are not part of 
the estimation, and then what we can do to secure justice? If 
they withdraw their investigation, unlike a civilian 
prosecutor, the military drops the case. Whereas a DA might go 
after a serial rapist no matter what, it is not going to happen 
in the military if the accuser withdraws. Can you please spend 
some time thoughtful thinking? Because I would like to begin to 
address this problem more thoughtfully. I am not sure what the 
solution is, but each of you have a perspective that I think 
would be invaluable. Thank you.
    Senator Tillis. Well, thank you, Senator Gillibrand.
    I want to thank the panelists for being here today. This is 
the beginning of a dialogue, not just a meeting where we go 
away, but I hope that you take us up on our offer to get 
feedback and responses to the questions that we will have for 
the record, but also reach out to our offices to make sure that 
we are asking--you know, you are offering up material that we 
are not thinking about because I think we are all committed to 
doing the very best we can for men and women in the military 
and their families.
    Anyone who would want to submit any sort of statements for 
the record or other documents, without objection, we will 
accept those statements as a part of the committee record.
    Again, we appreciate you being here, your service to men 
and women and their families. I also just want to make sure 
that I in particular spend a little bit more time understanding 
what more I can do, as a Senator from North Carolina with one 
of the larger military presences in the United States, to help 
get that word out that this is something that we need our need 
our communities to fully embrace and embrace the men and women 
that are serving our country and their families. So thank you 
all for being here.
    The meeting is adjourned.
    [Whereupon, at 4:11 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow 
(Panel 1):]

          Questions Submitted by Senator Kirsten E. Gillibrand
    1. Senator Gillibrand. Sergeant Cody, Sergeant Dailey, Chief 
Giordano, and Sergeant Green, for the past few years, I have been 
requesting sexual assault case files from four of the largest U.S. 
bases--one per service. One of the issues that my staff and I have 
found in looking through the files is the high number of military 
family survivors. Despite being reported as unrestricted, these cases 
are often withdrawn within the first year of the investigation. Further 
many cases of spousal abuse are reported separately as part of the 
Family Advocacy Program and are treated as a counseling rather than 
military justice issue. Why are spouses not surveyed as part of the 
biannual prevalence survey? How can we ensure that spousal and child 
sexual abuse are treated as military justice issues? What measures can 
we put in place to make it easier for military family members to see 
through the military justice process to completion?
    Sergeant Cody. The Family Advocacy Program (FAP) and military 
justice process have two very distinct purposes. The FAP aims to 
strengthen family functioning in a manner that increases the competency 
and efficacy of military families. The military justice process is 
aimed at holding airmen accountable for criminal misconduct while 
honoring due process rights. In addition to having different purposes, 
the standards used to substantiate allegations of interpersonal 
violence are separate and distinct. With that distinction in mind, we 
answer your questions below.
    There are multiple mechanisms to ensure spousal and child sexual 
abuse are brought within the military justice process. FAP assesses and 
tracks allegations of physical or emotional abuse via the Control 
Registry Board (CRB).
    In addition to the CRB, SG [Surgeon General] and JA [Judge 
Advocate] components liaise on matters of familial interpersonal 
violence in a number of other contexts, to include the Community Action 
Information Board (CAIB), the High Risk Response Team (HRRT), and the 
Combined Sexual Assault Response Team (CSART). All of these bodies 
include membership from command, law enforcement, medical/mental health 
services, and installation legal offices. Department of Defense and Air 
Force instructions currently require the FAP notify Security Forces, 
the Office of Special Investigations, and the base legal office 
immediately on every child sexual abuse referral and every unrestricted 
report of spouse/intimate partner sexual abuse. Additionally, the base 
legal office assists law enforcement in determining jurisdiction and 
framing any investigative plan. Judge Advocates partner with law 
enforcement throughout the course of any criminal investigation. 
Finally, the Air Force FAP is also required to give the adult sexual 
abuse victim or non-offending caregiver of a child sexual abuse victim 
the name and contact information of the Special Victims' Counsel (SVC) 
for that installation. The SVC advises those eligible victims referred 
to the SVC program of their rights, and advocates their clients' 
interests, throughout the military justice process.
    In addition to SVCs for eligible dependents, FAP assigns a domestic 
abuse victim advocate (DAVA) to adult victims of spouse/intimate 
partner sexual abuse. The non-offending parent of a child sexual abuse 
victim will also receive a DAVA to assist them in meeting the needs of 
the child victim. On the military justice side of the equation, Air 
Force Victim Witness Assistance Program (VWAP) personnel help the 
victim understand the military justice process and ensure they are 
aware of their rights and benefits, such as transitional compensation 
for abused dependents. The VWAP liaison, a JAG [Judge Advocate General] 
or paralegal from the base legal office with jurisdiction over the 
offense, provides updates to the victim, either directly or through 
counsel, and serves as an additional victim resource in answering 
questions and facilitating victim participation in the military justice 
process.
    Air Force policy and instructions exist as formal guidance to 
ensure the Air Force Surgeon General functional community deliberately 
connects and intersects with the Legal and SVC community in cases of 
spousal or child sexual abuse. While SVCs advocate on behalf of the 
victim's interests, many times they serve as the link to the military 
justice system in cases of family abuse. Examples of policy and 
codified guidance are found in NDAA 2016 and AFI 40-301, Family 
Advocacy. Excerpts noted below.
    NDAA 2016 mandates: ``Timely Notification to Victims of Sex-Related 
Offenses of the Availability of Assistance from Special Victims' 
Counsel Subject to such exceptions for exigent circumstances as the 
SecDef may prescribe, notice of the availability of a Special Victims' 
Counsel under section 1044e of this title shall be provided to a member 
of the Armed Forces or dependent who is the victim of sexual assault 
before any military criminal investigator or trial counsel interviews, 
or requests any statement from, the member or dependent regarding the 
alleged sexual assault''.
    AFI 40-301:
    2.2.4.4. The FAP Providers will inform child sexual assault or 
other sexually related offense victims and non-offending parents of the 
availability of a Special Victims Counsel (SVC) as soon as the member 
or dependent seeks assistance.
    2.2.9.3.3. If a potential for ongoing violence exists the SARC and 
FAP will explain to the victim that this risk requires the case be 
referred to FAP. The SARC and FAP will also ensure the victim is 
immediately aware of all services available to help him(her) and 
understands the concept of informed consent that enables the victim to 
include anyone (for example, an SVC, friend, family member, co-worker, 
chaplain) they choose in appointments regarding their assault. Note, 
however, that only communications with an SVC or chaplain are 
privileged and protected by law. The SARC and FAP will ensure the 
victim understands that he(she) can adjust/modify his (her) consent to 
these participants as he(she) feels necessary/ comfortable throughout 
the process without the fear of losing access or support from any 
supporting entity.
    The Department of Defense (DOD) does not support conducting 
workplace and gender relations surveys of military dependents [or DOD 
contractors], such as the biannual prevalence survey. To address a 
provision of the fiscal year 2015 National Defense Authorization Act, 
DOD reported on the feasibility of conducting workplace and gender 
relations surveys of military dependents [and DOD contractors] on 
issues relating to gender-based assault, harassment, and 
discrimination. The review, titled Department of Defense (DOD) Report 
on the Feasibility of Conducting Recurring Workplace and Gender 
Relations Surveys of Military Dependents and Contractors of the DOD, 
indicated that conducting a Workplace and Gender Relations survey, 
similar to that conducted of military personnel, is problematic for 
both the military dependent and DOD contractor populations for several 
reasons:

    <bullet>  The definition of a military dependent is extremely broad 
and diverse. Military dependents may reside with the servicemember or 
live far removed; they may live on an installation or in a residential 
neighborhood; or they may be within the United States or living abroad, 
all of which complicate the identification of, and access to, the 
population for purpose of survey.
    <bullet>  Reaching and surveying minor dependents, or those with 
major medical issues (e.g., intellectual disabilities) may be viewed as 
an unnecessary burden on the dependent, as well as the military sponsor 
or legal guardian.
    <bullet>  Issues relating to how the survey would be administered 
and what action DOD could take to address perceived problems in 
private, non-DOD workplaces, over which DOD has no control, would need 
to be resolved.
    <bullet>  The logistics and methodology of conducting a survey of 
DOD contractors would be very costly to the Department. There is no 
reasonable way to identify how many people, at any given time, are 
included in the contractor employee population.

    The Department did survey military spouses as part of the 2010 
National Intimate Partner and Sexual Violence Survey (NISVS) Military 
Report, conducted by the Centers for Disease Control and Prevention. 
Results of that survey were released in 2013. Overall, the prevalence 
of intimate partner violence, sexual violence, and stalking were 
similar among women in the U.S. population, Active Duty women, and 
wives of Active Duty men.
    DOD is currently participating once again in the 2017 NISVS. 
Participation in the NISVS allows the Department to assess the 
prevalence of both intimate partner violence and sexual assault rates 
within the Active force and their family members, and also understand 
how these problems differ with respect to the general civilian 
population. Historically, NISVS survey results are released about 3 
years after survey completion.
    Additional Measures the Air Force is exploring:

    1)  Education and Awareness program for at-risk families
    2)  Use of standardized assessment ``intake cues'' to inform 
patients of the SVC program
    3)  Standardized workflow or encounter documentation that includes 
OSI and JA notification
    4)  Mechanisms to confidentially capture data to
      a)  measure family members' acceptance or declination of SVC 
support
      b)  number of confirmed abuse cases that entered justice system
      c)  survey to discern reasons why military justice process not 
completed

    Within the new Interpersonal Self-Directed Violence (ISDV) 
strategy, the capability will exist to identify barriers and develop 
guidance to improve medical and legal processes for victims in an 
integrated manner without sacrificing functional-specific authority. 
The strategy also includes a new requirement for an Informatics 
Specialist whose expertise will be utilized to identify information 
management requirements, barriers and data mining methodologies 
necessary to produce relevant and comprehensive reports that reflect 
information from diverse response sources involved in family violence.
    Sergeant Dailey. The Workplace and Gender Relations Survey of 
Active Duty members is administered by the Office of the Secretary of 
Defense (OSD), Defense Manpower Data Center. This is the survey used by 
the Department of Defense (DOD) to estimate the prevalence of 
``unwanted sexual contact.'' Questions regarding the feasibility of 
including military dependent spouses in that survey should be directed 
to OSD. Independent, external, and comprehensive studies have measured 
the prevalence of sexual violence against military spouses. In 2013, a 
study published by the Centers for Disease Control and Prevention 
(CDC), ``Prevalence of Intimate Partner Violence, Stalking, and Sexual 
Violence Among Active Duty Women and Wives of Active Duty Men--
Comparisons with Women in the U.S. General Population'' concluded that 
wives of Active Duty servicemembers were less likely to have 
experienced physical violence, rape, or stalking by an intimate partner 
during their lifetime and less likely to have experienced lifetime 
contact sexual violence from any perpetrator than women in the general 
civilian population. The CDC identified factors that have resulted in 
reduced risk of violence for servicemembers and spouses, such as access 
to health care, stable housing, family support services (e.g., Family 
Advocacy Programs), and having at least one fully employed family 
member. The Department is again participating in the CDC's 2017 
National Intimate Partner and Sexual Violence Survey (NISVS) to 
determine the prevalence of intimate partner among the military and the 
general population for comparison purposes. Participation in the NISVS 
allows the Department to assess the prevalence of both intimate partner 
violence and sexual assault rates within the Active force and their 
family members, and understand how these problems differ with respect 
to the general civilian population. Allegations of child sexual abuse 
and unrestricted reports of sexual assault within an intimate partner 
relationship committed by soldiers are reported to law enforcement and 
addressed in the military justice system. Any referrals, counseling, or 
intervention services offered to families after reports of sexual 
assault or abuse are separate from independent law enforcement 
investigations conducted by the felony-level, specially trained sexual 
assault investigators within the Army Criminal Investigation Command, 
who work closely with special victim prosecutors. Completed 
investigations are forwarded to commanders for disposition based on the 
advice of special victim prosecutors and trial counsel. The Army 
provides comprehensive, compassionate support to victims of child abuse 
and sexual assault within an intimate partner relationship. In addition 
to medical care and behavioral health services, all dependent victims 
are offered victim advocacy services by personnel required to possess a 
Bachelor's Degree in one of the social sciences and a minimum of 2 
years of experience in domestic violence, sexual assault, or family 
violence. Victim advocates provide 24/7 support and assist victims with 
safety planning, information and referral, and support as long as the 
victim requests these services. In addition, all dependent victims of 
sexual assault are entitled to be represented by a special victim 
counsel throughout the investigative and judicial proceedings. For any 
victim who is a DOD dependent, the Army provides a civilian GS-11 level 
Special Victim Witness Liaisons (SVWL), who works directly for the 
prosecutors. SVWLs are paralegals with extensive social work experience 
and educational backgrounds. SVWLs assist all victims, regardless of 
status, through military justice proceedings, including accompanying 
victims to interviews and proceedings, educating victims on the 
military justice system, and providing referrals for counseling 
services. Finally, in the event that a soldier is involuntary separated 
from Active Duty as a result of a court-martial or an administrative 
separation due to a dependent abuse offense, the Army provides family 
members Transitional Compensation under 10 United States Code, Section 
1059. Transitional Compensation consists of a monthly monetary stipend, 
continued entitlement to military health care and behavioral health 
services, and commissary privileges for 3 years after separation. It is 
an incentive for families of domestic violence and child abuse to 
report abuse and cooperate with military justice prosecutions without 
fear of lost family income and an opportunity to ``transition'' from a 
military to civilian lifestyle. Since 1995, the Army has processed more 
than 2,700 Transitional Compensation cases and awarded over $100 
million in financial benefits to eligible beneficiaries.
    Chief Giordano. Why are spouses not surveyed as part of the 
biannual prevalence survey? The biannual DOD Workplace and Gender 
Relations Survey (prevalence survey) is designed to solicit information 
on gender issues--including issues relating to gender-based assault, 
harassment, and discrimination--and the climate within DOD for forming 
professional relationships between male and female employees of the 
Department. The focus is specifically on the workplace environment and 
thus does not survey spouses of military members. As an alternative, 
the Department surveyed military spouses as part of the 2010 National 
Intimate Partner and Sexual Violence Survey (NISVS), conducted by the 
Centers for Disease Control and Prevention. Overall, the prevalence of 
intimate partner violence, sexual violence, and stalking, were similar 
among women in the U.S. population, active duty women, and wives of 
active duty men. Notably, women in both military samples showed a 
decreased risk of intimate partner violence, contact sexual violence by 
an intimate partner, and stalking than women in the general population. 
The Department is currently participating in the 2016 NISVS, the 
results of which we expect to report next fiscal year. Participation in 
this national survey allows the Department to assess the occurrence of 
both intimate partner violence and sexual assault rates within the 
active force and their family members, and to understand how these 
problems compare with respect to the US population in general.
    Spousal and child sexual abuse cases are treated as military 
justice issues, and are subjected to the same investigative rigor, 
review, and disposition as sexual assault cases falling under the 
Sexual Assault Prevention and Response (SAPR) program. For example: 
Department of Defense Instruction (DODI) 6400.01 requires all suspected 
cases of child abuse and neglect, and unrestricted reports of spouse 
abuse, to be reported to law enforcement and civilian child protective 
services. Restricted reports of spouse abuse must be reported if 
required by Federal or State statute, or applicable U.S. international 
agreement, or when disclosure is necessary to prevent or reduce a 
serious and imminent threat to the health or safety of the victim or 
another person. All unrestricted reports and restricted reports filed 
as stated above are investigated by the Military Criminal Investigative 
Organizations (MCIO). DODI 5505.18 requires MCIOs - for the Navy, that 
means the Naval Criminal Investigative Service (NCIS)--to investigate 
all allegations of adult sexual assault (chargeable under Art 120 
UCMJ), including those perpetrated by a spouse or intimate partner, of 
which they become aware. These cases are handled by Special Victim 
Investigators and Prosecutors (SVIP). SVIP capability is governed by 
DODI 5505.19. Dependent victims and intimate partner victims may be 
eligible for representation by a Victims' Legal Counsel throughout 
their case. The Family Advocacy Program (FAP) is designed to provide 
clinical assessment, treatment and services for military members and 
their families involved in allegations of domestic abuse and child 
abuse. The goals of victim safety and well-being and offender 
accountability form the basis of the clinical provider's work in 
responding to allegations of domestic abuse and child abuse. The 
distinction between FAP cases and SAPR cases lies in the type of care 
provided. For instance, FAP might provide child sexual abuse victims 
specialized care, beyond that which SAPR Victim Advocates (VA) or 
Sexual Assault Response Coordinators (SARC) may be trained to provide. 
Similarly, FAP provides care and treatment to a larger family unit, 
recognizing that a child may be affected by a spousal abuse case, or 
that spousal abuse, particularly long-term abuse, may require a 
different type of clinical care than other types of abuse falling under 
the SAPR program. FAP focuses on clinical services, while ensuring the 
case is referred to NCIS and the appropriate disposition authority for 
potential prosecution, as would any SAPR case. The overwhelming 
majority of cases of domestic abuse and child abuse involving a 
military offender fall under the jurisdiction of local authorities and 
that of the military. In those cases convened by the military convening 
authority, in accordance with FY15 NDAA Sec. 534, the convening 
authority will consider any victim preference that the case be tried by 
civilian authorities who have concurrent jurisdiction with the military 
over an offense. What measures can we put in place to make it easier 
for military family members to see through the military justice process 
to completion? It is important to acknowledge that there are many 
measures currently in place that assist military family members through 
the military justice process and beyond. Commanding Officers can issue 
Military Protective Orders against abusive active duty members, which 
are reported to civilian law enforcement authorities as well. These 
orders preclude all unauthorized contact with the victims. If an active 
duty military member is abused by a civilian dependent, the 
installation Commanding Officer can limit or bar the civilian 
dependent's access to the installation. Dependent spouses may seek 
legal assistance for advice on matters such as powers of attorney, 
wills, divorce, child custody, and landlord-tenant issues. Eligibility 
for Victims' Legal Counsel (VLC) services extends to victims of sexual 
offenses who would otherwise be eligible for legal assistance services 
from a military attorney. This includes Navy active-duty and reserve 
personnel, other service personnel and retirees when assaulted by an 
active-duty Navy perpetrator, adult and minor dependents of active-duty 
Navy members when assaulted by an active-duty member, and Department of 
Defense civilians. VLC began providing services to minor dependents 
assaulted by active duty perpetrators on June 24, 2014 as directed by 
the FY14 NDAA. VLC services are available to victims filing Restricted 
Reports, Unrestricted Reports, or declining to file an official report 
of sexual assault. Under certain circumstances, dependents (i.e., 
children and spouses) and former spouses, who are victims of abuse by 
retirement-eligible active duty members who lose their entitlement to 
retired pay, are protected under the Uniform Services Former Spouses 
Protection Act (USFSPA). USFSPA will allow the spouse, if there is a 
court order dividing military retired pay as marital property, to 
receive a portion of the monthly retirement pay to which the member or 
former member, otherwise, would have been entitled. To qualify, the 
spouse must have been married to the active duty member for at least 10 
years, and the member must have been on active duty for at least 10 
years of their marriage. While receiving payments, the former spouse is 
also entitled to receive medical and dental care, use commissaries and 
exchanges, and to receive any other benefits to which they would have 
been entitled had the couple remained married and the active duty 
member retired. If a Navy dependent is not eligible for USFSPA 
protections, they may be eligible for up to 36 months of Transitional 
Compensation for the abuse. Transitional Compensation benefits extend 
to dependent children, including children born alive who were in utero 
at the time of the abuse. To be eligible for Transitional Compensation 
payments, the service member must have been on active duty for at least 
30 days, and: have been convicted of a dependent-abuse offense that 
resulted in separation pursuant to a court-martial sentence or 
forfeiture of all pay and allowances, have been administratively 
separated on the basis of a dependent-abuse offense, or have committed 
a dependent-abuse offense, but was separated from the Navy for other 
reasons (depending on the reason).
    Sergeant Green. How can we ensure that spousal and child sexual 
abuse are treated as military justice issues? Sexual Assault Prevention 
and Response (SAPR) personnel are available to provide immediate crisis 
response and advocacy to all victims of sexual assault as well as 
conduct a warm-hand off to the appropriate resource, civilian or 
military. Spouses and adult military dependents who are eligible for 
SAPR services receive the same SAPR advocacy and referral support as 
our military members. The Workplace and Gender Relations Survey (WGRA) 
is a congressionally-mandated survey conducted by the Office of People 
Analytics (formerly Defense Manpower Data Center). It measures the 
prevalence of sexual assault for military members, but does not include 
spouses. The Marine Corps does not determine the eligibility 
requirements for the WGRA. Data on the prevalence of sexual assault for 
military spouses is available. Spouses are surveyed in the National 
Intimate Partner and Sexual Violence Survey (NISVS). This survey is 
conducted by the Centers for Disease Control and Prevention (CDC) in 
collaboration with the Department of Defense (DOD). DOD participated in 
the 2016 NISVS and expects to have results to report during fiscal year 
(FY) 2017. Last conducted in 2010, the CDC found that overall, the 
prevalence of intimate partner violence, sexual violence, and stalking 
were similar among women in the United States population, Active Duty 
women, and wives of Active Duty men. Cases of spousal abuse are 
reported to the Family Advocacy Program (FAP) and cases involving non-
domestic adult sexual assault fall under the SAPR Program. Non-domestic 
sexual assault occurs outside of the marriage, home, or involves 
someone other than a spouse or intimate partner. FAP and SAPR work 
collaboratively to ensure that all victims of sexual abuse/assault 
receive advocacy and supportive services. SAPR's mission is to 
eliminate the occurrence of sexual assault by strengthening a culture 
of prevention through risk reduction; education and training; response 
capability; victim support; reporting procedures, and offender 
accountability, as appropriate; which in turn enhances the safety and 
well-being of all. FAP aims to prevent and reduce family violence and 
ensure a community-coordinated response to child abuse and intimate 
partner abuse. FAP provides services to eligible beneficiaries of 
Military Treatment Facilities (MTF). Victims who are not eligible for 
services at an MTF are provided crisis intervention, safety planning 
services, and referrals to civilian agencies for assistance. 
Unrestricted reporting of domestic abuse is for adult victims of 
domestic abuse who wish to pursue an official investigation of the 
alleged incident(s) of abuse with USMC command and/or law enforcement 
involvement. Restricted reporting affords adult victims access to 
medical care, victim advocacy, and counseling services without USMC 
command or law enforcement involvement. All reports of child abuse are 
unrestricted reports. FAP reports all incidents of child abuse to the 
local child protective service agency and to the Provost Marshal's 
Office (PMO). In cases of sexual abuse, a FAP Victim Advocate or a FAP 
clinical counselor facilitates a warm handoff to the Victim Witness 
Assistance Program for adult victims and non-offending parents who are 
military beneficiaries to provide information on the military justice 
process. FAP or the Behavioral Health Community Counseling Program is 
available to provide counseling services to all military beneficiary 
victims of abuse. Offender treatment is also available to eligible 
beneficiaries. Department of Defense Instruction (DODI) 6400.01, Volume 
1, Enclosure 3 requires all suspected cases of child abuse and neglect 
to be reported to law enforcement and civilian child protective 
services. Law enforcement (in either the civilian or military 
community, dependent on jurisdiction) and civilian child protective 
services investigate cases. The appropriate legal entity determines 
which cases to prosecute. All unrestricted reports of domestic abuse 
and all reports of child abuse are treated as military justice issues. 
Each reported violation of Article 120, Uniform Code of Military 
Justice (UCMJ) (Rape and sexual assault) or Article 120b, UCMJ (Rape 
and sexual assault of a child) requires involvement of the 
installation's Special Victim Capability (or Special Victim 
Investigation and Prosecution (SVIP) capability), which includes 
Special Victim Trial Counsel, specially trained Military Criminal 
Investigative Organization (MCIO) investigators, and the O-6 or higher 
commander entrusted to act as Sexual Assault-Initial Disposition 
Authorities (SA-IDA). Each allegation of sexual assault or abuse is 
thoroughly investigated by the MCIO and reported to the SA-IDA, who 
reviews the investigation and determines the appropriate command action 
to take. Reported instances of spousal and child sexual abuse require 
commanders to consider various factors that do not exist in cases of 
non-intimate partner adult sexual assault. As with victims of adult 
sexual assault, victims of spousal abuse have to balance sometimes 
competing interests involving their privacy, time, community/social 
dynamics, mental health, and pursuit of criminal accountability for the 
offender. Additionally, victims of spousal abuse make these decisions 
in the context of a marriage and family. A victim may determine that 
going through the military justice process is not in his or her best 
interest or in the best interest of the child or children involved. 
Similar considerations apply to some child sexual abuse cases where a 
parent or close family member is the offender; however, in those cases 
the factors supporting military justice action tend to be stronger, 
both for victim(s) and the commander who is the SA-IDA. When 
determining whether to court-martial a servicemember accused of assault 
or abuse of a family member, commanders are required to consider the 
views of the victim(s) and are encouraged to honor those victim 
preferences. In some cases, however, the spouse and/or child victim of 
the sexual abuse or assault does not want the situation to be treated 
as a military justice issue. In recent years Congress, DOD, and the 
Marine Corps made changes to ease the burden on victims seeing the 
military justice process to completion. These include significant 
changes to procedures and policies, new programs, and additional 
resources to support crime victims, especially victims of sexual 
offenses. These changes limit the scope/purpose of the Article 32 
Pretrial Hearing, allow the victim to decline to testify at the Article 
32, and create Special Victims' Counsel (``Victims' Legal Counsel'' in 
the Marine Corps) to assist eligible victims. These and other changes 
increased the information, protections, and rights afforded to victims 
while empowering them to choose whether and how to participate in the 
military justice process. In some situations, victim empowerment 
increases the victim's willingness to participate in the military 
justice process. In other situations, victim empowerment--including 
more information, procedural choices, legal counsel, command interest/
support, and other supportive resources--increases the victim's 
willingness to exercise options other than the military justice 
process. Given the many recent changes to victim support, services, and 
rights and to the military justice process, the Marine Corps recommends 
allowing time to analyze the impact of changes before moving forward 
with implementing additional measures or changing existing policies, 
programs, or procedures. From both a legal and policy perspective, the 
Marine Corps' focus remains on supporting and assisting victims of 
sexual assault and abuse, regardless of whether they initially or 
ultimately choose to participate in the military justice process.

    2. Senator Gillibrand. Sergeant Cody, Sergeant Dailey, Chief 
Giordano and Sergeant Green., in 2015, FAP counted 5,378 child abuse 
and neglect victims in military families but claim they only receive 
reports on approximately 25 percent of the cases. How can we raise the 
number of reports filed? Is there a problem with the process that 
requires attention?
    Sergeant Cody. The reference to Family Advocacy Program (FAP) only 
receiving reports in 25 percent of child abuse cases comes from an Army 
official regarding the Children's Hospital of Pennsylvania Army-
specific study that involved only Army cases at Military Treatment 
Facilities from 2004-2007. There are plans for a future Army study. The 
Air Force has no data that would suggest a 25 percent estimate is 
consistent across the Air Force or the DOD. \*\
---------------------------------------------------------------------------
    \*\ http://policylab.chop.edu/article/under-ascertainment-
healthcare-settings-child-abuse-events-among-children-soldiers-us-army
---------------------------------------------------------------------------
    Section 1787 of title 10 states, ``The Secretary of Defense shall 
request each state to provide for the reporting to the Secretary of any 
report the state receives of known or suspected instances of child 
abuse and neglect in which the person having care of the child is a 
member of the Armed Forces (or the spouse of the member).''
    While the Department is required to notify civilian authorities of 
all allegations, civilian child welfare staff is not required by law to 
notify the appropriate military authorities if they receive reports 
involving military families; and therefore, some incidents may be 
unknown to the Services.
    To address this gap, the DOD State Liaison Office is working to 
educate states about the need for state legislation to require civilian 
child welfare agencies to notify appropriate military authorities when 
they receive reports of child abuse and neglect involving military 
families. To date, ten states (ID, IL, IN, MT, NJ, OK, SC, VA, WA, WY) 
have passed legislation or revised state policy to require state child 
welfare agencies to identify and report cases involving military 
families to appropriate local military authorities. An additional eight 
states (AL, AR, CO, CT, GA, MD, OR, TX) have proposed bills currently 
being considered by their legislatures.
    Additionally, the fiscal year 2014 NDAA included child sexual 
assault victims as an eligible category of victims to receive Special 
Victims' Counsel (SVC) services. Since that time, the Air Force's SVC 
program has represented over 80 child victims. SVCs will continue to 
support these victims through the military justice process and 
associated legal assistance issues as the cases are referred to the SVC 
program from Family Advocacy.
    Sergeant Dailey. Army Regulation 608-18 (The Army Family Advocacy 
Program (FAP)) requires military and civilian professionals to report 
suspicions of child abuse/neglect to include violations of applicable 
child protection laws (for example, school attendance laws) or wanton 
disregard or malicious intent on the part of the parent to FAP child 
protective services (CPS) and law enforcement commanders are required 
to report suspected child abuse to the FAP reporting point of contact 
and provide relevant information to those investigating the report, 
including law enforcement agencies and CPS. Personnel in education, 
health care, and childcare are also required to report to FAP. We 
anticipate increased child abuse reporting as a result of the fiscal 
year 2017 NDAA, Section 575 (Reporting on Allegations of Child Abuse in 
Military Families and Homes), which requires members of the chain of 
command to report child abuse/neglect to the local CPS or state social 
service agencies, in addition to FAP. The Army has directed their 
Family Advocacy Program Managers to incorporate the new mandate in 
command and stakeholder training to ensure Army-wide compliance. DOD 
and the Army require mandatory reporting of child abuse/neglect to 
community-based CPS and FAP, and child abuse/ involving violations of 
applicable child protection laws (for example, school attendance laws) 
or wanton disregard or malicious intent on the part of the parent to 
law enforcement. However, a gap in reporting exists and requires 
further attention because our civilian CPS counterparts are not 
required to reciprocally report suspicions or founded child abuse and 
neglect cases to the military. To attempt to close this gap, DOD is 
working to educate states about the need for state legislation to 
require civilian child welfare agencies to notify the military 
authorities when they receive reports of child abuse and neglect 
involving military families. So far, ten states have passed legislation 
or modified state child welfare policy requiring state child welfare 
agencies to identify when they are working with military families and 
to report it to appropriate local military authorities. Additional 
states are considering revising existing legislation to require 
reporting to the military when appropriate.
    Chief Giordano. How can we raise the number of reports filed? 
Existing programs and tools already serve to encourage reporting, but 
must be re-emphasized, publicized, and rigorously employed. Victims 
must be assured that the benefits of reporting clearly outweigh the 
potential costs. They must know that they will not suffer further abuse 
or financial hardship as a result of reporting. The objective of 
protecting victims from further abuse as result of reporting are 
accomplished by the issuance of military protective orders and orders 
barring civilian perpetrators from access to victims. Access by victims 
to Victims Legal Counsel, legal assistance officers, and the Family 
Advocacy Program (FAP) likewise afford avenues for protection and 
redress for the immediate effects of domestic abuse. The risk of 
financial hardship can be avoided or mitigated through the Uniform 
Services Former Spouses Protection Act (USFSPA) and/or the Transitional 
Compensation Program for victims of domestic abuse. Effective 
utilization of these existing programs serves to remove barriers and 
disincentives to reporting. Some barriers to DOD receiving reports of 
domestic abuse, however, currently exist. Specifically, domestic abuse 
that occurs outside of a DOD installation and is reported to civilian 
authorities is often not reported to DOD. While DOD employees are 
required to notify civilian authorities of all allegations of child 
abuse and neglect, their civilian, non-DOD affiliated counterparts are 
not all legally required to notify DOD authorities of reports of child 
abuse or neglect involving military families that are filed with civil 
authorities. Consequently, FAP is unable to determine the number of 
reports made directly to civilian authorities. Title 10, United States 
Code, Section 1787 provides that, ``The Secretary of Defense shall 
request each state to provide for the reporting to the Secretary of any 
report the state receives of known or suspected instances of child 
abuse and neglect in which the person having care of the child is a 
member of the Armed Forces (or the spouse of the member).'' If federal 
law were amended to require States to disclose to DOD, civil reports of 
child abuse involving military families, it would likely increase the 
number of reports DOD receives, and to which it could respond by 
protecting victims from further abuse and ensuring that investigative 
and, if appropriate, prosecutorial steps are taken.
    Is there a problem with the process that requires attention? DOD 
continuously strives to improve efforts to reduce instances of child 
and spouse abuse. Once reported, the Manual for Courts-Martial requires 
commanders to investigate all cases, and felony cases must be referred 
to NCIS, the Military Criminal Investigation Organization (MCIO) for 
the Navy, for investigation. The programs and services available to 
assist victims once an incident of domestic violence is reported are 
comprehensive, and the military justice system that works concurrently 
with civilian jurisdictions in holding offenders accountable is robust. 
As for the problem of domestic cases reported to civilian authorities, 
unknown to the military, the Department of Defense State Liaison Office 
is working to educate the States about the need for enactment of State 
legislation that would require civilian child welfare agencies to 
notify appropriate military authorities when they receive reports of 
child abuse and neglect involving military families. To date, seven 
States have enacted legislation requiring State child welfare agencies 
to identify when they are working with military families and report it 
to appropriate local military authorities. Other States are 
incorporating this requirement into their State welfare policy and are 
considering introducing proposals to amend current State laws to 
require notification to local military authorities.
    Sergeant Green. One potential gap is Child Protective Services 
(CPS) fails to report all incidents involving Marine Corps 
servicemembers and DOD-affiliated personnel. FAP is required to report 
all incidents of child abuse and neglect to CPS and the PMO; however, 
CPS is not required to report incidents of child abuse to FAP and/or 
CPS staff may not be aware that the family referred for a child abuse 
incident is military-affiliated. USMC installation FAPs establish 
Memoranda of Understanding (MOU) with CPS and other authorities in the 
civilian jurisdiction(s) adjoining the Marine Corps installation to 
include law enforcement agencies, courts, shelters, and other agencies. 
This ensures a community coordinated response to child abuse and 
domestic violence reports. FAP educates CPS on the importance of asking 
families referred for child abuse and neglect if they are in the 
military service so that CPS can notify FAP of the child abuse 
incident. Not all CPS agencies cooperate with reciprocal reporting of 
incidents. Section 1787 of title 10 states, ``The Secretary of Defense 
shall request each state to provide for the reporting to the Secretary 
of any report the state receives of known or suspected instances of 
child abuse and neglect in which the person having care of the child is 
a member of the Armed Forces (or the spouse of the member).'' To 
address this challenge, the OSD Defense State Liaison Office is working 
to pass state legislation and establish MOUs related to child abuse and 
neglect information-sharing with FAP. As of 31 January 2017, nine 
States have made statutory, policy changes or passed statewide MOUs, 
with seven more working toward change. Another potential gap in 
reporting incidents of child abuse and neglect to FAP may be attributed 
to child deaths that are ruled accidental by a competent medical 
provider even though the fatality may be related to factors such as 
unsafe sleep practices or a lack of supervision by the caregiver. To 
address this potential gap, installation FAP staff develops 
relationships with the Naval Criminal Investigative Service (NCIS) to 
ensure that all military and DOD civilian child abuse and neglect 
incidents, including child fatalities, are reported to FAP. Department 
of Navy (DON) FAP provides training to NCIS agents on child abuse and 
neglect, the importance of thoroughly investigating child deaths, and 
reporting all deaths involving young children to FAP. NCIS training by 
DON FAP was updated in fiscal year 2016 to address investigation of 
risk factors involving child deaths. This includes if the caregiver was 
distracted by electronics, i.e. gaming, using their cell phone, 
involved in online social media at the time of the child's death; the 
sleep environment of the child, i.e. parent and child were bed-sharing, 
child may have suffocated due to an unsafe sleep setting; and using 
substances, i.e. alcohol, prescription, or over the counter medication 
at the time of the child's death. Another factor contributing to 
underreporting of child abuse and neglect incidents involves families 
seeking medical treatment for child abuse outside of the military 
healthcare system. Civilian medical providers are required to report 
child abuse to the local CPS agency but civilian medical providers are 
not required to report child abuse incidents to military FAP. Military 
families may also decline to take children for medical care following a 
child abuse incident and therefore FAP would not have knowledge of the 
incident. Headquarters Marine Corps is working with installation FAPs 
to ensure that cases involving a Servicemember or certain affiliated 
personnel are taken to the Incident Determination Committee for review 
in accordance with DODI 6400.06, ``Domestic Abuse Involving DOD 
Military and Certain Affiliated Personnel,'' 21 August 2007, as 
amended. The USMC is committed to addressing issues related to gaps in 
reporting all incidents of child abuse and neglect as these problems 
are identified.
                                panel 2:
    3. Senator Gillibrand. Ms. Barna and Ms. Raezer, for the past few 
years, I have been requesting sexual assault case files from four of 
the largest U.S. bases--one per service. One of the issues that my 
staff and I have found in looking through the files is the high number 
of military family survivors. Despite being reported as unrestricted, 
these cases are often withdrawn within the first year of the 
investigation. Filing an unrestricted complaint requires completing 
paperwork and publicly disclosing sexual or physical abuse from a 
spouse--a courageous and difficult decision. I am concerned by the 
withdrawals of these serious complaints.
    From the perspective of our military families, how do you recommend 
addressing the high volume of cases withdrawn by survivors?
    Should the Department of Defense include family members in surveys 
reporting incidents of sexual assault?
    Ms. Barna. The volume of cases withdrawn by military-related 
survivors (spouses or intimate partners) is consistent with the private 
sector. Research and studies demonstrate that victims of violence in 
intimate partner relationships often withdraw formal complaints and/or 
return to their partner seven times prior to leaving that relationship, 
on average. A survivor may want to remain in the relationship (and may 
have children); they may want their spouse to receive treatment (the 
Family Advocacy Program provides treatment for both victims and 
offenders); they may be concerned about the potential financial impact 
on the family should they leave the relationship; and overall they may 
still love their spouse or partner, and feel committed to seeking help 
and staying together. This is part of an overall pattern in the cycle 
of violence, often accompanied by the alleged offender's promises to 
change and the survivor or victim's belief that the alleged offender 
can and will change. Ultimately, it is a victim's choice whether or not 
to participate in criminal proceedings against the offender. Attempting 
to compel testimony from the victimized partner in these cases is often 
counterproductive, and ultimately does not help the family, the 
community, or military readiness. Solutions for many of these families 
cannot be found in the justice system. Rather, the only sustainable 
solutions are derived by working with these families in a therapeutic 
setting to identify and address those factors that give rise to 
domestic violence in their relationships. Military spouses were 
surveyed by the Centers for Disease Control and Prevention (CDC) to 
collect information in 2010 for the National Intimate Partners and 
Sexual Violence Survey (NISVS) report. The CDC report, released in 
2013, was the first time DOD has been able to compare the prevalence of 
intimate partner violence, sexual violence, and stalking with the 
general population. Overall, the estimated prevalence of intimate 
partner violence, sexual violence, and stalking were similar among 
women in the U.S. population, Active Duty women, and the wives of 
Active Duty men. A 2017 update to this NISVS, also sponsored by the 
CDC, will assess the estimated prevalence of sexual assault and 
intimate partner violence in the Active force and their family members. 
The Department will use the information released by the CDC to compare 
the prevalence of these adverse events in the military-related 
population to the general population.
    Ms. Raezer. Military family survivors withdraw from domestic 
violence/sexual assault investigations for many reasons--they want to 
save the marriage; they want to stay together for the children; they 
want their spouse to receive treatment; or, they're concerned about the 
financial impact to the family should the servicemember be forced to 
leave the military. Military families are no different from their 
civilian counterparts--victims hope that their spouse will change and 
the violence will end.
    Additionally, many military domestic abuse cases are tried within 
civilian courts because the offense occurred in the civilian community 
and local law enforcement is involved. Many times, the military does 
not receive jurisdiction even when requested. Alleged offenders are 
often ordered to attend court-mandated offender treatment programs. 
Service Family Advocacy Programs (FAP) work closely with the civilian 
court systems so that the offenders may receive their treatment through 
FAP, and their case is continually monitored. For the cases that are 
referred for courts martial, FAP monitors and provides necessary 
treatment services. In
addition, if the servicemember is separated from the military due to 
domestic violence, the family may receive transitional compensation 
benefits. For more information on the Transitional Compensation 
Benefits for survivors of domestic violence visit 
www.militaryonesource.mil/health-and-wellness/family-violence?content--
id= 282312.
    This issue must be addressed by the Department of Defense and it's 
civilian enforcement and support partners. Our Association encourages 
members of the Personnel Subcommittee to meet with the Department of 
Defense Family Advocacy Program and the Special Victims Counsel to 
better understand the process from reporting an incident to treatment 
or prosecution.
    No, we do not recommend including family members in surveys 
reporting incidents of sexual assault. Sexual assault in the military 
is a workplace violence issue and spouse/intimate partner sexual 
assault is a domestic violence issue. The two issues should be surveyed 
separately with supports and resources available to assist the 
survivors.
                               __________
            Questions Submitted by Senator Elizabeth Warren
        consumer protections for military personnel and families
    4. Senator Warren. Ms. Raezer, Congress created the Consumer 
Financial Protection Bureau (CFPB) after the financial crisis so there 
would be a government agency that had the tools and the authority to 
protect consumers from being cheated on their mortgages, credit cards, 
checking accounts, student loans, and other financial products, and to 
hold financial institutions and other companies accountable. In just 5-
1/2 years, the CFPB has forced companies to return $12 billion dollars 
directly to consumers they cheated. It also has a special unit to look 
after the unique needs of servicemembers, the Office of Servicemember 
Affairs.
    While the Military Lending Act did a lot to stop lenders from 
exploiting servicemembers through payday loans and unfair terms on 
other loans, some lenders used loopholes in the law to continue to 
offer predatory terms for other financial products--in effect charging 
servicemembers and their families sometimes 100 percent interest, 200 
percent, 400 percent. At the urging of the CFPB, the Department of 
Defense closed these loopholes in 2015. Do you believe that those 
protections are worth keeping, and if so, why?
    Ms. Raezer. We believe many of the protections included in the DOD 
rule-making are worth keeping. We understand the impetus for the 
addition of fees paid ``for credit-related ancillary products sold in 
connection with the credit transaction.'' While the addition of fees 
charged provides greater visibility on the full cost of a loan, we are 
concerned that the inclusion of the fees in the calculation may have 
the unintended consequence of diminishing servicemembers and their 
families' access to small-dollar loans.
    We also thought the timing of written disclosures was a positive 
change for servicemembers and military families who have attempted to 
obtain credit for emergencies or other reasons by telephone and been 
denied due to the need to provide the necessary MLA disclosures in 
writing, at the time of the transaction.
    We have some concerns about the oral disclosures. Creditors can 
provide a model statement to ensure borrowers understand their payment 
obligations. This means service and family members need to keep reading 
the fine print before they sign. This statement is not required to 
describe all of the details of the payments to which the borrower is 
agreeing.
    We are also particularly concerned about the potential impacts of 
the ``safe harbor'' from liability for lenders who verify the MLA 
status of a consumer. Under the new DOD rule, lenders will have to 
check each credit applicant to confirm that they are not a 
servicemember, spouse, or the dependent of a servicemember, through a 
nationwide consumer reporting agency or DMDC. We are concerned that if 
the verification process is too cumbersome lenders will not offer 
services to servicemembers and their families.
    Practices such as the ``safe harbor'' and addition of fees provide 
servicemembers with more protections than their civilian counterparts. 
We are concerned that we're moving toward two sets of financial 
protections and financial institutions will no longer offer certain 
services and products to servicemembers and their families because it 
is too difficult. We ask DOD and Congress to monitor the implementation 
of all provisions under the MLA to ensure military families' access to 
credit products is not diminished and that the provisions are providing 
the necessary protections.

    5. Senator Warren. Ms. Raezer, several years ago, Congress decided 
that servicemembers who were deployed on Active Duty could not be 
charged more than 6 percent interest on their student loans. But for 
nearly a decade, Sallie Mae--now called Navient--deceived 
servicemembers trying to get an education and charged them more. The 
DOJ and FDIC sued Sallie Mae after receiving evidence from the CFPB 
that the company was cheating servicemembers. As a result, the company 
had to pay $60 million to almost 78,000 servicemember students who were 
cheated. And just last month, the CFPB sued Navient again for another 
student loan scam--this time involving disabled veterans. Do you 
believe that the CFPB should continue to look out for the best 
interests of servicemembers to make sure they're not overcharged by 
banks or student loan companies that break the law, and if so, why?
    Yes, CFPB should continue to look out for the best interests of 
servicemembers and their families to make sure they're not overcharged 
by banks or student loan companies that break the law.
    The consumer agency's military protection unit has an impressive 
record. It has worked to secure $120 million in refunds for military 
families harmed by financial companies. The agency has also handled 
more than 70,000 complaints from military families and visited 145 
military installations and units. The unit has also launched financial 
education initiatives to assist military families and veterans with 
making financial choices, forming education partnerships with other 
federal and state agencies.
    One of the most important functions of the CFPB's dedicated 
military protection unit is to coordinate consumer protection efforts 
across government. Recently, law enforcement activity by CFPB and other 
agencies to address misconduct against military families has 
accelerated and must continue.

    6. Senator Warren. Ms. Raezer, overall, do you believe that the 
CFPB's Office of Servicemember Affairs has benefited military 
servicemembers and their families, and if so, why?
    Ms. Raezer. Financial readiness is a crucial part of family 
readiness and force readiness. There is a clear and compelling public 
interest that Congress continue to support vigorous enforcement of laws 
that protect military families from wrongful financial practices, 
including the Military Lending Act and the Servicemembers Civil Relief 
Act. Adequate enforcement not only protects these consumers and their 
families, but also the law-abiding companies that are disadvantaged by 
having to compete with bad actors. Importantly, the strong record of 
the Consumer Financial Protection Bureau and its Office of 
Servicemember Affairs underscores the need for Congress to resist 
efforts that seek to hamstring this work. Tampering with the agency's 
authorities, structure, and independence would be harmful to military 
families and honest companies across the country. We must work to 
ensure that federal agencies, such as the Department of Defense, and 
industry continue to support the CFPB and its dedicated military 
protection unit.

                                 [all]
</pre></body></html>
